No. _____
IN THE

MOSES STRAUSS, ET AL.
Petitioners,
v.
CRÉDIT LYONNAIS, S.A.,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI
Peter Raven-Hansen
Gary M. Osen
Michael Radine
Ari Ungar
OSEN LLC
190 Moore Street
Suite 272
Hackensack, NJ 07601

Thomas C. Goldstein
Counsel of Record
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
James P. Bonner
FLEISCHMAN BONNER &
ROCCO LLP
81 Main Street, Suite 515
White Plains, NY 10601

Counsel for Petitioners

i
QUESTION PRESENTED
The question presented is:
Whether a person who knowingly transfers substantial funds to a designated foreign terrorist organization aids and abets that organization’s terrorist acts
for purposes of civil liability under the Justice Against
Sponsors of Terrorism Act, 18 U.S.C. § 2333(d)(2).
The same question is presented by a parallel petition in Weiss v. National Westminster Bank PLC, also
filed today. Petitioners here recommend that this
Court consider the two petitions together, grant the
petition in Weiss, hold this case pending the outcome
of that one, and then vacate and remand as appropriate.

ii
PARTIES TO THE PROCEEDING
Petitioners are Moses Strauss, Philip Strauss,
Bluma Strauss, Ahron Strauss, Roisie Engelman, Joseph Strauss, Tzvi Weiss, Leib Weiss, Malke Weiss,
Yitzchak Weiss, Yeruchaim Weiss, Esther Deutsch,
Matanya Nathansen, Chana Nathansen, Matanya and
Chana Nathansen for the Estate of Tehilla Nathansen,
Yehudit Nathansen, S.N., a minor, Hezekiel Toporowitch, Pearl B. Toporowitch, Yehuda Toporowitch,
David Toporowitch, Shaina Chava Nadel, Bluma Rom,
Rivka Pollack, Eugene Goldstein, Lorraine Goldstein,
Barbara Goldstein Ingardia, Richard Goldstein, Michael Goldstein, Chana Freedman, Michal Honickman
for the Estate of Howard Goldstein, Michal Honickman, David Goldstein, Harry Leonard Beer as Executor of the Estate of Alan Beer, Harry Leonard Beer,
Anna Beer, Phyllis Maisel, Estelle Carroll, Sarri Anne
Singer, Judith Singer, Eric M. Singer, Robert Singer,
Julie Averbach for the Estate of Steven Averbach, Julie Averbach, Tamir Averbach, Devir Averbach, Sean
Averbach, A.A., a minor, Maida Averbach for the Estate of David Averbach, Maida Averbach, Michael
Averbach, Eileen Sapadin, Daniel Rozenstein, Julia
Rozenstein Schon, Alexander Rozenstein, Esther Rozenstein, Jacob Steinmetz, Deborah Steinmetz, Jacob
Steinmetz And Deborah Steinmetz for the Estate of
Amichai Steinmetz, Nava Steinmetz, Orit Mayerson,
Natanel Steinmetz, Robert L. Coulter, Sr. for the Estate of Janis Ruth Coulter, Dianne Coulter Miller,
Robert L. Coulter, Sr., Robert L. Coulter, Jr., Larry
Carter as the Administrator of the Estate of Diane
Leslie Carter, Larry Carter, Shaun Choffel, Richard
Blutstein and Katherine Baker for the Estate of Benjamin Blutstein, Richard Blutstein, Katherine Baker,

iii
Rebekah Blutstein, Nevenka Gritz for the Estate of
David Gritz, Nevenka Gritz, Nevenka Gritz for the Estate of Norman Gritz, Jacqueline Chambers as the Administrator of the Estate of Esther Bablar, Jacqueline
Chambers, Levana Cohen, Eli Cohen, Sarah Elyakim,
Yehuda Agababa, Menache Agababa, Yehezkel Agababa, Greta Geler, Ilana Eropa Dorfman, Refael Kitsis
and Tova Guttman as the Administrators of the Estate
of Hannah Rogen, Akiva Anachovich, Temima Spetner, Jason Kirschenbaum, Isabelle Kirschenbaum, Isabelle Kirschenbaum for the Estate of Martin
Kirschenbaum, Joshua Kirschenbaum, Shoshana Burgett, David Kirschenbaum, Danielle Teitelbaum,
Netanel Miller, Chaya Miller, Arie Miller, Altea Steinherz, Jonathan Steinherz, Baruch Yehuda Ziv Brill,
Chaya Beili, Bennett And Paula Finer as Legal Guardians for Chana Nachenberg, David Nachenberg, S.N.,
a minor, Bennett Finer, Paula Finer, Zev Finer, Shoshana Finer Ohana, Mina Dora Green, Mina Dora
Green for the Estate of Howard M. Green, Steven
Greenbaum for the Estate of Judith Greenbaum, Steven Greenbaum, Alan Hayman, Shirlee Hayman, David Danzig, Neil Danzig for the Estate of Rebecca Danzig, Neil Danzig, Hayyim Danzig, Sarah Pearlman,
Clara Ben-Zaken Laser, Netanel Herskovitz, Martin
Herskovitz, Pearl Herskovitz, Yaakov Herskovitz,
Joshua Faudem, Zohar Fater, Bruce Mazer, Orly Rom,
Richard Coffey, Gal Ganzman, Judith Buchman-Ziv,
Ora Cohen, Mirav Cohen, Daniel Cohen, O.C., a minor,
S.C., a minor, E.N.C., a minor, Faiga Zvia Lieberman,
Einat Noked for the Estate of Eyal Noked, Einat
Noked, A.N., a minor, Avishag Noked, Baruch Zuri
Noked, Binyamin Elkana Noked, Neta Nechama Cohen, T.N., a minor, Karen Goldberg, Chana Weiss, Esther Goldberg, Yitzhak Goldberg, Shoshana Goldberg,

iv
Eliezer Goldberg, Y.M.G., a minor, T.Y.G., a minor,
Nilly Choman Gila Aluf, Estate of Bernice Wolf, Ari
Horovitz, Batsheva Horovitz Sadan, David Horovitz,
Estate of Debra Ruth Horovitz, Estate of Elnatan Horovitz, Estate of Leah Horovitz, Estate of Moshe Horovitz, Nechama Horovitz, Shulamite Horovitz, Tova
Horovitz Naiman, Tvi Horovitz, Uri Horovitz, Estate
of Bryan Wolf, Stanley Wolf, Averham Grossman, Devorah Chechanow Leifer, Joseph Leifer, Bracha Milstein, Shifra Miller, Chaya Rosenberg, Abraham
Waxler, Arthur Waxler, Baruch Waxler, Chana
Waxler, Dina Waxler, Ezekiel Waxler, Gedalia
Waxler, Haggi Waxler, Nachum Waxler, Obadiah
Waxler, Yaakov Waxler, Yoel Waxler, Zacharia
Waxler, Nethaniel Bluth, Moshe Naimi, Faye Chana
Benjaminson, the Estate of Moshe Gottlieb, Seymour
Gottlieb, Sheila Gottlieb, Philip Litle, Estate of Abigail
Litle, Elishua Litle, Hannah Litle, Heidi Litle, Josiah
Litle, Noah Litle, Fran Strauss Baxter, William J.
Baxter, Ariela Freirmark, Menachem Freirmark,
Hadassah Freirmark, Phyllis Pam, Rivka Reena Pam,
Shoshana Tita, Ezra Tita, Ephraim Tita, Ephriam
Tita for the Estate of Bertin Tita, Rachel Potolski,
Ovadia Topporowitch, Yisrael Topporowitch, Yitzchak
Topporowitch, Miriam Ehrenfeld, Rose Joseph, Leibel
Reinitz, Malvia Reinitz, Margali Reinitz, Mendy Reinitz, Miriam Reinitz, Rivka Reinitz, Samuel Reinitz,
Shmuel Reinitz, Yakov Reinitz, the Estate of Yissocher
Dov Reinitz, Yitzchok Reinitz, Raizel Shimon, Leah
Tauber, Helen Weider, Avrohom D. Richter, Breina
Richter, Miriam Leah Richter, Moshe Richter,
Nechama Richter, Sara Malka Richter, Shlomo Chaim
Richter, Tranne Richter, Yakov Yosef Richter, the Estate of Mordechai Reinitz, Yechiel Richter, Yehudis
Richter, Yisroel Richter, Yitzchok Richter, Perl

v
Brailofsky, Malky Breuer, Ester Buxbaum, Gittel Cohen, Chaya Freisel, Rachel Rosner, Elizabeth
Schwartz, Jacob Schwartz, Max Schwartz, Michael
Schwartz, Phillip Schwartz, Abraham Zarkowsky,
Aron Zarkowsky, Bshava Zarkowsky Richter, Estate of
Eli Zarkowsky, Ezriel Zarkowsky, Gittel Zarkowsky,
Mendel Zarkowsky, Estate of Goldie Zarkowsky, Joseph Zarkowsky, Miriam Zarkowsky, Shrage Zarkowsky, Trany Zarkowsky, Yehuda Zarkowsky, the Estate
of David Applebaum, Debra Applebaum, the Estate of
Jacqueline Applebaum, Natan Applebaum, the Estate
of Naava Applebaum, Shira Applebaum, Yitzchak Applebaum, Shayna Applebaum, Tovi Belle Applebaum,
Geela Applebaum Gordon, Chaya Tziporah Cohen,
Erik Schecter, Shlomo Tratner, and the Estate of
Tiferet Tratner.
Respondent is Crédit Lyonnais, S.A.
RELATED PROCEEDINGS
Strauss v. Crédit Lyonnais, S.A., 06-cv-702
(E.D.N.Y. Mar. 31, 2019), consolidated with
Wolf v. Crédit Lyonnais, S.A., 07-cv-914
(E.D.N.Y.)
Strauss v. Crédit Lyonnais, S.A., Nos. 19-865,
19-1285 (2d Cir. Apr. 7, 2021)

vi
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDING ............................ ii
RELATED PROCEEDINGS........................................ v
TABLE OF AUTHORITIES ..................................... viii
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 3
JURISDICTION........................................................... 4
STATUTORY PROVISIONS INVOLVED .................. 4
STATEMENT OF THE CASE..................................... 4
REASONS FOR GRANTING THE WRIT ................ 15
I. The Decision Below Conflicts With Decisions
From Other Circuits. ...................................... 15
II. The Decision Below Is Incorrect. .................... 19
III. The Question Presented Is Important. ......... 24
IV. This Court Should Consider Calling For
The Views Of The Solicitor General. .............. 24
CONCLUSION .......................................................... 25
APPENDIX A: Summary Order of the Court of
Appeals (2d Cir. 2021) ..................... 1a
APPENDIX B: Opinion of the Court of Appeals in
Weiss v. National Westminster
Bank PLC (2d Cir. 2021)................ 11a
APPENDIX C: Opinion and Order of the District
Court (E.D.N.Y. 2019) .................... 53a
APPENDIX D: Opinion and Order of the District
Court (E.D.N.Y. 2016) .................... 82a

vii
APPENDIX E: Opinion and Order of the District
Court (E.D.N.Y. 2013) .................. 133a
APPENDIX F: Statutory Provisions .................... 208a

viii
TABLE OF AUTHORITIES
Cases
Abecassis v. Wyatt,
785 F. Supp. 2d 614 (S.D. Tex. 2011) .................... 17
Boim v. Holy Land Found. for Relief & Dev.,
549 F.3d 685 (7th Cir. 2008) ................ 15, 16, 17, 24
Halberstam v. Welch,
705 F.2d 472 (D.C. Cir. 1983) ........................ passim
Holder v. Humanitarian Law Project,
561 U.S. 1 (2010) ............................................ passim
Linde v. Arab Bank, PLC,
882 F.3d 314 (2d Cir. 2018) ........................... passim
United States v. El-Mezain,
664 F.3d 467 (5th Cir. 2011) ............................ 16, 17
Weiss v. Nat’l Westminster Bank PLC,
768 F.3d 202 (2d Cir. 2014) ..................................... 8
Weiss v. Nat’l Westminster Bank, PLC,
993 F.3d 144 (2d Cir. 2021) ........................... passim
Statutes
Antiterrorism and Effective Death Penalty Act
of 1996, Pub. L. No. 104-132, 110 Stat. 1214 .... 1, 20
Justice Against Sponsors of Terrorism Act,
Pub. L. No. 114-222, 130 Stat. 852 (2016) .... passim
18 U.S.C. § 2331(1) .................................................... 12
18 U.S.C. § 2331(1)(A) ............................................... 22
18 U.S.C. § 2333........................................................... 1
18 U.S.C. § 2333(d)(2) .................................... 10, 14, 15
18 U.S.C. § 2339B ...................................... 6, 13, 16, 19
28 U.S.C. § 1254........................................................... 4

INTRODUCTION
Petitioners are more than 200 American nationals
(or the family members or estates of American nationals) who were injured or killed in terrorist attacks
committed by Hamas in Israel during the Second Intifada, a widely reported period of intense terrorist violence in the early 2000s. They brought this action under the Antiterrorism Act (ATA), 18 U.S.C. § 2333,
against respondent Crédit Lyonnais, S.A. (CL).
Petitioners allege that CL processed hundreds of
transactions for Hamas’s principal French fundraiser,
the Comité de Bienfaisance et de Secours aux Palestiniens (translated, the Committee for Palestinian Welfare and Relief, which the parties and lower courts refer to as CBSP). Pet. App. 64a. These transfers were
nominally for charitable purposes, but CL knew that
CBSP was sending large sums of money to what it
called “Islamist” organizations in a region experiencing near-daily terrorist violence. Id. at 158a. By its
own admission, CL suspected that CBSP was engaged
at least in money-laundering, which its own regulator
warned is often associated with terror financing. Id. at
160a-61a. The transfers swelled Hamas’s coffers, enabling its terrorist violence.
It is a fundamental axiom of our anti-terrorism
laws that “[f]oreign organizations that engage in terrorist activity are so tainted by their criminal conduct
that any contribution to such an organization facilitates that conduct.” Holder v. Humanitarian Law Project, 561 U.S. 1, 36 (2010) (quoting Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), Pub. L.
No. 104-132, § 301(a)(7), 110 Stat. 1214, 1247). Indeed,
this Court held that it is “wholly foreseeable” that even

2
peaceful support to such organizations will be used “to
promote terrorism.” Id. at 36-37.
Under that rule, any bank that enabled Hamas to
access millions of dollars during the Second Intifada
should be subject to liability—or at least have to face
a jury. But the Second Circuit ruled for CL as a matter
of law, holding that even though the record evidence
would enable a jury to find that CL knowingly provided support to Hamas, that was not enough for a
jury to find that CL knew it was playing a role in illegal activities that foreseeably risked terrorist violence.
The Second Circuit reached this conclusion because
the transfers in this case purportedly were earmarked
for charitable purposes, and there was no evidence
that the specific dollars transferred were used for terrorist attacks or recruiting. The Second Circuit’s holding effectively creates a charity loophole in the antiterrorism laws—a result that has been emphatically
rejected by other courts of appeals, as well as authoritative pronouncements from this Court, Congress, and
the Executive.
This petition seeks review of an unpublished Second Circuit decision that was issued on the same day
as the published decision in Weiss v. National Westminster Bank, PLC, 993 F.3d 144 (2d Cir. 2021) (included as Pet. App. 11a-52a). Weiss is a case brought
by mostly the same petitioners, alleging that another
bank moved money for a related Hamas fundraiser to
substantially the same transferees at issue in this
case. As the Second Circuit explained in this case:
[B]oth sets of actions were commenced in the
mid-2000’s asserting ATA claims premised on
international terrorist attacks attributed to
Hamas; the actions proceeded largely along

3
parallel lines (sometimes with coordinated
pretrial discovery proceedings), involved the
same legal issues, and were dismissed by the
same district judge in opinions filed on the
same day, with the opinion in the present case
frequently citing past decisions and reasoning
in the Weiss actions.
Pet. App. 9a. Moreover, “[t]he issues in these two sets
of actions were the same; the issues in both appeals
are the same; the arguments made by both sets of appellants are the same; and the two appellees pursue
virtually identical conditional cross-appeals.” Ibid. Accordingly, the Second Circuit affirmed in this case “for
the reasons discussed in Weiss.” Ibid.
Petitioners today filed a petition seeking review of
the published decision in Weiss. Review is warranted
here for substantially the same reasons as stated in
that petition. Rather than repeat all the arguments
verbatim, petitioners here recount the factual and procedural history of this case, and explain why the facts
of this case strongly reinforce the argument for certiorari in Weiss. Petitioners also explain why the arguments in the Weiss petition apply with full force here.
Petitioners respectfully urge the Court to grant certiorari in Weiss, hold this case pending the outcome, and
then grant, vacate, and remand if petitioners prevail
in Weiss.
OPINIONS BELOW
The Second Circuit’s opinion (Pet. App. 1a-10a) is
not published in the Federal Reporter but is reprinted
at 842 F. App’x 701. The district court’s opinion (Pet.
App. 53a-81a) is reported at 379 F. Supp. 3d 148.

4
JURISDICTION
The Second Circuit’s judgment was entered on
April 7, 2021. Pet. App. 1a. This petition is timely filed
under this Court’s March 19, 2020 order, which extends the deadline to file any petition for a writ of certiorari to 150 days from the date of the lower court
judgment, and remains in effect in this case pursuant
to this Court’s July 19, 2021 order. This Court has jurisdiction pursuant to 28 U.S.C. § 1254.
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions are reproduced
in the appendix at 208a-211a.
STATEMENT OF THE CASE
1. Petitioners are victims, family members of victims, and estates of victims of terrorist attacks Hamas
committed during the Second Intifada.
Petitioners allege that no later than 1997, CL
knowingly sent money to Hamas for CBSP, which was
Hamas’s principal fundraiser in France. Pet. App. 73a.
CBSP was a CL customer starting in 1990. Id. at 135a.
During the relevant time period, CL directed at least
270 funds transfers, valued at approximately $2.5 million, to 13 Hamas-controlled organizations in the Palestinian Territories for CBSP. See id. at 173a.
These recipients were referred to below as the 13
Charities, and the record evidence would allow “a reasonable jury” to find that they “are operating as Hamas front groups.” Pet. App. 170a. Some of the 13
Charities were “founded by co-founders of Hamas”;
some “recruit[] youth to support Hamas and financ[e]
Hamas land purchases”; and others run schools that
“support[] Hamas’ ideology,” to give but a few

5
examples. Id. at 170a-171a. Petitioners’ experts
showed that the 13 Charities have “shared leadership”
with Hamas, and display “an active support of Hamas’
ideology and goals.” Id. at 172a. More than that, the
13 Charities are “interwoven with Hamas and crucial
to its success.” Ibid. Based on the evidence in this case,
one could reasonably find that the 13 Charities “were
controlled by Hamas,” such that sending money to
them was “no different from sending the money directly to Hamas.” Id. at 168a.
The United States designated CBSP a Specially
Designated Global Terrorist (SDGT) on August 22,
2003. See Pet. App. 19a. The Treasury Department explained that Hamas raises “tens of millions of dollars
per year throughout the world using charitable funding as cover.” A-2219.1 Using “a web of charities to facilitate funding and to funnel money,” Hamas obtains
funds that are “often diverted or siphoned to support
terrorism.” Ibid. Although this money is sometimes
also used “for legitimate charitable work, this work is
a primary recruiting tool for the organization’s militant causes.” Ibid. Thus, charitable donations “allow
the group to continue to foment violence, strengthen
its terrorist infrastructure, and undermine responsible leadership.” Ibid.
The announcement described CBSP as the “primary fundraiser[] for Hamas in France,” explaining
that CBSP “has collected large amounts of money from
mosques and Islamic centers, which it then transfers

1

Citations to A-____ are to the joint appendix in the court of
appeals.

6
to sub-organizations of Hamas,” e.g., the 13 Charities.
A-2220 (capitalization altered).
Even after CBSP was designated an SDGT, CL delayed closing CBSP’s accounts until the following
month. Pet. App. 147a. Upon closing the accounts, CL
did not block or retain the funds (over €250,000), but
instead returned them to CBSP despite CBSP’s designation as an SDGT. See ibid.
2. Petitioners brought this case in parallel with
Weiss v. National Westminster Bank, a case based on
similar conduct by another bank moving money for another European Hamas fundraiser that was designated an SDGT on the same day as CBSP.
As relevant here, petitioners’ complaints (which
were filed in 2006 and 2007, and consolidated in 2011),
Pet. App. 54a-55a & n.2, asserted causes of action
against CL for primary liability (alleging that the provision of material support to designated foreign terrorist organizations (FTOs) is itself an act of international terrorism under the statutory definition) as well
as aiding and abetting. Id. at 147a-148a. The aiding
and abetting claims were dismissed because, at the
time, the statute did not have that cause of action. The
case proceeded on primary liability claims predicated
on violations of the material support statutes, including 18 U.S.C. § 2339B, which makes it a felony to
knowingly provide any material support to a designated FTO. See Pet. App. 148a-149a (recounting history).
After discovery, CL moved for summary judgment. The district court largely denied that motion in
2013. As relevant here, the court found that “[a] reasonable jury could conclude, based upon the evidence,

7
that Defendant sent millions of dollars to organizations controlled by Hamas, and was providing financial services to Hamas’ primary fundraiser in France.”
Pet. App. 164a.
With respect to CL’s scienter, the court found “a
genuine issue of material fact as to whether Defendant
knew about or deliberately disregarded CBSP’s purported support of Hamas or Hamas front groups, and
that, by sending money to the 13 Charities, it was facilitating Hamas’ ability to carry out terrorist attacks.”
Pet. App. 157a. Thus, the record reflected that CL “had
concerns about CBSP’s accounts since at least 1997,”
and placed them “under heightened scrutiny.” Ibid.
CL’s concerns included worries “about the large influx
of cash coinciding with a major escalation of violence
in Israel and Palestine.” Id. at 157a-158a. On October
30, 2001, CL blocked a CBSP transfer sent through its
New York branch to a Hamas front organization and
filed a Suspicious Activity Report (“SAR”) that solely
identified “terrorism” in the summary of suspicious activity. A-729. The SAR further disclosed that, in January 2001, CL filed a declaration with French banking
regulators related to CBSP’s transactions. See ibid.
Shortly thereafter, CL decided to close CBSP’s accounts—but the accounts actually remained open until
after CBSP was designated an SDGT, and even then
they were not closed immediately. Pet. App. 158a.
CL believed that CBSP was engaged in illegal activity, but in its defense, it argued “strenuously that it
was suspicious only that CBSP’s accounts may have
been used for money laundering and did not suspect
that CBSP was funneling money to a terrorist group.”
Pet. App. 160a. But the French Banking Commission
told CL in 2001 that “money laundering” may involve

8
“activities aimed at committing acts of terrorism, as
well as collusion with such acts.” A-625.
Unsurprisingly, therefore, the district court refused to grant summary judgment on this defense, explaining that a jury could find CL’s explanation “incredible” and “unbelievable,” and also that “there is no
serious dispute that money laundering and terrorism
are not mutually exclusive. It has been widely
acknowledged that they can go hand in hand, as one
certainly can be used to fund the other.” Pet. App.
160a-161a.
CL also argued that the French government and
the European Union had not sanctioned CBSP or concluded that it supported terrorism. Pet. App. 161a. The
district court held, however, that “it would be perfectly
reasonable for a jury to disagree and side with the
United States government’s assessments” instead. Id.
at 162a; accord Weiss v. Nat’l Westminster Bank PLC,
768 F.3d 202, 210 (2d Cir. 2014) (“[I]n the face of contrary findings—in this case by the United States
Treasury Department—such views of foreign governments could not support summary judgment.”).
The district court also addressed the issue of proximate causation, concluding that:
a reasonable juror could conclude that the sizable amount of money sent from Defendant to
Hamas front organizations was a substantial
reason that Hamas was able to perpetrate the
terrorist attacks at issue, and that Hamas’ increased ability to carry out deadly attacks
was a foreseeable consequence of sending millions of dollars to groups controlled by Hamas.

9
Pet. App. 164a. The court further held that “plaintiffs
who bring an ATA action are not required to trace specific dollars to specific attacks to satisfy the proximate
cause standard. Such a task would be impossible and
would make the ATA practically dead letter because
‘[m]oney is fungible.’” Id. at 167a (quoting Holder, 561
U.S. at 31). Indeed, the court recognized that “the social services provided by Hamas and its front groups
are integral to building popular support for its organization and goals, which then facilitates its ability to
carry out violent attacks.” Ibid.
Finally, the district court found that the evidence
was sufficient to create an issue of fact “as to whether
Hamas perpetrated fourteen of the fifteen attacks”
that injured petitioners. Pet. App. 187a. Indeed, with
respect to one attack, the court granted summary
judgment to the plaintiffs, finding that the undisputed
evidence showed that Hamas committed the attack.
See id. at 207a.
3. While this case was pending, Congress
amended and lengthened the ATA’s statute of limitations, which caused the district court to reinstate
claims based on five attacks that previously were
deemed time-barred. See Pet. App. 56a-57a.
Congress also enacted the Justice Against Sponsors of Terrorism Act (JASTA), Pub. L. No. 114-222,
130 Stat. 852 (2016). In enacting the statute, Congress
sought:
to provide civil litigants with the broadest
possible basis, consistent with the Constitution of the United States, to seek relief
against persons, entities, and foreign countries, wherever acting and wherever they may

10
be found, that have provided material support, directly or indirectly, to foreign organizations or persons that engage in terrorist activities against the United States.
JASTA § 2(b).
To achieve this intended breadth, Congress provided that if a plaintiff was injured in an act of terrorism “committed, planned, or authorized” by an organization that the Secretary of State has designated an
FTO, then “liability may be asserted as to any person
who aids and abets, by knowingly providing substantial assistance, or who conspires with the person who
committed such an act of international terrorism.” 18
U.S.C. § 2333(d)(2).
Congress fleshed out the aiding and abetting
cause of action by adopting the liability standard from
Halberstam v. Welch, 705 F.2d 472 (D.C. Cir. 1983).
JASTA § 2(a)(5). Under Halberstam, aiding and abetting has three elements:
(1) the party the defendant aids must perform
a wrongful act that causes an injury; (2) the
defendant must be generally aware of his role
as part of an overall illegal or tortious activity
at the time he provides the assistance; and
(3) the defendant must knowingly and substantially assist the principal violation.
Halberstam, 705 F.2d at 487-88.
When a plaintiff alleges that a defendant aided
and abetted an act of violence, the awareness element
is met if the defendant was generally aware that she
was playing a role in any illegal activity from which
violence is a foreseeable risk. See 705 F.2d at 488. The
defendant need not intend for violence to occur, nor

11
contribute directly to the violent act; indeed, the defendant need not even know the precise nature of the
illegal activity she is assisting. See ibid. Thus, in Halberstam itself, the defendant was a bookkeeper and
secretary for a burglary enterprise, who was held liable for an unplanned murder that occurred during a
botched getaway—even though she had no direct role
in the murder, no knowledge that it would occur, and
may not even have known that she was assisting burglaries. See id. at 475, 488. The court explained that
the required awareness was not general awareness of
her role in the principal tort (there “violence and killing”); it was general awareness of her role in any illegal activity from which “violence and killing is a foreseeable risk.” Id. at 488.
For the support to be “substantial,” (the third Halberstam element) courts look to multiple factors including but not limited to the amount and duration of
the assistance. Under this standard, even acts that are
“neutral standing alone” can support liability based on
the “context of the enterprise they aided.” Halberstam,
705 F.2d at 488. By incorporating Halberstam into
JASTA, Congress showed its resolve to create the
broadest possible cause of action.
JASTA applies retroactively to any pending case
based on injuries that arose on or after September 11,
2001. JASTA § 7. The statute applies to the attacks in
this case because Hamas is a designated FTO that
committed, planned, and authorized the attacks that
injured petitioners and their family members.
4. Two years after JASTA was enacted, the Second
Circuit decided Linde v. Arab Bank, PLC, 882 F.3d 314
(2d Cir. 2018). There, plaintiffs (many of whom are petitioners here) injured in attacks committed by Hamas

12
from 2001 to 2004 sued a Jordanian bank for providing
financial services to Hamas entities, leaders, and operatives. The plaintiffs prevailed after a liability trial.
See id. at 317-18.
On appeal, the Second Circuit found that the district court had improperly instructed the jury regarding the elements of ATA primary liability. See Linde,
882 F.3d at 318. Specifically, the Second Circuit held
that the district court erroneously allowed the jury to
impose liability upon finding that the bank knowingly
provided material support to a terrorist organization
without separately requiring the jury to find that the
bank satisfied the elements of 18 U.S.C. § 2331(1)’s
definition of “international terrorism” (e.g., the “violent” or “dangerous to human life” requirement, and
the apparent intent requirement).
The plaintiffs in Linde argued that any charging
error was harmless, in part because, under JASTA
(enacted after the trial in Linde), knowingly providing
material support to a designated FTO was effectively
the same as aiding and abetting the organization’s terrorist violence. Thus, the plaintiffs argued, and the
Second Circuit agreed, “the jury found Arab Bank to
have provided material support in the form of financial
services to what it knew was a designated terrorist organization.” Linde, 882 F.3d at 329.
Nevertheless, the Second Circuit held that the
jury’s findings did not, as a matter of law, satisfy the
elements of a JASTA claim because “aiding and abetting an act of international terrorism requires more
than the provision of material support to a designated
terrorist organization.” Linde, 882 F.3d at 329. Specifically, Linde held that aiding and abetting liability requires a jury to find that, “in providing [financial]

13
services, the bank was ‘generally aware’ that it was
thereby playing a ‘role’ in Hamas’s violent or life-endangering activities.” Ibid. It was not enough, in the
court’s view, for the bank to know of Hamas’s “connection to terrorism.” Id. at 330.
Because the court concluded that the instructional
error was not harmless, it vacated and remanded for a
jury to consider JASTA’s aiding and abetting elements. Pursuant to a settlement, the retrial never occurred. See Linde, 882 F.3d at 318-19.
5. CL filed another summary judgment motion arguing that it was entitled to judgment as a matter of
law under Linde. For purposes of the motion, CL “assume[d] that a triable issue of fact remains as to
whether Defendant knowingly provided material support to an FTO in violation of § 2339B,” but it argued
that knowingly providing support to an FTO was now
insufficient to render it liable. Pet. App. 65a. Contemporaneously, petitioners sought to amend their complaints to add claims for aiding and abetting under
JASTA. See id. at 75a.
The district court granted CL’s renewed motion.
The court first found the evidence insufficient to sustain a claim for primary liability after Linde. Thus, the
court held that “the transfers” to the 13 Charities
“were earmarked for charitable purposes,” and none of
them “were marked as being for a specific violent or
terroristic purpose.” Pet. App. 66a. Moreover, there
was no evidence that the money transferred in this
case was actually used in the terrorist attacks at issue.
See id. at 67a. The court held that under Linde, the
ostensible charitable purpose of the transfers defeated
two of the primary liability elements as a matter of
law. See id. at 69a-74a.

14
The district court also denied plaintiffs’ motion to
add an aiding and abetting claim as futile. See Pet.
App. 79a. Although CL admitted that it suspected
CBSP of illegal money laundering, the court held that
the evidence did not show that CL “generally was
aware that it played a role in any of Hamas’ or even
CBSP’s violent or life-endangering activities.” Id. at
80a-81a. It held that “[e]vidence that Defendant knowingly provided banking services to a terrorist organization, without more, is insufficient to satisfy JASTA's
scienter requirement.” Id. at 81a.
6. Petitioners appealed. On appeal, this case proceeded alongside Weiss v. National Westminster Bank,
another case in which a bank secured summary judgment from the same district judge after Linde. As the
Second Circuit explained, this case and Weiss have an
overlapping factual background and procedural history and involve essentially the same legal issues. Pet.
App. 9a. The court accordingly affirmed for the reasons stated in its precedential decision in Weiss. Ibid.
7. This petition followed. Although the lower
courts addressed primary and secondary liability, this
petition solely concerns aiding and abetting under
JASTA, 18 U.S.C. § 2333(d)(2).
Petitioners have filed a separate petition seeking
review of the Second Circuit’s decision in Weiss. Because of the substantial overlap between the cases, petitioners respectfully recommend that the Court consider the two petitions together.

15
REASONS FOR GRANTING THE WRIT
I. The Decision Below Conflicts With Decisions From Other Circuits.
As explained in the Weiss petition, the decisions
in that case and this one conflict with the holdings of
the Seventh and Fifth Circuits, both of which hold that
providing money to Hamas’s ostensibly nonviolent
fronts foreseeably advances Hamas’s terrorism.
1. In Boim v. Holy Land Foundation for Relief &
Development, 549 F.3d 685, 691-92 (7th Cir. 2008) (en
banc), the Seventh Circuit held that by imposing liability on those who provide material support to terrorists, the ATA “expressly impose[s] liability on a class
of aiders and abetters.”2 With respect to scienter, the
court held that “[a] knowing donor to Hamas—that is,
a donor who knew the aims and activities of the organization—would know . . . that donations to Hamas, by
augmenting Hamas’s resources, would enable Hamas
to kill or wound . . . more people,” including the “many
U.S. citizens” who “live in Israel.” Id. at 693-94.
The Seventh Circuit specifically rejected an argument the district court accepted here, holding that “if
you give money to an organization that you know to be
engaged in terrorism, the fact that you earmark it for
2

At the time, the ATA did not expressly include a cause of
action for aiding and abetting, but the court in Boim found that
“[p]rimary liability in the form of material support to terrorism
has the character of secondary liability.” 549 F.3d at 691. When
Congress later added a cause of action for aiding and abetting
with JASTA, it effectively codified the Seventh Circuit’s analysis
in Boim by imposing liability on any person who “knowingly
provid[es] substantial assistance” to an FTO that commits an act
of international terrorism. 18 U.S.C. § 2333(d)(2).

16
the organization’s nonterrorist activities does not get
you off the liability hook.” Boim, 549 F.3d at 698; cf.
Pet. App. 66a (letting CL off the liability hook because
the transfers it executed for CBSP were “earmarked
for charitable purposes”). Thus, as the Seventh Circuit
explained, “[a]nyone who knowingly contributes to the
nonviolent wing of an organization that he knows to
engage in terrorism is knowingly contributing to the
organization’s terrorist activities.” 549 F.3d at 698. To
require any greater showing of knowledge or causation
“would be to invite money laundering, the proliferation of affiliated organizations, and two-track terrorism (killing plus welfare),” rendering the statute “a
dead letter” against terrorist financing. Id. at 702.
2. In United States v. El-Mezain, 664 F.3d 467, 483
(5th Cir. 2011), the Fifth Circuit affirmed criminal liability under 18 U.S.C. § 2339B (the material support
statute) for individuals and charities that sent funds
to entities in Hamas’s “social wing.” Despite acknowledging that these “entities performed some legitimate
charitable functions,” the Fifth Circuit affirmed the
defendants’ convictions. 664 F.3d at 483. The court
reasoned that the purported charities “were actually
Hamas social institutions” and that, “by supporting
such entities, the defendants facilitated Hamas’s activity by furthering its popularity among Palestinians
and by providing a funding resource” that “allowed
Hamas to concentrate its efforts on violent activity.”
Id. at 483-84.
Like the defendants in Boim, the defendants in
El-Mezain argued “that they did not support Hamas or
terrorism, but rather shared a sympathy for the plight
of the Palestinian people.” El-Mezain, 664 F.3d at 489.
They also contended that the court could not treat the

17
charities as Hamas fronts because the government
had never designated them as terrorist organizations.
See ibid.
The Fifth Circuit held that these arguments were
properly presented to the jury, which rejected them in
light of the government’s “evidence of Hamas control
of the” putative charities, which the Fifth Circuit described as “substantial.” El-Mezain, 664 F.3d at 48990. The “plethora of evidence,” id. at 527, the court
cited largely overlapped with the evidence in this case:
petitioners relied on the same expert and much of the
same documentary evidence that supported the El-Mezain convictions, including voluminous materials
seized by the Government of Israel from the “charities’” offices.
Although El-Mezain is a criminal case, it stands
clearly for the proposition that those who aid an FTO’s
purportedly peaceful arm necessarily enable terrorist
violence. That empirical proposition is no less true
when presented as an argument for civil liability. In
civil cases under the ATA, district courts in the Fifth
Circuit have noted that this Court’s “discussion of fungibility, legitimacy, and foreign affairs” in Holder v.
Humanitarian Law Project, 561 U.S. 1 (2010), “confirms the broad sweep of the statute and supports the
reasoning of Boim.” Abecassis v. Wyatt, 785 F. Supp.
2d 614, 634 (S.D. Tex. 2011).
3. What is striking about the split is how much the
facts overlap. The cases (Boim, El-Mezain, Weiss, and
this case) all involve transfers of funds to an overlapping group of Hamas institutions (the recipients in
Boim and El-Mezain include five of the beneficiaries in
Weiss and this case; and the recipients in Weiss include essentially all the transferees in this case).

18
Moreover, in each case, the courts found that there
was at least an issue of fact about whether the defendant knew that it was providing material support to an
FTO (indeed, CL conceded as much for purposes of its
summary judgment motion, Pet. App. 65a).
What is more, the courts do not even clearly disagree about the fact that providing support to Hamas
front groups foreseeably leads to violence. In this case,
the district court previously found (and did not appear
to revisit) that a reasonable jury could conclude, based
on the evidence:
that the sizable amount of money sent from
Defendant to Hamas front organizations was
a substantial reason that Hamas was able to
perpetrate the terrorist attacks at issue, and
that Hamas’ increased ability to carry out
deadly attacks was a foreseeable consequence
of sending millions of dollars to groups controlled by Hamas.
Pet. App. 164a. But after Linde v. Arab Bank, PLC,
882 F.3d 314 (2d Cir. 2018), the same court concluded
that these facts no longer sufficed to even create a jury
question about aiding and abetting under JASTA.
As that about-face shows, the difference between
the circuit courts is a pure question of law. In the Seventh Circuit, the knowing provision of substantial
funds to a designated FTO unambiguously supports
ATA liability. In the Fifth Circuit, it supports felony
liability as well as civil liability (in the district courts).
But in the Second Circuit, the defendant prevails as a
matter of law even when it knowingly provides funds
to an FTO, and even when the evidence shows that

19
this support foreseeably contributes to terrorist violence.
This split about an important question of federal
law is untenable, and the Court should grant certiorari
to resolve it.
II. The Decision Below Is Incorrect.
Certiorari should also be granted because the decision below is incorrect. The core premise of the Second Circuit’s holdings in Linde, Weiss, and this case is
that even if a defendant knowingly provides material
support to an FTO, that is not sufficient to allow a jury
to find that the defendant was generally aware that it
was playing a role in illegal activities that created a
foreseeable risk of terrorist violence (which is the mens
rea standard for aiding and abetting liability under
JASTA). As explained in greater detail in the Weiss
petition, that proposition has been roundly rejected by
binding, authoritative statements from all three
branches of our government, including this Court.
Specifically, this Court explained in Holder that it
is “the considered judgment of Congress and the Executive that providing material support to a designated
foreign terrorist organization—even seemingly benign
support—bolsters the terrorist activities of that organization.” 561 U.S. at 36. The Court found that view
supported by “persuasive evidence.” Ibid.
In Holder, the question was whether the material
support statute, 18 U.S.C. § 2339B (the same statute
CL concedes a jury could find it violated here), applied
to peaceful support given to a designated FTO—and if
so, whether the statute survived strict scrutiny. The
Court answered both questions in the affirmative. It
explained that the statute did not require intent “to

20
further a foreign terrorist organization’s illegal activities,” but only “knowledge about the organization’s
connection to terrorism.” 561 U.S. at 16-17. The Court
further held that this broad prohibition on providing
material support to FTOs was narrowly tailored to the
Government’s compelling “interest in combating terrorism.” Id. at 28.
The Court explained that “[w]hether foreign terrorist organizations meaningfully segregate support of
their legitimate activities from support of terrorism is
an empirical question,” which Congress resolved in
1996 by making “specific findings,” including that
“‘any contribution to [an FTO] facilitates’” its terrorist
conduct. Holder, 561 U.S. at 29 (quoting AEDPA
§ 301(a)(7)). Congress also specifically “considered and
rejected the view that ostensibly peaceful aid would
have no harmful effects” when, during drafting, it “removed an exception” to liability “for the provision of
material support in the form of ‘humanitarian assistance to persons not directly involved in’ terrorist activity.” Ibid. (citation omitted).
The Court found Congress’s conclusion “justified”
because even peaceful support still “further[s] terrorism by foreign groups in multiple ways.” Holder, 561
U.S. at 29-30. This includes providing fungible resources that can subsidize or be diverted to terrorism,
and also granting legitimacy that FTOs can use for recruiting and for political influence. See id. at 30-31.
In this regard, the Court credited an affidavit
from the Executive Branch averring that “it is highly
likely that any material support to [FTOs] will ultimately inure to the benefit of their criminal, terrorist
functions—regardless of whether such support was ostensibly intended to support non-violent, non-terrorist

21
activities.” Holder, 561 U.S. at 30, 33 (citation omitted). The Court found that this “evaluation of the facts
by the Executive, like Congress’s assessment, [was]
entitled to deference.” Id. at 33. The Court accordingly
upheld the material support statute even against a
strict scrutiny challenge.
Congress enacted JASTA after Holder was decided, expressly stating that its objective was to “provide civil litigants with the broadest possible basis,
consistent with the Constitution of the United States,
to seek relief” from any party that “provided material
support, directly or indirectly,” to FTOs that injured
Americans. JASTA § 2(b). Given that this Court expressly held that the Constitution permits liability for
knowingly providing even peaceful support to an FTO,
whether that support is traced to violent acts or not, it
is hard to see how JASTA could ever be interpreted to
foreclose such liability as a matter of law. But that is
exactly what the district court and the Second Circuit
held: they granted summary judgment to CL because
CBSP’s transfers were not earmarked for a terroristic
purpose, and because there was no evidence that the
funds in question were used in violent activities. That
decision was wrong.
Independently, the Second Circuit’s decision conflicts with Halberstam v. Welch, 705 F.2d 472 (D.C.
Cir. 1983), the case Congress expressly incorporated
into JASTA as the standard for aiding and abetting liability. Under Halberstam, the question is whether
the defendant was “generally aware of his role as part
of an overall illegal or tortious activity at the time he
provides the assistance.” 705 F.2d at 487-88. If the answer is “yes,” then the defendant can be held liable for

22
any act of violence that is “a foreseeable risk” of the
enterprise. Id. at 488.
The lower court here misinterpreted Halberstam
to require petitioners to show that CL was aware that
it was playing a role in terrorist violence specifically.
See Pet. App. 80a-81a (throwing out the JASTA claim
because there was “no evidence that creates a triable
jury question as to whether Defendant generally was
aware that it played a role in any of Hamas’ or even
CBSP’s violent or life-endangering activities”). “Violent or life-endangering activities” is a formula derived
directly from the statutory definition of an “international terrorism.” 18 U.S.C. § 2331(1)(A) (“‘[I]nternational terrorism’ means activities that . . . involve violent acts or acts dangerous to human life . . . .”). That
is the wrong standard. CL does not have to be aware
of a role in the principal tort of international terrorism; it is enough if it knew that it was involved in any
illegal activity from which terrorist violence was foreseeable.
As noted above, CL admitted that it suspected
CBSP was involved in illegal activity, i.e., money laundering, when CL assisted CBSP. See Pet. App. 160a.
Based on that alone, a jury could find that CL was at
least generally aware of its role in illegal activity as
the money launderer’s banker. Moreover, in light of
the other facts CL knew, including that CBSP was
sending money “to ‘Islamist’ organizations in Palestine during the Second Intifada,” ibid., a jury could
also find that terrorist violence was a foreseeable risk
of the illegal enterprise, see id. at 164a (finding that
“Hamas’ increased ability to carry out deadly attacks
was a foreseeable consequence of sending millions of
dollars to groups controlled by Hamas”). Indeed, as the

23
district court previously recognized, “money laundering and terrorism are not mutually exclusive. It has
been widely acknowledged that they can go hand in
hand, as one certainly can be used to fund the other.”
Id. at 161a. Thus, even if the district court was correct
that CL was not aware of its own role in terrorist violence, it applied the wrong legal standard to hold that
CL was not subject to liability under Halberstam. In
this case, CL’s knowledge of its role in CBSP’s illegal
money laundering enterprise was sufficient given that
terrorist attacks were a foreseeable risk of that conduct.3
As explained in greater detail in the petition in
Weiss, this Court should grant certiorari and hold that
there is no charity exception to JASTA liability. Instead, when a defendant knowingly provides substantial funds to an FTO, it should at least be a jury

3

Of course, there was also evidence that CL was at least
generally aware it was playing a role in terrorism. Most clearly,
CL knew that CBSP was designated an SDGT for its role raising
funds for Hamas, but still returned the equivalent of hundreds of
thousands of dollars to the Hamas fundraiser. Pet. App. 147a.
The district court documented other evidence that CL “had concerns about CBSP’s accounts since at least 1997,” which “may
have been related to CBSP’s possible connection to terrorist
groups.” Id. at 157a. This included multiple internal communications and reports to French authorities raising concern about terrorist financing, and an unsurprised reaction when CBSP was
designated an SDGT. Id. at 157a-159a. The evidence was enough,
in the district court’s view, for “a reasonable fact-finder” to conclude that CL “knew of or was deliberately indifferent to its support of terrorism through its dealings with CBSP.” Id. at 159a.
After Linde, however, the district court deemed the same evidence insufficient to satisfy JASTA’s scienter requirement. Id. at
80a-81a.

24
question whether the defendant has aided and abetted
the FTO’s terrorist activities.
III. The Question Presented Is Important.
As the Weiss petition explains, the question presented is important and frequently recurring. Numerous cases involving bank financing for FTOs are currently pending in courts in the Second Circuit, which
has venue over almost all such cases. It is critical that
the Second Circuit’s erroneous construction of JASTA
be addressed immediately.
IV. This Court Should Consider Calling For
The Views Of The Solicitor General.
Finally, as the Weiss petition argues, this Court
should call for the views of the Solicitor General if it is
unsure about the need for review. ATA cases implicate
“sensitive and weighty interests of national security
and foreign affairs,” on which the Executive Branch
may want to weigh in. Holder, 561 U.S. at 33-34. The
Government has also previously expressed its interest
in the proper scope of civil ATA liability (for example,
it lobbied for passage of the ATA and also filed an amicus brief supporting the plaintiffs in Boim).

25
CONCLUSION
Certiorari should be granted in Weiss, and this
case should be held pending the result. If the Weiss petitioners prevail, the Court should grant this petition,
and vacate and remand for further proceedings consistent with the decision in Weiss.
Respectfully submitted,
Peter Raven-Hansen
Gary M. Osen
Michael Radine
Ari Ungar
OSEN LLC
190 Moore Street
Suite 272
Hackensack, NJ
07601

Thomas C. Goldstein
Counsel of Record
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
James P. Bonner
FLEISCHMAN BONNER &
ROCCO LLP
81 Main Street, Suite 515
White Plains, NY 10601

September 3, 2021

APPENDIX

1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
Nos. 19-865(L), 19-1285(XAP)
________________________________
April 7, 2021
________________________________
SUMMARY ORDER
________________________________
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1
AND THIS COURT'S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the
City of New York on the 7th day of April, two thousand
twenty-one.

2a
Present: AMALYA L. KEARSE,
DENNIS JACOBS,
JOSÉ A. CABRANES,
Circuit Judges.
________________________________
MOSES STRAUSS, PHILIP STRAUSS, BLUMA
STRAUSS, AHRON STRAUSS, ROISIE
ENGELMAN, JOSEPH STRAUSS, TZVI WEISS,
LEIB WEISS, MALKE WEISS, YITZCHAK WEISS,
YERUCHAIM WEISS, ESTHER DEUTSCH,
MATANYA NATHANSEN, CHANA NATHANSEN,
MATANYA AND CHANA NATHANSEN FOR THE
ESTATE OF TEHILLA NATHANSEN, YEHUDIT
NATHANSEN, S.N., A MINOR, HEZEKIEL
TOPOROWITCH, PEARL B. TOPOROWITCH,
YEHUDA TOPOROWITCH, DAVID
TOPOROWITCH, SHAINA CHAVA NADEL, BLUMA
ROM, RIVKA POLLACK, EUGENE GOLDSTEIN,
LORRAINE GOLDSTEIN, BARBARA GOLDSTEIN
INGARDIA, RICHARD GOLDSTEIN, MICHAEL
GOLDSTEIN, CHANA FREEDMAN, MICHAL
HONICKMAN FOR THE ESTATE OF HOWARD
GOLDSTEIN, MICHAL HONICKMAN, DAVID
GOLDSTEIN, HARRY LEONARD BEER AS
EXECUTOR OF THE ESTATE OF ALAN BEER,
HARRY LEONARD BEER, ANNA BEER, PHYLLIS
MAISEL, ESTELLE CARROLL, SARRI ANNE
SINGER, JUDITH SINGER, ERIC M. SINGER,
ROBERT SINGER, JULIE AVERBACH FOR THE
ESTATE OF STEVEN AVERBACH, JULIE
AVERBACH, TAMIR AVERBACH, DEVIR
AVERBACH, SEAN AVERBACH, A.A., A MINOR,
MAIDA AVERBACH FOR THE ESTATE OF DAVID
AVERBACH, MAIDA AVERBACH, MICHAEL

3a
AVERBACH, EILEEN SAPADIN, DANIEL
ROZENSTEIN, JULIA ROZENSTEIN SCHON,
ALEXANDER ROZENSTEIN, ESTHER
ROZENSTEIN, JACOB STEINMETZ, DEBORAH
STEINMETZ, JACOB STEINMETZ AND DEBORAH
STEINMETZ FOR THE ESTATE OF AMICHAI
STEINMETZ, NAVA STEINMETZ, ORIT
MAYERSON, NATANEL STEINMETZ, ROBERT L.
COULTER, SR. FOR THE ESTATE OF JANIS RUTH
COULTER, DIANNE COULTER MILLER, ROBERT
L. COULTER, SR., ROBERT L. COULTER, JR.,
LARRY CARTER AS THE ADMINISTRATOR OF THE
ESTATE OF DIANE LESLIE CARTER, LARRY
CARTER, SHAUN CHOFFEL, RICHARD
BLUTSTEIN AND KATHERINE BAKER FOR THE
ESTATE OF BENJAMIN BLUTSTEIN, RICHARD
BLUTSTEIN, KATHERINE BAKER, REBEKAH
BLUTSTEIN, NEVENKA GRITZ FOR THE ESTATE
OF DAVID GRITZ, NEVENKA GRITZ, NEVENKA
GRITZ FOR THE ESTATE OF NORMAN GRITZ,
JACQUELINE CHAMBERS AS THE ADMINISTRATOR
OF THE ESTATE OF ESTHER BABLAR,
JACQUELINE CHAMBERS, LEVANA COHEN, ELI
COHEN, SARAH ELYAKIM, YEHUDA AGABABA,
MENACHE AGABABA, YEHEZKEL AGABABA,
GRETA GELER, ILANA EROPA DORFMAN,
REFAEL KITSIS AND TOVA GUTTMAN AS THE
ADMINISTRATORS OF THE ESTATE OF HANNAH
ROGEN, AKIVA ANACHOVICH, TEMIMA
SPETNER, JASON KIRSCHENBAUM, ISABELLE
KIRSCHENBAUM, ISABELLE KIRSCHENBAUM
FOR THE ESTATE OF MARTIN KIRSCHENBAUM,
JOSHUA KIRSCHENBAUM, SHOSHANA
BURGETT, DAVID KIRSCHENBAUM, DANIELLE
TEITELBAUM, NETANEL MILLER, CHAYA

4a
MILLER, ARIE MILLER ALTEA STEINHERZ,
JONATHAN STEINHERZ, BARUCH YEHUDA ZIV
BRILL, CHAYA BEILI, BENNETT AND PAULA
FINER AS LEGAL GUARDIANS FOR CHANA
NACHENBERG, DAVID NACHENBERG, S.N., A
MINOR, BENNETT FINER, PAULA FINER, ZEV
FINER, SHOSHANA FINER OHANA, MINA DORA
GREEN, MINA DORA GREEN FOR THE ESTATE OF
HOWARD M. GREEN, STEVEN GREENBAUM FOR
THE ESTATE OF JUDITH GREENBAUM, STEVEN
GREENBAUM, ALAN HAYMAN, SHIRLEE
HAYMAN, DAVID DANZIG, NEIL DANZIG FOR THE
ESTATE OF REBECCA DANZIG, NEIL DANZIG,
HAYYIM DANZIG, SARAH PEARLMAN, CLARA
BEN-ZAKEN LASER, NETANEL HERSKOVITZ,
MARTIN HERSKOVITZ, PEARL HERSKOVITZ,
YAAKOV HERSKOVITZ, JOSHUA FAUDEM,
ZOHAR FATER, BRUCE MAZER, ORLY ROM,
RICHARD COFFEY, GAL GANZMAN, JUDITH
BUCHMAN-ZIV, ORA COHEN, MIRAV COHEN,
DANIEL COHEN, O.C., A MINOR, S.C., A MINOR,
E.N.C., A MINOR, FAIGA ZVIA LIEBERMAN, EINAT
NOKED FOR THE ESTATE OF EYAL NOKED,
EINAT NOKED, A.N., A MINOR, AVISHAG NOKED,
BARUCH ZURI NOKED, BINYAMIN ELKANA
NOKED, NETA NECHAMA COHEN, T.N., A MINOR,
KAREN GOLDBERG, CHANA WEISS, ESTHER
GOLDBERG, YITZHAK GOLDBERG, SHOSHANA
GOLDBERG, ELIEZER GOLDBERG, Y.M.G., A
MINOR, T.Y.G., A MINOR, NILLY CHOMAN AND GILA
ALUF,
Plaintiffs-Appellants-Cross-Appellees,
v.

5a
CRÉDIT LYONNAIS, S.A.,
Defendant-Appellee-Cross-Appellant.
________________________________
ESTATE OF BERNICE WOLF, ARI HOROVITZ,
BATSHEVA HOROVITZ SADAN, DAVID
HOROVITZ, ESTATE OF DEBRA RUTH
HOROVITZ, ESTATE OF ELNATAN HOROVITZ,
ESTATE OF LEAH HOROVITZ, ESTATE OF
MOSHE HOROVITZ, NECHAMA HOROVITZ,
SHULAMITE HOROVITZ, TOVA HOROVITZ
NAIMAN, TVI HOROVITZ, URI HOROVITZ,
ESTATE OF BRYAN WOLF, STANLEY WOLF,
AVERHAM GROSSMAN, DEVORAH CHECHANOW
LEIFER, JOSEPH LEIFER, BRACHA MILSTEIN,
SHIFRA MILLER, CHAYA ROSENBERG,
ABRAHAM WAXLER, ARTHUR WAXLER, BARUCH
WAXLER, CHANA WAXLER, DINA WAXLER,
EZEKIEL WAXLER, GEDALIA WAXLER, HAGGI
WAXLER, NACHUM WAXLER, OBADIAH
WAXLER, YAAKOV WAXLER, YOEL WAXLER,
ZACHARIA WAXLER, NETHANIEL BLUTH,
MOSHE NAIMI, FAYE CHANA BENJAMINSON,
THE ESTATE OF MOSHE GOTTLIEB, SEYMOUR
GOTTLIEB, SHEILA GOTTLIEB, PHILIP LITLE,
ESTATE OF ABIGAIL LITLE, ELISHUA LITLE,
HANNAH LITLE, HEIDI LITLE, JOSIAH LITLE,
NOAH LITLE, FRAN STRAUSS BAXTER, WILLIAM
J. BAXTER, ARIELA FREIRMARK, MENACHEM
FREIRMARK, HADASSAH FREIRMARK, PHYLLIS
PAM, RIVKA REENA PAM, SHOSHANA TITA,
EZRA TITA, EPHRAIM TITA, EPHRIAM TITA FOR
THE ESTATE OF BERTIN TITA, RACHEL
POTOLSKI, OVADIA TOPPOROWITCH, YISRAEL
TOPPOROWITCH, YITZCHAK TOPPOROWITCH,

6a
MIRIAM EHRENFELD, ROSE JOSEPH, LEIBEL
REINITZ, MALVIA REINITZ, MARGALI REINITZ,
MENDY REINITZ, MIRIAM REINITZ, RIVKA
REINITZ, SAMUEL REINITZ, SHMUEL REINITZ,
YAKOV REINITZ, THE ESTATE OF YISSOCHER
DOV REINITZ, YITZCHOK REINITZ, RAIZEL
SHIMON, LEAH TAUBER, HELEN WEIDER,
AVROHOM D. RICHTER, BREINA RICHTER,
MIRIAM LEAH RICHTER, MOSHE RICHTER,
NECHAMA RICHTER, SARA MALKA RICHTER,
SHLOMO CHAIM RICHTER, TRANNE RICHTER,
YAKOV YOSEF RICHTER, THE ESTATE OF
MORDECHAI REINITZ, YECHIEL RICHTER,
YEHUDIS RICHTER, YISROEL RICHTER,
YITZCHOK RICHTER, PERL BRAILOFSKY,
MALKY BREUER, ESTER BUXBAUM, GITTEL
COHEN, CHAYA FREISEL, RACHEL ROSNER,
ELIZABETH SCHWARTZ, JACOB SCHWARTZ,
MAX SCHWARTZ, MICHAEL SCHWARTZ,
PHILLIP SCHWARTZ, ABRAHAM ZARKOWSKY,
ARON ZARKOWSKY, BSHAVA ZARKOWSKY
RICHTER, ESTATE OF ELI ZARKOWSKY, EZRIEL
ZARKOWSKY, GITTEL ZARKOWSKY, MENDEL
ZARKOWSKY, ESTATE OF GOLDIE ZARKOWSKY,
JOSEPH ZARKOWSKY, MIRIAM ZARKOWSKY,
SHRAGE ZARKOWSKY, TRANY ZARKOWSKY,
YEHUDA ZARKOWSKY, THE ESTATE OF DAVID
APPLEBAUM, DEBRA APPLEBAUM, THE ESTATE
OF JACQUELINE APPLEBAUM, NATAN
APPLEBAUM, THE ESTATE OF NAAVA
APPLEBAUM, SHIRA APPLEBAUM, YITZCHAK
APPLEBAUM, SHAYNA APPLEBAUM, TOVI
BELLE APPLEBAUM, GEELA APPLEBAUM
GORDON, CHAYA TZIPORAH COHEN, ERIK
SCHECTER, SHLOMO TRATNER, THE ESTATE OF

7a
TIFERET TRATNER,
Plaintiffs-Appellants-Cross-Appellees,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant-Appellee-Cross-Appellant.*
________________________________
*

*

*

Appeal and cross-appeal from a March 31, 2019
judgment of the United States District Court for the
Eastern District of New York.
This cause came on to be heard on the record from
the United States District Court for the Eastern District of New York and was argued by counsel.
ON CONSIDERATION WHEREOF, it is now
hereby ordered, adjudged, and decreed that the judgment of said District Court be and it hereby is affirmed; the cross-appeal is dismissed as moot.
Plaintiffs Moses Strauss, et al., and Estate of Bernice Wolf, et al., who were injured, or represent persons who were injured, in terrorist attacks in Israel
and Palestine in 2001-2004, allegedly committed by
Hamas, jointly appeal from a March 31, 2019 judgment of the United States District Court for the Eastern District of New York in these consolidated actions,
Dora L. Irizarry, then-Chief Judge, (A) dismissing the
complaints seeking damages against defendant Crédit
Lyonnais, S.A. (“CL”), under the Antiterrorism Act of
1990 (“ATA”), see 18 U.S.C. §§ 2333(a), 2331(1), and

*

The Clerk of the Court is directed to amend the official caption to conform with the above captions of these cases, which were
consolidated for adjudication in the district court.

8a
2339B, for providing banking services to a charitable
organization that allegedly had ties to Hamas; and (B)
denying leave to amend the complaints to allege aiding-and-abetting claims against CL under the Justice
Against Sponsors of Terrorism Act (“JASTA”), see id.
§ 2333(d). The district court granted CL’s motion for
summary judgment dismissing the complaints, relying
principally on this Court’s decision in Linde v. Arab
Bank, PLC, 882 F.3d 314 (2d Cir. 2018), and concluding that plaintiffs failed to adduce evidence sufficient
to permit an inference that CL had committed an act
involving violence, danger to human life, or an appearance of intent to intimidate or coerce a population or a
government—elements of an international terrorism
claim under the ATA. The court also denied plaintiffs’
motion for leave to file an amended complaint to allege
that CL is liable for the attacks as an aider and abetter, concluding that, given the record on the summary
judgment motion, such an amendment would be futile.
See Strauss v. Crédit Lyonnais, S.A., 379 F.Supp.3d
148 (E.D.N.Y. 2019).
On appeal, plaintiffs argue principally that the
district court erred by misapplying Linde and concluding that plaintiffs’ evidence of CL’s violation of 18
U.S.C. § 2339B was insufficient to permit inferences
either that CL itself engaged in terrorist activity or
that it had the requisite state of mind to make it liable
for aiding and abetting that activity. In its cross-appeal, CL argues that if we do not affirm the judgment
of the district court, we should reverse that court's denial of CL’s motion to dismiss the actions for lack of
personal jurisdiction; however, CL urges that “[g]iven
the number of years during which these cases have already been pending, this Court can and should

9a
‘assume jurisdiction’ and affirm on the . . . merits . . .
as a means of preventing waste of judicial resources.”
(CL brief on appeal at 61-62 (other internal quotation
marks omitted).)
This appeal was argued in tandem with the appeal in Weiss v. National Westminster Bank PLC, Nos.
19-863, -1159, which we have decided today in a published opinion, see --- F.3d --- (2d Cir. 2021) (“Weiss”).
Although CL is not the defendant against which the
Weiss actions were brought, both sets of actions were
commenced in the mid-2000’s asserting ATA claims
premised on international terrorist attacks attributed
to Hamas; the actions proceeded largely along parallel
lines (sometimes with coordinated pretrial discovery
proceedings), involved the same legal issues, and were
dismissed by the same district judge in opinions filed
on the same day, with the opinion in the present case
frequently citing past decisions and reasoning in the
Weiss actions.
The issues in these two sets of actions were the
same; the issues in both appeals are the same; the arguments made by both sets of appellants are the same;
and the two appellees pursue virtually identical conditional cross-appeals. We conclude, for the reasons discussed in Weiss, that the district court did not err in
granting summary judgment dismissing the Strauss
and Wolf plaintiffs’ complaints under the ATA or in
denying their request for leave to amend in order to
bring claims under JASTA. We accordingly affirm the
judgment of the district court; CL’s cross-appeal is
thus moot.
We have considered all of plaintiffs’ arguments on
appeal and have found them to be without merit. The

10a
judgment of the district court is affirmed; the crossappeal is dismissed.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, Clerk of Court

11a
APPENDIX B
________________________________
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________________
Nos. 19-863(L), 19-1159(XAP)
________________________________
August Term, 2019
Argued: May 14, 2020 Decided: April 7, 2021
________________________________
TZVI WEISS, LEIB WEISS, MALKE WEISS,
YITZCHAK WEISS, YERUCHAIM WEISS, ESTHER
DEUTSCH, MOSES STRAUSS, PHILIP STRAUSS,
BLUMA STRAUSS, AHRON STRAUSS, ROISIE
ENGELMAN, JOSEPH STRAUSS, MATANYA
NATHANSEN, CHANA NATHANSEN, MATANYA
AND CHANA NATHANSEN FOR THE ESTATE OF
TEHILLA NATHANSEN, YEHUDIT NATHANSEN,
S.N., A MINOR, HEZEKIEL TOPOROWITCH, PEARL
B. TOPOROWITCH, YEHUDA TOPOROWITCH,
DAVID TOPOROWITCH, SHAINA CHAVA NADEL,
BLUMA ROM, RIVKA POLLACK, EUGENE
GOLDSTEIN, LORRAINE GOLDSTEIN, BARBARA
GOLDSTEIN INGARDIA, RICHARD GOLDSTEIN,
MICHAEL GOLDSTEIN, CHANA FREEDMAN,
MICHAL HONICKMAN FOR THE ESTATE OF
HOWARD GOLDSTEIN, MICHAL HONICKMAN,
DAVID GOLDSTEIN, HARRY LEONARD BEER AS
EXECUTOR OF THE ESTATE OF ALAN BEER,
HARRY LEONARD BEER, ANNA BEER, PHYLLIS
MAISEL, ESTELLE CARROLL, SARRI ANNE
SINGER, JUDITH SINGER, ERIC M. SINGER,

12a
ROBERT SINGER, JULIE AVERBACH FOR THE
ESTATE OF STEVEN AVERBACH, JULIE
AVERBACH, TAMIR AVERBACH, DEVIR
AVERBACH, SEAN AVERBACH, A.A., A MINOR,
MAIDA AVERBACH FOR THE ESTATE OF DAVID
AVERBACH, MAIDA AVERBACH, MICHAEL
AVERBACH, EILEEN SAPADIN, DANIEL
ROZENSTEIN, JULIA ROZENSTEIN SCHON,
ALEXANDER ROZENSTEIN, ESTHER
ROZENSTEIN, JACOB STEINMETZ, DEBORAH
STEINMETZ, JACOB STEINMETZ AND DEBORAH
STEINMETZ FOR THE ESTATE OF AMICHAI
STEINMETZ, NAVA STEINMETZ, ORIT
MAYERSON, NATANEL STEINMETZ, ROBERT L.
COULTER, SR. FOR THE ESTATE OF JANIS RUTH
COULTER, DIANNE COULTER MILLER, ROBERT
L. COULTER, SR., ROBERT L. COULTER, JR.,
LARRY CARTER FOR THE ESTATE OF DIANE
LESLIE CARTER, LARRY CARTER, SHAUN
CHOFFEL, RICHARD BLUTSTEIN AND
KATHERINE BAKER FOR THE ESTATE OF
BENJAMIN BLUTSTEIN, RICHARD BLUTSTEIN,
KATHERINE BAKER, REBEKAH BLUTSTEIN,
NEVENKA GRITZ FOR THE ESTATE OF DAVID
GRITZ, NEVENKA GRITZ, NEVENKA GRITZ FOR
THE ESTATE OF NORMAN GRITZ, JACQUELINE
CHAMBERS AS THE ADMINISTRATOR OF THE
ESTATE OF ESTHER BABLAR, JACQUELINE
CHAMBERS, LEVANA COHEN, ELI COHEN,
SARAH ELYAKIM, YEHUDA AGABABA,
MENACHE AGABABA, YEHEZKEL AGABABA,
GRETA GELER, ILANA EROPA DORFMAN,
REFAEL KITSIS AND TOVA GUTTMAN AS THE
ADMINISTRATOR OF THE ESTATE OF HANNAH
ROGEN, AKIVA ANACHOVICH, JOSHUA

13a
FAUDEM, ZOHAR FATER, BRUCE MAZER, ORLY
ROM, RICHARD COFFEY, GAL GANZMAN,
JUDITH BUCHMAN-ZIV, ORA COHEN, MIRAV
COHEN, DANIEL COHEN, O.C., A MINOR, S.C.,
A MINOR, E.N.C., A MINOR, FAIGA ZVIA
LIEBERMAN, EINAT NOKED FOR THE ESTATE OF
EYAL NOKED, EINAT NOKED, A.N., A MINOR,
AVISHAG NOKED, BARUCH ZURI NOKED,
BINYAMIN ELKANA NOKED, NETA NECHAMA
COHEN, T.N., A MINOR, KAREN GOLDBERG,
CHANA WEISS, ESTHER GOLDBERG, YITZHAK
GOLDBERG, SHOSHANA GOLDBERG, ELIEZER
GOLDBERG, Y.M.G., A MINOR, T.Y.G., A MINOR,
NILLY CHOMAN, TEMIMA SPETNER, JASON
KIRSCHENBAUM, ISABELLE KIRSCHENBAUM,
ISABELLE KIRSCHENBAUM FOR THE ESTATE OF
MARTIN KIRSCHENBAUM, JOSHUA
KIRSCHENBAUM, SHOSHANA BURGETT, DAVID
KIRSCHENBAUM, DANIELLE TEITELBAUM,
NETANEL MILLER, CHAYA MILLER, ARIE
MILLER, ALTEA STEINHERZ, JONATHAN
STEINHERZ, BARUCH YEHUDA ZIV BRILL,
CHAYA BEILI, AND GILA ALUF,
Plaintiffs-Appellants-Cross-Appellees,
v.
NATIONAL WESTMINSTER BANK, PLC.,
Defendant-Appellee-Cross-Appellant.
________________________________
THE ESTATE OF DAVID APPLEBAUM, THE
ESTATE OF NAAVA APPLEBAUM, DEBRA
APPLEBAUM, THE ESTATE OF JACQUELINE
APPLEBAUM, NATAN APPLEBAUM, SHIRA
APPLEBAUM, YITZCHAK APPLEBAUM, SHAYNA

14a
APPLEBAUM, TOVI BELLE APPLEBAUM, GEELA
APPLEBAUM GORDON, CHAYA TZIPORAH
COHEN, PHILIP LITLE, THE ESTATE OF ABIGAIL
LITLE, ELISHUA LITLE, HANNAH LITLE, HEIDI
LITLE, JOSIAH LITLE, NOAH LITLE, ARI
HOROVITZ, BATSHEVA HOROVITZ SADAN,
DAVID HOROVITZ, THE ESTATE OF DEBRA
RUTH HOROVITZ, THE ESTATE OF ELI NATAN
HOROVITZ, THE ESTATE OF LEAH HOROVITZ,
THE ESTATE MOSHE HOROVITZ, NECHAMA
HOROVITZ, SHULAMITE HOROVITZ, TOVI
HOROVITZ, TVI HOROVITZ, URI HOROVITZ,
BERNICE WOLF, BRYAN WOLF, STANLEY WOLF,
FRAN STRAUSS BAXTER, WILLIAM J. BAXTER,
ARIELA FREIRMARK, MENACHEM FREIRMARK,
HADASSAH FREIRMARK, PHYLLIS PAM, RIVKA
REENA PAM, SHOSHANA TITA, EZRA TITA,
EPHRAIM TITA, EPHRIAM TITA FOR THE ESTATE
OF BERTIN TITA, RACHEL POTOLSKI, OVADIA
TOPPOROWITCH, YISRAEL TOPPOROWITCH,
YITZCHAK TOPPOROWITCH, MIRIAM
EHRENFELD, ROSE JOSEPH, LEIBEL REINITZ,
MALVIA REINITZ, MARGALI REINITZ, MENDY
REINITZ, MIRIAM REINITZ, RIVKA REINITZ,
SAMUEL REINITZ, SHMUEL REINITZ, YAKOV
REINITZ, THE ESTATE OF MORDECHAI REINITZ,
THE ESTATE OF YISSOCHER DOV REINITZ,
YITZCHOK REINITZ, RAIZEL SHIMON, LEAH
TAUBER, HELEN WEIDER, AVROHOM D.
RICHTER, BREINA RICHTER, MIRIAM LEAH
RICHTER, MOSHE RICHTER, NECHAMA
RICHTER, SARA MALKA RICHTER, SHLOMO
CHAIM RICHTER, TRANNE RICHTER, YAKOV
YOSEF RICHTER, YECHIEL RICHTER, YEHUDIS
RICHTER, YISROEL RICHTER, YITZCHOK

15a
RICHTER, PERL BRAILOFSKY, MALKY BREUER,
ESTER BUXBAUM, GITTEL COHEN, CHAYA
FREISEL, RACHEL ROSNER, ELIZABETH
SCHWARTZ, JACOB SCHWARTZ, MAX
SCHWARTZ, MICHAEL SCHWARTZ, PHILLIP
SCHWARTZ, ABRAHAM ZARKOWSKY, ARON
ZARKOWSKY, BSHAVA ZARKOWSKY RICHTER,
THE ESTATE OF ELI ZARKOWSKY, EZRIEL
ZARKOWSKY, GITTEL ZARKOWSKY, THE
ESTATE OF GOLDIE ZARKOWSKY, JOSEPH
ZARKOWSKY, MENDEL ZARKOWSKY, MIRIAM
ZARKOWSKY, SHRAGE ZARKOWSKY, TRANY
ZARKOWSKY, YEHUDA ZARKOWSKY, ERIK
SCHECTER, SHLOMO TRATNER, THE ESTATE OF
TIFERET TRATNER, AVERHAM GROSSMAN,
DEVORAH CHECHANOW LEIFER, JOSEPH
LEIFER, BRACHA MILSTEIN, SHIFRA MILLER,
CHAYA ROSENBERG, ABRAHAM WAXLER,
ARTHUR WAXLER, BARUCH WAXLER, CHANA
WAXLER, DINA WAXLER, EZEKIEL WAXLER,
GEDALIA WAXLER, HAGGI WAXLER, NACHUM
WAXLER, OBADIAH WAXLER, YAAKOV WAXLER,
YOEL WAXLER, ZACHARIA WAXLER,
NETHANIEL BLUTH, MOSHE NAIMI, FAYE
CHANA BENJAMINSON, THE ESTATE OF MOSHE
GOTTLIEB, SEYMOUR GOTTLIEB, SHEILA
GOTTLIEB,
Plaintiffs-Appellants-Cross-Appellees,
v.

16a
NATIONAL WESTMINSTER BANK, PLC.,
Defendant-Appellee-Cross-Appellant.*
________________________________
Before: KEARSE, JACOBS, and CABRANES, Circuit
Judges.
________________________________
Joint appeal from judgments entered on March
31, 2019, in the United States District Court for the
Eastern District of New York, Dora L. Irizarry, thenChief Judge, (A) dismissing the operative amended
complaints in these two actions that seek to hold defendant bank liable under the Antiterrorism Act of
1990 (“ATA”), see 18 U.S.C. §§ 2333(a), 2331(1), and
2339B, for providing banking services to a charitable
organization with alleged ties to Hamas, a designated
Foreign Terrorist Organization (“FTO”) alleged to
have committed a series of terrorist attacks in Israel
in 2001-2004; and (B) denying leave to amend the complaints to allege aiding-and-abetting claims under the
Justice Against Sponsors of Terrorism Act (“JASTA”),
see 18 U.S.C. § 2333(d). The district court granted
summary judgment dismissing the ATA claims in light
of this Court’s decision in Linde v. Arab Bank, PLC,
882 F.3d 314 (2d Cir. 2018), on the ground that plaintiffs failed to adduce sufficient evidence that the bank
itself committed an act of international terrorism
within the meaning of §§ 2333(a) and 2331(1); it denied leave to amend on the ground that amendment
asserting JASTA claims would be futile because plaintiffs did not point to evidence sufficient to support an
*

The Clerk of the Court is directed to amend the official caption to conform with the above captions of the two cases, which
were consolidated for pretrial proceedings in the district court.

17a
inference that the bank had the requisite awareness
that it was aiding and abetting the violent or life-endangering activities of the FTO Hamas. See Weiss v.
National Westminster Bank PLC, 381 F.Supp.3d 223
(2019). On appeal, plaintiffs contend principally that
the district court misapplied Linde and imposed unduly stringent standards (a) in requiring that the material support provided by the bank be traceable to the
attacks on plaintiffs in order to hold the bank liable as
a principal for the attacks, and (b) in concluding that
plaintiffs’ evidence of the bank’s violation of § 2339B
was insufficient to permit an inference that the bank
was generally aware that it was playing a role in terrorism by Hamas, as required to make the bank liable
as an aider and abetter.
Cross-appeal by defendant requesting, in the
event the judgments are not to be affirmed, that we
reverse the district court’s denial of defendant’s motion to dismiss the actions for lack of personal jurisdiction.
Concluding that the district court properly assessed the record and applied the principles articulated in Linde, we affirm the judgments. Defendant’s
conditional cross-appeal is dismissed as moot.
Judgment affirmed; cross-appeal dismissed.
*

*

*

KEARSE, Circuit Judge.
Plaintiffs Tzvi Weiss, et al., United States citizens
who were, or represent, victims of more than a dozen
alleged Hamas terrorist attacks in Israel in 20012004, appeal from judgments entered on March 31,
2019, in the United States District Court for the Eastern District of New York, Dora L. Irizarry, Chief

18a
Judge, (A) dismissing their amended complaints in
these two actions seeking to recover damages under
the Antiterrorism Act of 1990 (“ATA”), see 18 U.S.C.
§§ 2333(a), 2331(1), and 2339B, against defendant National Westminster Bank PLC (“NatWest” or the
“Bank”) for providing banking services to a charitable
organization that allegedly had ties to Hamas; and (B)
denying leave to amend the complaints to allege aiding-and-abetting claims against the Bank under the
Justice Against Sponsors of Terrorism Act (“JASTA”),
see id. § 2333(d). The district court, in light of this
Court’s decision in Linde v. Arab Bank, PLC, 882 F.3d
314 (2d Cir. 2018) (“Linde”), granted summary judgment dismissing plaintiffs’ claims under §§ 2333(a),
2331(1), and 2339B on the ground that plaintiffs failed
to adduce sufficient evidence to hold the Bank liable
as a principal for acts of international terrorism; the
court denied plaintiffs’ motion for leave to amend the
complaints, concluding that amendment asserting
JASTA aiding-and-abetting claims would be futile because plaintiffs did not point to evidence sufficient to
support an inference that NatWest had the requisite
knowledge—i.e., at least a general awareness—that it
played a role in Hamas’s alleged violent or life-endangering activities. On appeal, plaintiffs contend principally that the district court misapplied Linde and (a)
unduly credited evidence proffered by NatWest and
imposed unduly stringent standards in requiring that
the Bank’s provision of banking services be traceable
to specific terrorist attacks in order to make the Bank
liable for the attacks as a principal, and (b) erred in
concluding that plaintiffs’ evidence of NatWest’s violation of § 2339B was insufficient to permit an inference
that the Bank was generally aware that it was playing
a role in terrorism.

19a
NatWest, while urging affirmance of the dismissals, cross-appeals to contend that if we do not affirm,
we should reverse the district court’s denial of NatWest’s motion to dismiss these actions for lack of personal jurisdiction.
For the reasons that follow, we conclude that summary judgment was properly granted and that leave
to amend the complaints was properly denied. We thus
affirm the judgments, and we dismiss the cross-appeal
as moot.
I. BACKGROUND
The first of these two actions was commenced in
2005 under the ATA by the Weiss plaintiffs against
NatWest (the “Weiss action”) following numerous terrorist attacks in Israel between March 27, 2002, and
September 24, 2004. The Applebaum plaintiffs commenced their ATA action against NatWest in 2007 (the
“Applebaum action”), and the two cases were soon consolidated for pretrial proceedings.
NatWest is a financial institution incorporated
and headquartered in the United Kingdom. From at
least 1994 to 2007, NatWest provided banking services
to the Palestine Relief & Development Fund, commonly known as “Interpal.” Interpal is a London-based
nonprofit entity founded in 1994 and registered with
the United Kingdom’s Charity Commission for England & Wales (“UK Regulatory Authorities”).
Hamas has been officially designated a Foreign
Terrorist Organization (“FTO”) by the United States
since 1997. In August 2003, the United States officially designated Interpal a Specially Designated
Global Terrorist (“SDGT”) based on reports that it was
operated as a major fundraiser for Hamas. Plaintiffs

20a
contend that NatWest provided material support to
Interpal between 1996 and 2003 by processing at least
457 wire transfers of funds from Interpal to 13 charities that NatWest allegedly knew, or willfully ignored,
were controlled by, or were alter egos of, Hamas (the
“13 Charities”). “It is undisputed that each of the attacks by which Plaintiffs were injured was ‘an act of
international terrorism’” within the meaning of 18
U.S.C. §§ 2333(a) and 2331(1). (NatWest brief on appeal at 4.)
A. The Course of This Litigation
The procedural history of the present actions has
been tracked through several opinions of the district
court and this Court, including the following, familiarity with which is assumed. See Weiss v. National Westminster Bank PLC, 453 F.Supp.2d 609 (E.D.N.Y. 2006)
(“Weiss I”); Weiss v. National Westminster Bank PLC,
936 F.Supp.2d 100 (E.D.N.Y. 2013) (“Weiss II”), vacated and remanded by Weiss v. National Westminster
Bank PLC, 768 F.3d 202 (2d Cir. 2014) (“Weiss III”);
Weiss v. National Westminster Bank PLC, 278
F.Supp.3d 636 (E.D.N.Y. 2017) (“Weiss IV”); and Weiss
v. National Westminster Bank PLC, 381 F.Supp.3d
223 (E.D.N.Y. 2019) (“Weiss V”).
The original complaint in the Weiss action alleged
that NatWest aided and abetted the murder or attempted murder of, or physical violence to, United
States citizens in violation of 18 U.S.C. §§ 2332(a),
2332(b), 2332(c), and 2333(a), and that as a principal
it committed acts of international terrorism in violation of 18 U.S.C. §§ 2339B(a)(1) and 2333(a). In 2006,
the aiding-and-abetting causes of action were dismissed, without prejudice, for failure to state a claim.

21a
See Weiss I, 453 F.Supp.2d at 622. The plaintiffs in the
Applebaum action, whose original complaint also included aiding-and-abetting claims, thereafter agreed
to the dismissal of those claims without prejudice.
In 2013, the district court granted a motion by
NatWest for summary judgment (“First Summary
Judgment Motion”) dismissing the actions. The court
found that plaintiffs could not show that NatWest
acted with the requisite scienter to support their
claims. See Weiss II, 936 F.Supp.2d at 114. In 2014,
this Court vacated the judgments, concluding that
plaintiffs had proffered evidence “sufficient to create a
triable issue of fact as to whether NatWest’s
knowledge and behavior in response satisfied the statutory scienter requirements.” Weiss III, 768 F.3d at
212. We remanded for further proceedings, including
consideration of other grounds asserted by NatWest in
its motion for summary judgment.
In June 2016, plaintiffs filed their present complaints—an amended Applebaum action complaint
and the sixth amended Weiss action complaint—adding claims arising from three additional attacks. NatWest promptly moved for summary judgment dismissing the new claims and renewed its motion for summary judgment on grounds the district court had not
reached in Weiss II. In September 2017, in Weiss IV,
the district court granted the motion in part, but found
there were triable issues of fact with respect to 16 of
the 18 alleged attacks. See Weiss IV, 278 F.Supp.3d at
650.
In September 2016, in the interim between plaintiffs’ filing of the current complaints and the district
court’s decision in Weiss IV, the ATA was amended by
the enactment of JASTA to provide that a civil ATA

22a
action under § 2333(a) may be maintained on theories
of aiding and abetting or conspiracy. See 18 U.S.C.
§ 2333(d). Congress made JASTA retroactively applicable to actions such as these (see Part II.B. below).
A few months after the decision in Weiss IV, this
Court decided Linde, an appeal from an ATA judgment
in favor of the Linde plaintiffs after a jury trial. The
jury had been instructed that if it found that the defendant, Arab Bank PLC (“Arab Bank”), provided material support to Hamas in violation of § 2339B—
which makes it a crime to knowingly provide, or attempt or conspire to provide, material support or resources to an FTO—that finding was sufficient to establish Arab Bank’s own commission of an act of international terrorism under § 2333(a). As discussed further in Part II.A. below, we vacated the judgment, concluding that that instruction was erroneous because a
bank’s provision of material support to a known terrorist organization is not, by itself, sufficient to establish the bank’s liability under the ATA. See Linde, 882
F.3d at 326. Rather, in order to satisfy the ATA’s requirements for civil liability as a principal, the “defendant’s act must,” inter alia, “also involve violence
or endanger human life. See [18 U.S.C.] § 2331(1)(A).
Further, the act must appear to be intended to intimidate or coerce a civilian population or to influence or
affect a government. See id. § 2331(1)(B).” Linde, 882
F.3d at 326 (emphasis in original).
In addition, Linde noted that in order to hold a defendant liable for an ATA violation on a JASTA theory
of aiding and abetting, a plaintiff must show that the
entity the defendant aided—i.e., the principal—performed a wrongful act that caused an injury, that the
defendant must have been “generally aware of his role

23a
as part of an overall illegal or tortious activity at the
time that he provide[d] the assistance,” and that “the
defendant must [have] knowingly and substantially
assist[ed] the principal violation.” Id. at 329 (internal
quotation marks omitted).
B. NatWest’s Renewed Summary Judgment Motion
Based on Linde
In the wake of Linde, NatWest sought and received permission to file another renewed motion for
summary judgment (“2018 Summary Judgment Motion”). NatWest contended that plaintiffs could not adduce evidence sufficient to permit an inference that its
financial services of transmitting Interpal moneys to
the 13 Charities involved violence, or endangered human life, or appeared to be intended to intimidate or
coerce a civilian population or to influence or affect a
government.
In support of its 2018 Summary Judgment Motion, NatWest cited, inter alia, facts that were undisputed as revealed in statements that had been submitted by the parties pursuant to Local Rule 56.1 (“Rule
56.1 Statement” or “Rule 56.1 Response”) in connection with the Bank’s First Summary Judgment Motion; and it submitted a Rule 56.1 Supplemental Statement as to additional facts it asserted were undisputed. NatWest’s Rule 56.1 Supplemental Statement
principally quoted Interpal documents and quoted declarations or deposition testimony of the Bank’s managerial employees as to the policies and practices of
NatWest and their institutional knowledge of the operations and affairs of Interpal. It included the following assertions.

24a
In 1998, NatWest’s Relationship Manager for the
accounts of Interpal “completed a customer appraisal
form for Interpal describing it as an organization that
‘[p]rovides charitable relief’ in Palestine and Lebanon,
usually involving ‘food or allowances for children’s education.’ The form further noted [Interpal’s statement]
that the ‘[t]wo major times of the year for receipts are
Ramadan . . . and at Easter time.’” (NatWest Rule 56.1
Supplemental Statement ¶ 1.) Plaintiffs’ response to
this was as follows:
RESPONSE: Admit the quoted statements
were made, but note that the Second Circuit
has expressly held that:
The requirement to “appear to be intended . . .” does not depend on the actor’s
beliefs, but imposes on the actor an objective standard to recognize the apparent
intentions of actions. Cf. Boim v. Holy
Land Found. for Relief and Dev., 549 F.3d
685, 693-94 (7th Cir. 2008) (en banc) (Posner, J.) (describing the appearance-of-intention requirement “not [as] a state-ofmind requirement” and stating that “it is
a matter of external appearance rather
than subjective intent . . . .”).
Weiss v. Nat’l Westminster Bank PLC, 768
F.3d 202, 207 (2d Cir. 2014). Therefore, the
customer appraisal form for Interpal is irrelevant to the subject of the pending motion.
The “external appearance” relevant to 18
U.S.C. § 2331 is not the “external appearance” presented by a terrorist group or its funders. If that were the case, Hamas’s description of its terror campaign as “legitimate

25a
resistance to occupation” would itself nullify
the ATA. Instead, the question for the jury is
whether the Defendant’s conduct presents the
“external appearance.” That is to be determined by assessing the Bank’s culpability in
contributing to the acts of terrorism at issue.
(Plaintiffs’ Response to Rule 56.1 Supplemental Statement ¶ 1) (Plaintiffs’ “External Appearance Caveat”).
NatWest’s proffer of supplemental facts it believed to be undisputed also included the following:
NatWest’s internal inquiries in 2002 with regard to
“‘details of the most recent due diligence undertaken
in respect of the Bank’s knowledge of dealings in [Interpal’s] US$ account,’” and Interpal’s characterizations of its charitable operations (NatWest Rule 56.1
Supplemental Statement ¶¶ 2-3); a 2003 record from
UK Regulatory Authorities—which NatWest maintained in its files—listing among Interpal’s objectives
“the provision of aid and assistance, support[,] guidance[,] and comfort to poor[,] needy[,] sick children and
widows” (id. ¶ 4); and Interpal annual reports for
1999-2003 (also maintained in NatWest’s files) detailing Interpal’s spending allocations—a planned 5% for
fundraising, 5% for administration, and 10% for future
distribution, and actual yearly expenditures of 87.3%
to 94.7% directly on charitable projects (id. ¶ 5). NatWest also asserted that “[b]etween November 8, 1996
and September 25, 2003, at the request of its customer
Interpal, NatWest processed 457 wire transfers (the
‘Relevant Transfers’) to the 13 charities that plaintiffs
contend are alter egos of or controlled by Hamas,” and
that the “stated purposes for these transfers included”
programs for orphans, a maternity clinic, student aid,
emergency medical aid, food parcels, winter clothes,

26a
and other community projects (id. ¶ 7); that Interpal
on its website stated that it felt an obligation “‘to ensure that the funds’ it received were ‘used for charitable purposes as specified,’” “stated that it allowed
transfers only to ‘bona fide organisations,’” and stated
that it insisted on—and sent delegations to verify—the
charities’ adherence to “‘the proper charitable use of
funds as specified’” (id. ¶¶ 9-12); and that “[n]one of
the Relevant Transfers was identified as being for any
violent or terroristic purpose” (id. ¶ 8).
As to each of these NatWest Rule 56.1 Supplemental Statements other than ¶¶ 7 and 8, plaintiffs’
response was to state that they “[a]dmit[ted]” that the
statement described was made by the speaker cited or
was contained in the document cited, but to incorporate by reference their (above quoted) External Appearance Caveat. Plaintiffs gave a qualified response
to ¶ 7 by admitting that there were “at least” 457 wire
transfers, and by asserting that the transfers were “for
Hamas” and totaled approximately $12,000,000; and
as to ¶ 8, plaintiffs “[a]dmit[ted] that Interpal did not
identify any of the Relevant Transfers as being for any
violent or terroristic purpose.” (Plaintiffs’ Rule 56.1
Response to Supplemental Statement ¶¶ 7, 8 (emphasis in Response).)
NatWest also quoted testimony and declarations
from the managers of its customer-relations, fraudprevention, and anti-money-laundering groups stating
that the Bank was aware of Interpal’s “alleged” links
to Hamas (NatWest Rule 56.1 Supplemental Statement ¶ 16 (emphasis in Statement)), but that the Bank
had no tolerance for the funding of terrorism, did not
want to be related in any way to such activities, and
would have taken quick action to terminate its

27a
relationship with Interpal “if the bank believed that
Interpal was funding terrorism” (id. ¶ 15; see, e.g., id.
¶¶ 14-19). Plaintiffs’ response to each of these NatWest assertions was to “[a]dmit” that each cited
speaker had so testified, but to add, by incorporation,
their External Appearance Caveat.
In addition, NatWest cited facts that plaintiffs
had conceded in responding to the Bank’s First Summary Judgment Motion (made when the then-operative Weiss action complaint alleged 15 terrorist attacks), including the following.
•

Plaintiffs “admit[ted] they ‘do not contend that
any of the funds Interpal transferred from the accounts it maintained with NatWest to HAMAS
was used specifically to finance any of the terrorist attacks that injured Plaintiffs and/or killed
their loved ones.’” (First Summary Judgment Rule
56.1 Statement and Response ¶ 248 (quoting
Plaintiffs’ response to an interrogatory));

•

Plaintiffs’ expert Dr. Levitt “offers no evidence
that any funds transferred by Interpal through its
NatWest accounts was used to perpetrate the 15
attacks” (id. ¶ 253);

•

Nor did Dr. Levitt “opine that any of the 12 Charities [that he addressed] participated in” or “recruited” “any of the perpetrators of the 15 attacks”; he did not offer any opinion as to what individuals or entities planned and executed the attacks at issue (id. ¶¶ 254, 261);

•

Plaintiffs’ expert “Spitzen does not opine that any
of the 13 Charities requested that someone carry
out any of the 15 attacks” (id. ¶ 272).

28a
C. The District Court’s Decision in Weiss V
The district court concluded, in light of the decision in Linde and the undisputed facts in the present
actions, that the evidence adduced by plaintiffs was insufficient to establish all of the elements necessary to
hold NatWest liable under the ATA either as a principal or as an aider and abetter.
1.

Liability as a Principal

First, the district court addressed plaintiffs’
claims seeking to hold NatWest liable as a principal:
Plaintiffs bring their claims under 18
U.S.C. § 2339B as the predicate criminal violation to satisfy the . . . require[ment] that the
[defendant’s] act violate federal criminal law.
Section 2339B makes it a felony to “knowingly
provide[] material support or resources to a
[F]oreign [T]errorist [O]rganization,” or attempting or conspiring to do so. 18 U.S.C.
§ 2339B; See also, Weiss [III], 768 F.3d at 207.
Under § 2339B, “a defendant may be liable for
civil remedies under § 2333(a) for providing
material support to an organization that solicits funds for an FTO,” even if that support
is not provided directly to the FTO itself.
Weiss [III], 768 F.3d at 209.
Weiss V, 381 F.Supp.3d at 229. The court noted, however, that
[i]n Linde, the Second Circuit rejected the
argument that providing material support to
a known FTO in violation of § 2339B invariably constitutes a violent act or act dangerous
to human life. Linde, 882 F.3d at 326. (“[T]he
provision of material support to a terrorist

29a
organization does not invariably equate to an
act of international terrorism. Specifically, . . .
providing financial services to a known terrorist organization may afford material support to the organization even if the services do
not involve violence or endanger life and do
not manifest the apparent intent required by
§ 2331(1)(B).”). The Second Circuit explained
that, “conduct that violates a material support statute can also satisfy the § 2331(1) definition requirements of international terrorism in some circumstances.” Id. (emphasis
added). However, the Second Circuit found
that it was “incorrect [for the trial court in
Linde] to instruct the jury that a finding that
Arab Bank provided material support to Hamas in violation of § 2339(B) was alone sufficient to prove the bank’s own commission of
an act of international terrorism under
§ 2333(a).” Id. Instead, the jury “needed to be
instructed on and to find proved all of
§ 2331(1)’s definitional requirements for an
act of international terrorism, including those
pertaining to violence or danger and the apparent intent to intimidate or influence.” Id.
Weiss V, 381 F.Supp.3d at 229 (emphases ours, except
as indicated); see id. at 230 (“Thus, the Second Circuit
determined that the provision of material support to a
terrorist organization alone is not enough to constitute
international terrorism.”).
The district court noted that in Weiss II, it had
ruled on only one of the several grounds argued by
NatWest for summary judgment. However, it then explained that:

30a
the ATA sets forth four separate requirements for an act to constitute international
terrorism. The act at issue must: (1) involve
violence or endanger human life; (2) violate
federal or state criminal law if committed in
the United States; (3) appear intended to intimidate or coerce civilian population, influence government policy, or affect government
conduct by specified means; and (4) occur primarily outside the United States or transcend
national boundaries. See, Licci [ex rel. Licci v.
Lebanese Canadian Bank, SAL], 673 F.3d
[50,] 68 [(2d Cir. 2012)].
Weiss V, 381 F.Supp.3d at 231 (emphases added). Taking into account that in order to prevail, plaintiffs were
required to establish all four of those elements, the
court found merit in NatWest’s contention that summary judgment dismissing the complaints was required because plaintiffs had not adduced sufficient
evidence to prove the first and third elements, i.e., to
permit an inference that NatWest’s conduct involved
violence or danger to human life or to permit an inference that its conduct appeared to be intended to intimidate or coerce a civilian population, influence government policy, or affect government conduct by statutorily prohibited means.
The court noted that “[i]n Linde, the evidence
demonstrated that defendant Arab Bank processed
bank transfers that ‘were explicitly identified as payments for suicide bombings,’” id. at 235-36 (quoting
Linde, 882 F.3d at 321 (emphasis ours)). “Here,” however, the court found that “Plaintiffs provide no such
evidence,” Weiss V, 381 F.Supp.3d at 236—i.e., “[t]here
is no evidence that the transfers Defendant processed

31a
on behalf of the 13 charities were used explicitly for
purposes similar to those describe[d] in Linde,” id. at
234. Rather, the court noted that “Plaintiffs’ experts
. . . admitted that the 13 Charities performed charitable work,” id. at 232 (citing First Summary Judgment
Rule 56.1 Statement and Response), and that
Plaintiffs concede that there is no evidence
that any of Interpal’s transfers to the 13 Charities processed by Defendant were identified as
being for any specific violent or terroristic purpose. . . . “Plaintiffs admit they do not contend
that any of the funds Interpal transferred
from the accounts it maintained with NatWest to Hamas was used specifically to finance any of the terrorist attacks that injured
Plaintiffs and/or killed their loved ones.” . . .
“[Plaintiffs a]dmit that Interpal did not identify any of the Relevant Transfers as being for
any violent or terroristic purpose.”
Weiss V, 381 F.Supp.3d at 232 (quoting First Summary Judgment Rule 56.1 Response ¶¶ 248 and 8 (emphases ours)).
The court thus concluded that NatWest’s “motion
for summary judgment as to the violent acts and acts
dangerous to human life prong of § 2331(1) is granted
because Plaintiffs fail to present evidence sufficient to
create a jury question as to whether Defendant’s activities involved violent acts or acts dangerous to human
life.” Weiss V, 381 F.Supp.3d at 235; see id. at 233 (“a
reasonable juror cannot conclude that Defendant’s alleged conduct involves violence or endangers human
life”).
In addition, given that plaintiffs “adduce[d] no evidence” from which to infer that NatWest “had the

32a
apparent intent to intimidate or coerce a civilian population, influence the policy of a government by intimidation or coercion, or affect the conduct of a government by mass destruction, assassination, or kidnapping,” id. at 236, the court concluded that NatWest’s
motion for summary judgment should be granted for
lack of a triable issue on the appearance-of-intent-tointimidate-or-coerce element of plaintiffs’ ATA claim
against the Bank as a principal.
2.

Plaintiffs’ Attempt To Raise Claims of Aiding
and Abetting

With respect to the matter of secondary liability
under the ATA, the district court faced the preliminary question of whether such claims were procedurally foreclosed. The original claims of aiding and abetting, based on common-law principles, had been dismissed in Weiss I in 2006 for failure to state a claim.
See 453 F.Supp.2d at 622. In opposition to NatWest’s
2018 Summary Judgment Motion, plaintiffs argued
that there was sufficient evidence to warrant a trial as
to whether NatWest aided and abetted the terrorist
attacks, and they urged the court either to allow them
to further amend their complaints to state such claims
under JASTA or to construe the action as it stood to
include such claims because they were advocated by
plaintiffs in the parties’ July 2016 joint pretrial order
(“Pretrial Order”). The court rejected plaintiffs’ contention that they could pursue aiding-and-abetting
claims merely on the basis of their mention in the Pretrial Order. See Weiss V, 381 F.Supp.3d at 237.
However, the court also rejected NatWest’s contention that Weiss I had precluded any future aidingand-abetting claims. The court determined that the

33a
mere passage of time should not preclude plaintiffs’
proposed amendment (a) because plaintiffs could not
have amended their pleading to assert JASTA aidingand-abetting claims prior to the filing of the Pretrial
Order as that order was entered months before JASTA
was enacted, and (b) because Congress made JASTA
retroactively applicable in pending actions such as
those here, with respect to an organization that had
been designated an FTO at the time it committed,
planned, or authorized a terrorist attack. Id. at 238.
Ultimately, however, the district court decided to
deny leave to amend the complaints to assert aidingand-abetting claims under JASTA, holding that such
an amendment would be futile. The court noted that
while the mens rea element of a § 2339B claim of
providing material support can be satisfied by proof of
the defendant’s “knowledge of the organization’s connection to terrorism,” a JASTA claim of aiding and
abetting has a different mens rea element, requiring
proof that the defendant be “‘aware’ that, by assisting
the principal, it is itself assuming a ‘role’ in terrorist
activities.’” Id. at 238-39 (quoting Linde, 882 F.3d at
329 (other internal quotation marks omitted)). Thus,
while Weiss III established that there was sufficient
evidence in the present case to create a triable issue as
to NatWest’s mens rea on the “material support”
claim, the addition of an aiding-and-abetting claim
would be futile because plaintiffs had adduced
no evidence that creates a jury question as to
whether Defendant generally was aware that
it played a role in any of Hamas’s or even Interpal’s . . . violent or life-endangering activities. Evidence that Defendant knowingly provided banking services to a terrorist

34a
organization, without more, is insufficient to
satisfy JASTA’s scienter requirement.
Id. at 239.
Accordingly, final judgments were entered in the
Weiss action and the Applebaum action, dismissing
the complaints in their entirety. A joint notice of appeal was filed in the two actions, challenging Weiss V’s
grant of summary judgment and denial of leave to
amend the complaints.
II. DISCUSSION
On appeal, plaintiffs contend principally that the
district court (1) in dismissing their claims to hold
NatWest liable as a principal, erred by crediting Interpal’s “ostensibly charitable purposes” (Plaintiffs’
brief on appeal at 43 (internal quotation marks omitted)) and requiring evidence tracing the Bank’s transactions for Interpal to specific terrorist attacks; and (2)
in denying their motion to amend the complaints to
assert claims against NatWest as an aider and abetter, erred by applying an erroneous standard in assessing the evidence proffered as to the Bank’s general
awareness that its services to Interpal were aiding and
abetting terrorism by Hamas.
NatWest has cross-appealed to request, in the
event the judgments are not to be affirmed, that we
reverse the district court’s denial of NatWest’s motion
to dismiss the actions for lack of personal jurisdiction.
But it urges that “[g]iven the number of years during
which these cases have already been pending, this
Court can and should ‘assume jurisdiction’ and affirm
on the . . . merits . . . as a means of preventing waste
of judicial resources.” (NatWest brief on appeal at 62
(other internal quotation marks omitted).)

35a
When a cross-appeal is conditional, asking that it
be “reached only if and when the appellate court decides to reverse or modify the main judgment,” and
“the direct appeal fails and the judgment is affirmed,
the usual procedure is to dismiss the cross-appeal as
moot.” Trust for Certificate Holders of Merrill Lynch
Mortgage Investors, Inc. Mortgage Pass-Through Certificates, Series 1999-C1, ex rel. Orix Capital Markets,
LLC v. Love Funding Corp., 496 F.3d 171, 174 (2d Cir.
2007) (internal quotation marks omitted). We follow
that procedure here.
For the reasons that follow, viewing the record in
the light most favorable to plaintiffs as the non-moving parties, see, e.g., Longman v. Wachovia Bank, N.A.,
702 F.3d 148, 150 (2d Cir. 2012), we conclude that the
district court did not err in granting summary judgment or in denying plaintiffs’ motion for leave to
amend. Accordingly, we affirm the judgments; and we
dismiss the cross-appeal as moot.
A. Liability under the ATA as a Principal: 18 U.S.C.
§ 2333(a)
The ATA (or the “Act”) authorizes a private right
of action by providing, inter alia, that
[a]ny national of the United States injured in
his or her person, property, or business by
reason of an act of international terrorism, or
his or her estate, survivors, or heirs, may sue
therefor in any appropriate district court of
the United States and shall recover threefold
the damages he or she sustains and the cost
of the suit, including attorney’s fees.
18 U.S.C. § 2333(a) (emphases added). The Act defines
acts of “international terrorism” as follows:

36a
As used in this chapter—
(1) the term “international terrorism” means
activities that—
(A) involve violent acts or acts dangerous to
human life that are a violation of the criminal
laws of the United States or of any State, or
that would be a criminal violation if committed within the jurisdiction of the United
States or of any State;
(B) appear to be intended—
(i) to intimidate or coerce a civilian population;
(ii) to influence the policy of a government by intimidation or coercion; or
(iii) to affect the conduct of a government by mass destruction, assassination,
or kidnapping; and
(C) occur primarily outside the territorial
jurisdiction of the United States, or transcend
national boundaries in terms of the means by
which they are accomplished, the persons
they appear intended to intimidate or coerce,
or the locale in which their perpetrators operate or seek asylum . . . .
18 U.S.C. § 2331(1) (emphases added).
The Act also defines as crimes the homicide of a
United States national who is outside the United
States, an attempt or conspiracy from outside the
United States to kill a United States national, and
other “physical violence” by a person outside the
United States that either did or was intended to cause
serious bodily injury to a United States national. See
18 U.S.C. §§ 2332(a), (b), and (c). However, it provides

37a
that there is to be no prosecution under § 2332 without
a proper certification that the “offense was intended to
coerce, intimidate, or retaliate against a government
or a civilian population.” Id. § 2332(d) (emphasis
added).
The Act further makes it a crime to provide, or attempt or conspire to provide, “material support or resources to a foreign terrorist organization,” punishable
by a fine and/or up to 20 years’ imprisonment, or up to
life imprisonment if a death has resulted. 18 U.S.C.
§ 2339B(a)(1) (emphasis added). The term “material
support or resources” is defined to include “financial
services.” Id. §§ 2339B(g)(4) and 2339A(b)(1).
Section 2339B(a)(1) also provides, inter alia, that
“to violate” its prohibition against providing “material
support or resources to” an FTO, “a person must have
knowledge that the organization is a designated terrorist organization (as defined in subsection (g)(6)), [or]
that the organization has engaged or engages in terrorist activity (as defined in section 212(a)(3)(B) of the Immigration
and
Nationality
Act[,
8
U.S.C.
§ 1182(a)(3)(B)]).” 18 U.S.C. § 2339B(a)(1) (emphases
added). The definitions expressly referred to in
§ 2339B(a)(1) themselves import additional definitions from other statutes. See id. § 2339B(g)(6) (“the
term ‘terrorist organization’ means an organization
designated as a terrorist organization under section
219 of the Immigration and Nationality Act[, 8 U.S.C.
§ 1189]”); 8 U.S.C. § 1189(a) (such designation is authorized with respect to “a foreign organization” that
“engages in terrorist activity (as defined in [8 U.S.C. §]
1182(a)(3)(B)[)] . . . or terrorism (as defined in section
2656f(d)(2) of Title 22), or retains the capability and
intent to engage in terrorist activity or terrorism)” and

38a
whose “terrorist activity or terrorism . . . threatens the
security of” the United States or its nationals); see also
8 U.S.C. § 1182(a)(3)(B)(iii) (defining “terrorist activity” to include criminal activity that “involves” “threatening to kill” a person in order to coerce a government
to do or refrain from doing an act); 22 U.S.C.
§ 2656f(d)(2) (defining “terrorism” to “mean[] premeditated, politically motivated violence perpetrated
against noncombatant targets by subnational groups
or clandestine agents”).
Thus, as we have noted, if a defendant “provid[es]
material support to an organization that solicits funds
for an FTO” in violation of § 2339B, the defendant,
“through this complex series of statutory incorporation—18 U.S.C. § 2333(a) to 18 U.S.C. § 2331(1) to 18
U.S.C. § 2339B(a)(1) to 8 U.S.C. § 1182(a)(3)(B)— . . .
may be liable for civil remedies under § 2333(a).” Weiss
III, 768 F.3d at 209. Section § 2339B, while making
the provision of material support or resources to an
FTO a crime, does not itself provide a private right of
action; the civil action is authorized by § 2333(a).
As Linde held, and as shown in the statutory language quoted above, § 2333 allows a civil action by a
person injured “by reason of an act of international terrorism,” 28 U.S.C. § 2333(a); that section specifies
what elements must be proven in order for the private
plaintiff to recover; and the definitions provided,
whether spelled out in ATA § 2331 or imported from
other statutes, inform the nature of those elements.
See Linde, 882 F.3d at 319-20. Thus, given that the
ATA allows a United States national to recover for injury suffered “by reason of an act of international terrorism,” 18 U.S.C. § 2333(a), the definition of international terrorism in § 2331(1) means that such a

39a
plaintiff must prove that the defendant’s act not only
violated United States law or a State law (or would be
a criminal violation if committed within the United
States or a State), but that the act “also involve[d] violence or endanger[ed] human life,” and “[f]urther . . .
appear[ed] to be intended to intimidate or coerce a civilian population or to influence or affect a government,” Linde, 882 F.3d at 326 (citing 18 U.S.C.
§§ 2331(1)(A) and (1)(B)) (first emphasis in original;
second emphasis added).
Whether a defendant “appear[ed]” to have intended its activities to intimidate or coerce is not a
question of the defendant’s subjective intent but rather a question of what its intent objectively appeared
to be. See, e.g., Weiss III, 768 F.3d at 207 n.6. Assessment of what an observer could reasonably find “appear[ed] to be intended” depends on whether the consequences of the defendant’s activities were reasonably foreseeable, see, e.g., Boim v. Holy Land Foundation for Relief & Development, 549 F.3d 685, 693-94
(7th Cir. 2008), and reasonable foreseeability depends
largely on what the defendant knew, see id. (“A knowing donor” to an FTO—“that is a donor who knew” the
terroristic “aims and activities” directed at a particular territory—“would know . . . that donations to” the
entity would enable it to “kill more people in” the territory. “And given such foreseeable consequences, such
donations would appear to be intended . . . to intimidate or coerce a civilian population or to affect the conduct of a government by . . . assassination, as required
by section 2331(1) in order to distinguish terrorist acts
from other violent crimes.” (internal quotation marks
omitted) (emphases ours)).

40a
We see no merit in plaintiffs’ contention that the
district court found the evidence as to whether NatWest appeared to intend intimidation or coercion insufficient by “crediting Interpal’s ostensibly charitable
purposes” (Plaintiffs’ brief on appeal at 38 (internal
quotation marks omitted)). The court did not find that
Interpal in fact had only charitable purposes; rather,
it observed that plaintiffs’ own experts said the 13
charities performed charitable work, and that plaintiffs admitted they had no evidence that those charities had funded terrorist attacks or recruited persons
to carry out such attacks. It also noted plaintiffs’ admission that Interpal had not identified any of the
moneys it instructed NatWest to transfer to the charities as being for any violent or terroristic purpose. The
absence of evidence to show that the charities themselves were engaged in terrorism—or to show that the
transfers were designated for that purpose by Interpal—was material to an assessment of what a rational juror could find NatWest knew. Given that
dearth of evidence, the court concluded that a rational
juror could not find that NatWest’s processing of Interpal’s money transfers to the charities objectively exhibited the appearance that NatWest intended to intimidate or coerce a population or a government.
Plaintiffs also contend that the district court misapplied the holdings of Linde, arguing that “Linde held
that where evidence establishes a knowing violation of
§ 2339B that proximately causes injuries in terrorist
attacks, § 2331(1)’s elements must be submitted to the
jury.” (Plaintiffs’ brief on appeal at 39 (emphasis
added).) We disagree with plaintiffs’ characterization
of Linde, in part because it disregards the procedural
posture in which the case arrived in this Court and the

41a
substantive record that had been developed in the district court. The procedural issue before Linde was not,
as in the present case, whether summary judgment
had been properly granted against the plaintiffs for
lack of proof as to certain § 2331(1) elements (on which
they had the burden of proof), but rather whether an
instruction that resulted in judgment in favor of the
plaintiffs had improperly removed consideration of
some of those elements from the jury. The jury had
been instructed that if it found “that Arab Bank provided material support to Hamas in violation of
§ 2339B,” that finding “was alone sufficient to prove
the bank’s own commission of an act of international
terrorism under 2333(a)”; that instruction was error,
relieving the plaintiffs of their burden of proving one
of the elements of their claim. Linde, 882 F.3d at 326.
And while Linde did indeed say that questions as
to the satisfaction of the § 2333(a) elements were to be
resolved by the jury, we in no way intimated that the
existence of a genuine issue as to one element—
whether § 2339B was violated—requires a trial in a
case where there is not sufficient evidence as to another element. In stating that the § 2333(a) elements
of whether the defendant Arab Bank’s provision of material support involved “violence or endanger[ed] life”
and “manifest[ed] the apparent intent required by
§ 2331(1)(B)” were issues to be submitted to the jury,
Linde, 882 F.3d at 326, we not only were dealing with
the procedural posture of the case as indicated above,
but also were considering the record before us, in
which there was “evidence” that transfers were made
to “purported charities known to funnel money to Hamas,” and that some of those transfers were “explicitly
identified as payments for suicide bombings,” id. at

42a
321 (emphases added). A suicide bombing is an act
that inherently involves violence and objectively
would appear intended to intimidate a population or
government. The evidence in Linde thus sufficed to
present a triable issue as to whether Arab Bank had
committed an act of international terrorism by processing transfers that “involve” violence and that “appear” to intend intimidation or coercion of a population
or government.
The district court in the present case granted
summary judgment to NatWest because it found that
plaintiffs had not presented any such evidence as to
the transfers made for Interpal by NatWest—or any
other evidence that the transfers by NatWest involved
violence, or danger to human life, or had the appearance of intending to intimidate or coerce a population
or government. Plaintiffs have not called to our attention anything in the record to contradict that finding.
Plaintiffs’ reliance on this Court’s decision in
Weiss III, vacating the district court’s prior grant of
summary judgment, is misplaced. On that appeal, we
ruled only on the issue of scienter, the sole element on
which the district court in Weiss II had granted summary judgment. See, e.g., Linde, 882 F.3d at 328 (“[I]n
Weiss [III] we addressed the ‘scienter requirement’ of
the predicate material support violation, not the definitional requirements of the ATA.”). The fact that
Weiss III concluded that there was sufficient evidence
to present a genuine dispute as to that element is of no
moment here. Where the undisputed facts reveal that
there is an absence of sufficient proof as to one essential element of a claim, any factual disputes with respect to other elements of the claim become immaterial and cannot defeat a motion for summary

43a
judgment. See, e.g., Celotex Corp. v. Catrett, 477 U.S.
317, 322-23 (1986).
In sum, the § 2333(a) principles announced in
Linde were properly applied in the present case: In order for a plaintiff to prevail on an ATA claim against a
defendant as a principal, the elements listed in
§ 2333(a) must be proven; an element is not proven unless the evidence comports with the ATA’s definition
of the element; and proof of the provision of banking
services, in and of itself, is insufficient either to show
that the services involved an act of violence or threat
to human life or to give the appearance that such services were intended to intimidate or coerce a civilian
population or government.
In order to establish NatWest’s liability under the
ATA as a principal, plaintiffs were required to present
evidence sufficient to support all of § 2331(1)’s definitional requirements for an act of international terrorism. We see no error in the district court’s conclusion
that plaintiffs failed to proffer such evidence, and that
NatWest was entitled to summary judgment dismissing those claims.
B. The Denial of Leave To Amend To Allege Aiding
and Abetting
“We review a district court’s denial of leave to
amend for abuse of discretion, unless the denial was
based on an interpretation of law, such as futility, in
which case we review the legal conclusion de novo.”
Panther Partners Inc. v. Ikanos Communications, Inc.,
681 F.3d 114, 119 (2d Cir. 2012). Normally, a motion
for leave to amend is assessed on the basis of a plaintiff’s proposed new pleading on its face; however,
where, as here, the request is made in response to a

44a
motion for summary judgment, it is well within the
court’s discretion to consider the evidence in the existing record in assessing whether the plaintiff’s new allegations would, “as a matter of law, . . . withstand [a]
motion for summary judgment,” Milanese v. RustOleum Corp., 244 F.3d 104, 110 (2d Cir. 2001) (internal quotation marks omitted). For the reasons that follow, we affirm the district court’s denial of plaintiffs’
request to assert JASTA claims of aiding and abetting.
JASTA was enacted in 2016, amending § 2333 by
adding a new subsection (d) to allow a person injured
by an act of international terrorism to recover from a
person who aided and abetted or conspired in that act.
It provides, in relevant part as follows:
(2) Liability.—In an action under subsection (a) for an injury arising from an act of international terrorism committed, planned, or
authorized by an organization that had been
designated as a foreign terrorist organization
under section 219 of the Immigration and Nationality Act (8 U.S.C. 1189), as of the date on
which such act of international terrorism was
committed, planned, or authorized, liability
may be asserted as to any person who aids and
abets, by knowingly providing substantial assistance, or who conspires with the person
who committed such an act of international
terrorism.
18 U.S.C. § 2333(d)(2) (emphases added). Congress
gave JASTA a measure of retroactivity by providing
that such a secondary liability theory would be available in any action pending on or commenced after its
enactment, arising out of an injury occurring on or after September 11, 2001, with respect to any

45a
organization responsible for a terrorist attack if the organization had been designated an FTO at the time of
its commission, planning, or authorization of that attack. See id.; JASTA, Pub. L. No. 114-222, § 7, 130
Stat. at 855 (Sept. 28, 2016) (“Effective Date”).
Congress’s stated purpose in enacting JASTA was
“to provide civil litigants with the broadest possible
basis, consistent with the Constitution of the United
States, to seek relief against persons [and] entities . . .
that have provided material support . . . to foreign organizations or persons that engage in terrorist activities against the United States,” whether “directly or
indirectly.” JASTA, Pub. L. No. 114-222, § 2(b), 130
Stat. at 853 (“Purpose”). Under JASTA, therefore, a
plaintiff will “not have to prove that the [defendant’s]
own acts constitute[d] international terrorism satisfying all the definitional requirements of § 2331(1).”
Linde, 882 F.3d at 328.
As to what a plaintiff will be required to prove,
Congress, in its JASTA “Findings,” stated that the decision in Halberstam v. Welch, 705 F.2d 472 (D.C. Cir.
1983) (“Halberstam”), “which has been widely recognized as the leading case regarding Federal civil aiding and abetting and conspiracy liability, including by
the Supreme Court of the United States, provides the
proper legal framework for how such liability should
function in the context of chapter 113B of title 18
United States Code [, 18 U.S.C. § 2331 et seq.].” Pub.
L. No. 114-222, § 2(a)(5), 130 Stat. at 852 (“Findings”).
As set out in Halberstam,
[a]iding-abetting includes the following elements: (1) the party whom the defendant
aids must perform a wrongful act that causes
an injury; (2) the defendant must be generally

46a
aware of his role as part of an overall illegal
or tortious activity at the time that he provides
the assistance; [and] (3) the defendant must
knowingly and substantially assist the principal violation.
705 F.2d at 477 (“Halberstam elements”) (emphases
added). And as to “how much aid is ‘substantial aid,’”
which may depend on “many variables,” id. at 483,
Halberstam, after exploring caselaw, concluded that
that element is appropriately evaluated in terms of the
following five factors suggested by the Restatement
(Second) of Torts (1979) (“Restatement”), to wit,
[1] the nature of the act encouraged; [2] the
amount [and kind] of assistance given; [3] the
defendant’s absence or presence at the time of
the tort; [4] his relation to the tortious actor;
[5] and the defendant’s state of mind,
Halberstam, 705 F.2d at 483-84 (citing Restatement
§ 876(b), comment d), along with a sixth factor, the
“duration of the assistance provided,” Halberstam, 705
F.2d at 484.
The first Halberstam element itself has multiple
parts. The person the defendant is alleged to have
aided is the principal; the principal itself must have
performed a wrongful act; and the principal’s act must
have caused an injury. See, e.g., id. at 478 (“[a]n aiderabettor is liable for damages caused by the main perpetrator”); id. at 481 (“an aider-abettor is liable for injuries caused by the principal tortfeasor”). For an ATA
aiding-and-abetting claim, JASTA identifies the principal as “an organization that had been designated as
a foreign terrorist organization,” 18 U.S.C.
§ 2333(d)(2). The aid the defendant provided need not
be have been given to the principal directly; as quoted

47a
above, Congress expressly so declared in its statement
of “Purpose” in enacting JASTA. However, the second
and third Halberstam elements require proof that at
the time the defendant (directly or indirectly) aided
the principal, the defendant was “generally aware” of
the overall wrongful activity and was “knowingly” assisting the principal violation. Halberstam, 705 F.2d
at 477.
In Linde, which had been tried before the enactment of JASTA, we discussed the second Halberstam
element in the course of considering whether the trial
court’s instruction error (see Part II.A. above) could be
considered harmless. We concluded that the error was
not harmless in part because the mens rea element of
aiding and abetting is “different from the mens rea required to establish material support in violation of 18
U.S.C. § 2339B, which requires” proof only of the defendant’s “knowledge of the organization’s connection
to terrorism.” Linde, 882 F.3d at 329-30; see generally
Holder v. Humanitarian Law Project, 561 U.S. 1, 1617 (2010) (“Congress plainly spoke to the necessary
mental state for a violation of § 2339B, and it chose
knowledge about the organization’s connection to terrorism, not specific intent to further the organization’s
terrorist activities.” (emphasis added)).
In contrast to what is needed to show a violation
of § 2339B, the second Halberstam element of aiding
and abetting requires a plaintiff to show the defendant’s “general[] aware[ness] of his role as part of an
overall illegal or tortious activity at the time that he
provides the assistance.” Linde, 882 F.3d at 329 (emphasis added) (internal quotation marks omitted).
[A]iding and abetting an act of international
terrorism requires more than the provision of

48a
material support to a designated terrorist organization. Aiding and abetting requires the
secondary actor to be “aware” that, by assisting the principal, it is itself assuming a “role”
in terrorist activities. Halberstam v. Welch,
705 F.2d at 477.
Id. at 329 (emphases in original).
The issue of the mens rea requirements for a
JASTA claim of aiding and abetting acts of international terrorism was presented more directly in Siegel
v. HSBC North America Holdings, Inc., 933 F.3d 217
(2d Cir. 2019) (“Siegel”), in which we considered the
district court’s dismissal of such an action pursuant to
Fed. R. Civ. P. 12(b)(6) for failure to state a claim. The
Siegel plaintiffs were victims, or representatives of victims, of a series of terrorist attacks in Jordan on November 9, 2005. They brought suit under JASTA
against HSBC Bank USA, N.A. (“HSBC”), and other
defendants, alleging that HSBC had provided financial services to the defendant Al Rajhi Bank (or
“ARB”), a prominent Saudi bank.
The Siegel complaint included the following allegations: that al-Qaeda in Iraq (“AQI”) was the terrorist
organization responsible for the attacks; that ARB had
links to terrorist organizations including AQI; that
HSBC was aware of ARB’s links to terrorist organizations; that ARB was, at all relevant times, involved in
financing terrorist activity; that the government of
Saudi Arabia was monitoring ARB accounts for links
to terrorist organizations; that in 2003, the United
States Central Intelligence Agency referred to ARB as
a conduit for terrorist transactions; that in 2004, the
United States government designated several Saudibased non-profit organizations—all of which were

49a
clients of ARB—as terrorist organizations; that HSBC
internal communications in 2002 and 2003 revealed
that senior officers within the company were concerned that ARB’s account may have been used by terrorists, and that one of ARB’s clients had been linked
to AQI; that despite HSBC’s knowledge of ARB’s support of terrorist organizations, HSBC provided ARB
with a wide range of banking services, including wire
transfers, foreign exchange, trade financing, and asset
management services; and that HSBC helped ARB to
conceal the passage of billions of U.S. dollars through
the United States, and provided ARB with the means
to transfer millions of U.S. dollars to AQI which was
actively engaged in planning and perpetrating the
murder and maiming of Americans, including the victims of the November 2005 bombings in Jordan. See
Siegel, 933 F.3d at 220-21. ARB was an HSBC customer for some 25 years, until January 2005 when
HSBC decided to sever ties with ARB due to its concerns about possible terrorist financing. See id. at 221.
After other defendants had been dismissed for
lack of personal jurisdiction, the district court dismissed the complaint against HSBC for failure to state
a claim under JASTA. This Court affirmed, “conclud[ing] that the plaintiffs’ aiding-and-abetting claim
fail[ed] as a matter of law because the plaintiffs ha[d]
not plausibly alleged that HSBC assumed a role in the
November 9 Attacks or provided substantial assistance to AQI.” Id. at 222.
We observed first that the Siegel plaintiffs
“fail[ed] to advance any plausible, factual, non-conclusory allegations that HSBC knew or intended that” the
funds they forwarded for ARB “would be sent to AQI
or to any other terrorist organizations”; we found that

50a
failure alone sufficient to “foreclose[] their JASTA
claim.” Id. at 224-25. In the absence of factual “allegations that would support a conclusion that HSBC
knowingly played a role in the terrorist activities,” the
plaintiffs’ allegations that HSBC “was aware,” based
on “public reports,” that its banking customer “was believed by some to have links to . . . terrorist organizations” “are insufficient to state a claim for aiding-andabetting liability under JASTA.” Id. at 224 & n.6 (emphases added).
In addition, applying the six “factors” that Linde
and Halberstam found relevant to a determination as
to what may constitute “‘substantial assistance,’” we
noted that “[t]he plaintiffs have also failed adequately
to plead the ‘substantial assistance’ element of aidingand-abetting liability under JASTA.” Siegel, 933 F.3d
at 225. We stated, inter alia, that
plaintiffs here have not plausibly alleged that
HSBC encouraged the heinous November 9
Attacks or provided any funds to AQI. To be
sure, the plaintiffs did allege that HSBC provided hundreds of millions of dollars to ARB,
but they did not advance any non-conclusory
allegation that AQI received any of those
funds or that HSBC knew or intended that
AQI would receive the funds. . . . Similarly, on
the fifth factor—defendant’s state of mind—
the plaintiffs do not plausibly allege that
HSBC knowingly assumed a role in AQI’s terrorist activities or otherwise knowingly or intentionally supported AQI.
Id. (emphases added). We concluded that
[t]aken as true and viewed in the light most
favorable to the plaintiffs, the allegations

51a
establish, at most, that, up until January
2005, HSBC helped ARB violate banking regulations despite knowing that ARB supported
terrorist organizations. Even were that
proven, however, it would be an insufficient
basis for liability under JASTA because the
plaintiffs have failed to allege that HSBC
knowingly assumed a role in AQI’s terrorist
activities or substantially assisted AQI in
those activities, specifically the November 9
Attacks. We therefore conclude that the plaintiffs’ aiding-and-abetting claim fails.
Id. at 225-26 (emphases added).
Thus, in the present case, plaintiffs’ argument
that the relevant JASTA mens rea element—i.e.,
whether NatWest was generally aware it was providing material assistance to Hamas—was established by
evidence that NatWest was assisting Interpal is contrary to Linde and foreclosed by Siegel.
The district court appropriately assessed plaintiffs’ request to add JASTA claims, given the undisputed evidence adduced, in connection with the summary judgment motions, as to the state of NatWest’s
knowledge. As discussed in Part II.A. above, the record
included evidence that plaintiffs’ experts said the
charities to which NatWest transferred funds as instructed by Interpal performed charitable work and
that, as plaintiffs admitted, Interpal did not indicate
to NatWest that the transfers were for any terroristic
purpose; and plaintiffs proffered no evidence that the
charities funded terrorist attacks or recruited persons
to carry out such attacks. On this record, the district
court did not err in denying leave to amend the complaints as futile on the ground that plaintiffs could not

52a
show that NatWest was knowingly providing substantial assistance to Hamas, or that NatWest was generally aware that it was playing a role in Hamas’s acts
of terrorism.
CONCLUSION
We have considered all of plaintiffs’ arguments on
this appeal and have found them to be without merit.
The judgments are affirmed. Defendant’s conditional
cross-appeal is dismissed as moot.

53a
APPENDIX C
________________________________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
________________________________
No. 06-CV-702 (DLI) (RML)
________________________________
MOSES STRAUSS, et al.,
Plaintiffs,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant.
________________________________
No. 07-cv-914 (DLI) (RML)
________________________________
BERNICE WOLF, et al.,
Plaintiffs,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant.
________________________________
OPINION AND ORDER
________________________________
DORA L. IRIZARRY, Chief United States District
Judge:
Approximately 200 individuals and estates of deceased persons (collectively, “Plaintiffs”), brought this
consolidated action against defendant Crédit Lyonnais, S.A. (“Defendant”), seeking to recover damages
from fifteen terrorist attacks in Israel and Palestine

54a
pursuant to the civil liability provision of the Antiterrorism Act of 1992 (“ATA”), 18 U.S.C. § 2333(a) (“Section 2333(a)”). Specifically, Plaintiffs allege that Defendant is liable civilly pursuant to the ATA’s treble
damages provision for: (1) aiding and abetting the
murder, attempted murder, and serious physical injury of American nationals outside the United States
in violation of 18 U.S.C. § 2332; (2) knowingly providing material support or resources to a Foreign Terrorist Organization (“FTO”) in violation of 18 U.S.C. §
2339B; and (3) willfully and unlawfully collecting and
transmitting funds with the knowledge that such
funds would be used for terrorist purposes in violation
of 18 U.S.C. § 2339C. Defendant now brings the instant limited renewed motion for summary judgment
pursuant to Federal Rule of Civil Procedure 56. For
the reasons set forth below, Defendant’s motion for
summary judgment is granted.
BACKGROUND1
Plaintiffs first filed a complaint arising out of thirteen terrorist attacks in Strauss v. Crédit Lyonnais,
S.A.2 on February 16, 2006. See, Compl., Strauss Dkt.
1

The Court assumes familiarity with the facts underlying
this action, which are summarized more fully in the Court’s previous orders. See, e.g., Strauss v. Crédit Lyonnais, S.A. (“Strauss
I”), 2006 WL 2862704, at *1-6 (E.D.N.Y. Oct. 5, 2006); See also,
Strauss v. Crédit Lyonnais, S.A. (“Strauss III”), 925 F. Supp.2d
414, 417-424 (E.D.N.Y. 2013).
2

By order dated October 7, 2011, Strauss and Wolf formally
were consolidated for the purposes of a hearing, trial, or other
adjudication of liability. Citations to the “Strauss Docket” are to
Strauss v. Crédit Lyonnais, S.A., 06-CV-702. Citations to the
“Wolf Docket” are to Wolf v. Crédit Lyonnais, S.A., 07-CV-914.

55a
Entry No. 1. On October 5, 2006, the late Honorable
Charles P. Sifton, then presiding, dismissed Plaintiffs’
aiding and abetting claim and claims arising out of
three attacks as time barred, but denied dismissal of
Plaintiffs’ remaining claims and granted Plaintiffs
leave to amend their complaint. See, Strauss I, 2006
WL 2862704, at *19. On March 2, 2007, Plaintiffs filed
a complaint in Wolf v. Crédit Lyonnais, S.A. Wolf, Dkt.
Entry No. 1. In light of Judge Sifton’s rulings in
Strauss I, the parties in Wolf agreed to dismissal of
their aiding and abetting claim. Wolf, Dkt. entry No.
31. On November 6, 2006, Plaintiffs filed an amended
complaint in Strauss, realleging the claims that Judge
Sifton deemed time barred in Strauss I. Strauss Dkt.
Entry No. 52. On August 6, 2007, Judge Sifton again
dismissed those claims as time barred. Strauss v.
Crédit Lyonnais, S.A. (“Strauss II”), 2007 WL
2296832, at *9 (E.D.N.Y. Aug. 6, 2007). In light of
Judge Sifton’s ruling regarding the time barred claims
arising out of three attacks in Strauss II, the parties
in Wolf agreed to dismissal of Plaintiffs’ claims arising
out of the same three attacks. Wolf, Dkt. Entry No. 36.
On February 28, 2013, the Court granted in part
and denied in part Defendant’s first motion for summary judgment. See, Strauss III, 925 F. Supp.2d 414.
In Strauss III, the Court dismissed the claims brought
by Shlomo Tratner, individually and on behalf of the
Estate of Tiferet Tratner, in connection with the September 24 Attack only, and allowed the claims based
on the remaining fourteen attacks to proceed. See, Id.
at 452-53. Additionally, the Court granted in part Café
Where documents have been filed on both dockets, the Court cites
to the Strauss Docket only, as the lead case.

56a
Hillel Plaintiffs’ cross-motion for summary judgment
to the extent that they proved Hamas’ responsibility
for the Café Hillel attack. See, Id. The Court denied
the remainder of Café Hillel’s motion for summary
judgment. See, Id.
On June 5, 2014, Defendants’ moved to dismiss
Plaintiffs’ claims for lack of personal jurisdiction pursuant to Rule 12(b)(2), or in the alternative, for summary judgment pursuant to Rule 56. See, Strauss Dkt.
Entry No. 369. On March 31, 2016, the Court denied
Defendant’s motion in its entirety. Strauss v. Crédit
Lyonnais, S.A. (“Strauss IV”), 175 F. Supp.3d 3, 32
(E.D.N.Y. 2016).
After the Court’s decision in Strauss IV, on December 6, 2016 Defendant moved for partial reconsideration of the Court’s decision in Strauss III. See, Dkt.
Entry Nos. 421-425. Specifically, Defendant moved for
reconsideration of the Court’s decision that: (1) Israeli
military court convictions are admissible evidence, (2)
Plaintiffs brought forth sufficient admissible evidence
to create a genuine issue of material fact as to Hamas’s
responsibility for the Bus No. 19 Attack, and (3) Plaintiffs’ witness Ronni Shaked’s eyewitness testimony
concerning the March 7, 2003 and October 22, 2003
Attacks are admissible. See generally, Id. The Court
granted Defendant’s motion only to the extent that
Plaintiffs are collaterally estopped from arguing that
Hamas committed the January 29, 2004 Attack.
Strauss v. Crédit Lyonnais, S.A. (“Strauss V”), 2017
WL 4480755, at *5 (E.D.N.Y. Sept. 30, 2017). The
Court denied the remainder of Defendant’s motion for
partial reconsideration. Id.
Pursuant to the 2013 statute of limitations
amendment to the Anti-Terrorism Act (“ATA”),

57a
Plaintiffs’ claims arising from five attacks (the “Reinstated Attacks”), previously dismissed by this Court as
time barred, were reinstated. See, ECF Order dated
July 16, 2013. On September 26, 2016, Defendant
moved for summary judgment as to the Reinstated Attacks. See, Strauss Dkt. Entry No. 427. The Court denied Defendant’s motion to the extent that: (1) Plaintiffs’ expert Ronni Shaked may testify to put factual
evidence already admitted into context to establish
Hamas’ responsibility for an attack, but not to establish the basic facts in the first instance; (2) Plaintiffs’
expert Eli Alshech’s testimony is admissible; (3) Israeli military court conviction records are admissible;
(4) 2005 and 2007 ISA Reports are admissible; (5)
there is sufficient admissible evidence for a reasonable
jury to conclude that Hamas is responsible for the Reinstated Attacks; and (6) a video of Muhammad Farhat is admissible subject to a finding of authenticity
and reliability at a hearing. Strauss v. Crédit Lyonnais, S.A. (“Strauss VI”), 2017 WL 4481126, at *5
(E.D.N.Y. Sept. 30, 2017). The Court granted Defendant’s summary judgment motion to the extent that: (1)
the testimony of Plaintiffs’ fact witnesses is not admissible; (2) hearsay documents such as newspaper reports, claims of responsibility on Hamas-sponsored
websites, and video wills, generally, are not admissible; and (3) Plaintiffs' § 2339C claims are dismissed.
Id.
On March 14, 2018, the Court granted Defendant
permission to file a second renewed motion for summary judgment to address the narrow issue of how the
Second Circuit’s decision in Linde v. Arab Bank, Plc,
882 F.3d 314 (2d Cir. 2018), supports its position. On
May 23, 2018, Defendant filed the instant motion for

58a
summary judgment. See, Mot. For Summary Judgment (“Mot.”), Strauss Dkt. Entry No. 462. Plaintiffs
opposed Defendant’s motion. See,Memorandum in Opposition (“Opp.”), Strauss Dkt. Entry No. 470. Defendant replied. See, Reply in Support of Motion for Summary Judgment (“Reply”), Strauss Dkt. Entry No. 471.
LEGAL STANDARD
I.

Summary Judgment

Summary judgment is appropriate where “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The court
must view all facts in the light most favorable to the
nonmoving party, but “only if there is a ‘genuine’ dispute as to those facts.” Scott v. Harris, 550 U.S. 372,
380 (2007). “When opposing parties tell two different
stories, one of which is blatantly contradicted by the
record, so that no reasonable jury could believe it, a
court should not adopt that version of the facts for purposes of ruling on a motion for summary judgment.”
Id. A genuine issue of material fact exists if “the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). The nonmoving
party, however, may not rely on “[c]onclusory allegations, conjecture, and speculation.” Kerzer v. Kingly
Manufacturing, 156 F.3d 396, 400 (2d Cir. 1998).
“When no rational jury could find in favor of the nonmoving party because the evidence to support its case
is so slight, there is no genuine issue of material fact
and a grant of summary judgment is proper.” Gallo v.
Prudential Residential Services, Limited Partnership,
22 F.3d 1219, 1224 (2d Cir. 1994) (citing Dister v.

59a
Continental Group, Inc., 859 F. 2d 1108, 1114 (2d Cir.
1988)).
II. Primary Liability Under the ATA
Section 2333(a) provides a civil remedy for “[a]ny
national of the United States injured in his or her person, property, or business by reason of an act of international terrorism, or his or her estate, survivors, or
heirs may sue therefor in any appropriate district
court of the United States . . .” 18 U.S.C. § 2333(a).
Under the ATA, “international terrorism” means activities that:
(A) involve violent acts or acts dangerous to
human life that are a violation of the criminal
laws of the United States or of any State, or
that would be a criminal violation if committed within the jurisdiction of the United
States or of any State;
(B) appear to be intended—
(i) to intimidate or coerce a civilian population;
(ii) to influence the policy of a government
by intimidation or coercion; or
(iii) to affect the conduct of a government by
mass destruction, assassination, or kidnapping; and
(C) occur primarily outside the territorial jurisdiction of the United States, or transcend
national boundaries in terms of the means by
which they are accomplished, the persons
they appear intended to intimidate or coerce,
or the locale in which their perpetrators operate or seek asylum . . .

60a
18 U.S.C. § 2331(1); See, Linde, 882 F.2d 314. Thus,
the ATA has four separate requirements for an act to
constitute international terrorism. The act at issue
must: (1) involve violence or endanger human life; (2)
violate federal or state criminal law if committed in
the United States; (3) appear to be intended to intimidate or coerce civilian population, influence government policy, or affect government conduct by specified
means; and (4) occur primarily outside the United
States or transcend national boundaries. See, Linde,
882 F.3d at 326 (citing Licci ex rel. Licci v. Lebanese
Canadian Bank, SAL, 673 F.3d 50, 68 (2d Cir. 2012)).
Plaintiffs bring their claims under 18 U.S.C. §
2339B as the predicate criminal violation to satisfy the
second prong, which requires that the act violate federal criminal law. Section 2339B makes it a felony to
“knowingly provide[] material support or resources to
a [F]oreign [T]errorist [O]rganization,” or attempting
or conspiring to do so. 18 U.S.C. § 2339B; See also,
Weiss v. National Westminster Bank PLC, 768 F.3d
202, 207 (2d Cir. 2014). Under § 2339B, “a defendant
may be liable for civil remedies under § 2333(a) for
providing material support to an organization that solicits funds for an FTO,” even if that support is not provided directly to the FTO itself. Weiss, 768 F.3d at 209.
In Linde, the Second Circuit rejected the argument that providing material support to a known FTO
in violation of § 2339B invariably constitutes a violent
act or act dangerous to human life. Linde, 882 F.3d at
326. (“[T]he provision of material support to a terrorist
organization does not invariably equate to an act of international terrorism. Specifically, . . . providing financial services to a known terrorist organization may afford material support to the organization even if the

61a
services do not involve violence or endanger life and do
not manifest the apparent intent required by §
2331(1)(B).”). The Second Circuit explained that, “conduct that violates a material support statute can also
satisfy the § 2331(1) definition requirements of international terrorism in some circumstances.” Id. (emphasis added). However, the Second Circuit found that
it was “incorrect [for the trial court in Linde] to instruct the jury that a finding that Arab Bank provided
material support to Hamas in violation of § 2339(B)
was alone sufficient to prove the bank's own commission of an act of international terrorism under §
2333(a).” Id. Instead, the jury “needed to be instructed
on and to find proved all of § 2331(1)’s definitional requirements for an act of international terrorism, including those pertaining to violence or danger and the
apparent intent to intimidate or influence.” Id.
In Boim v. Holy Land Foundation for Relief and
Development, the Seventh Circuit rejected the plaintiffs’ arguments that the defendant’s financial donations to Hamas and Hamas-affiliated charities constituted an act of international terrorism as a matter of
law when the defendant knew that Hamas used such
money to finance the killing of Israeli Jews (some of
whom were American citizens). 549 F.3d 685 (7th Cir.
2008) (en banc). The Second Circuit in Linde explained
that the holding in Boim was not contrary to its holding, noting that, in Boim, the Seventh Circuit had not
determined that the provision of material support is
“always” an act of international terrorism. Linde, 882
F.3d at 327. Instead, in Boim, the Seventh Circuit
analogized that “‘giving money to Hamas’ [is like] ‘giving a loaded gun to a child,’ explaining that, while neither transfer is a violent act, both are acts ‘dangerous

62a
to human life.’” Id. (quoting Boim, 549 F.3d at 690).
The Seventh Circuit in Boim focused on the foreseeability that providing Hamas funding would enable Hamas to kill more people. Id. However, the Second Circuit in Linde explained: “We need not here decide
whether we would similarly conclude that a jury could
find that direct monetary donations to a known terrorist organization satisfy § 2331(1)'s definitional requirements for an act of terrorism.” Id. (citing Licci,
673 F.3d at 68–69). The Second Circuit in Linde concluded “only that providing routine financial services
to members and associates of terrorist organizations is
not so akin to providing a loaded gun to a child as to .
. . compel a finding that as a matter of law, the services
were violent or life-endangering acts that appeared intended to intimidate or coerce civilians or to influence
or affect governments.” Id. Thus, the Second Circuit
determined that the provision of material support to a
terrorist organization alone is not enough to constitute
international terrorism.
III. Secondary Liability Under the ATA
Initially, the ATA did not provide a civil remedy
against secondary actors who facilitated acts of international terrorism by others. See, Linde, 882 F.3d at
319-20 (citing Rothstein v. UBS AG, 708 F.3d 82, 97
(2d Cir. 2013)) (“Initially, the ATA afforded civil relief
only against the principals perpetrating acts of international terrorism.”). On September 28, 2016, Congress amended the ATA by enacting the Justice
Against Terrorism Act, Publ. L. No. 114-222 130 Stat.
852 (2016) (“JASTA”). JASTA amends § 2333 by
providing a cause of action against “any person who
aids and abets, by knowingly providing substantial assistance, or who conspires with the person who

63a
committed . . . an act of international terrorism.” 18
U.S.C. § 2333(d)(2).
“JASTA expressly states that such secondary liability claims are not temporally limited to terrorist
acts occurring after that statute's enactment.” Linde,
882 F.3d at 320. Rather, aiding and abetting and conspiracy claims can be asserted “as of the date on which
such act of international terrorism was committed,
planned, or authorized.” 18 U.S.C. § 2333(d). JASTA’s
amendment to the ATA applies to any civil action: “(1)
pending on, or commenced after [the date of JASTA’s]
enactment; and (2) arising out of an injury . . . on or
after September 11, 2001.” Id. at Statutory Note (Effective and Applicability Provisions); See also, Linde,
882 F.3d at 320.
In enacting JASTA, Congress instructed that the
“proper legal framework for how [aiding and abetting]
liability should function” under the ATA is the framework identified in Halberstam v. Welch, 705 F.2d 472
(D.C. Cir. 1983). 18 U.S.C. § 2333 Statutory Note
(Findings and Purpose § 5); See also, Linde, 882 F.3d
at 329. Halberstam set forth three elements for finding
aiding and abetting liability in the civil context: (1)
“the party whom the defendant aids must perform a
wrongful act that causes an injury,” (2) “the defendant
must be generally aware of his role as part of an overall illegal or tortious activity at the time that he provides the assistance,” and (3) “the defendant must
knowingly and substantially assist the principal violation.” 705 F.2d at 487. As discussed in Linde, Halberstam identified six relevant factors for “determining ‘how much encouragement or assistance is substantial enough’ to satisfy the third element: (1) the
nature of the act encouraged, (2) the amount of

64a
assistance given by defendant, (3) defendant's presence or absence at the time of the tort, (4) defendant's
relation to the principal, (5) defendant's state of mind,
and (6) the period of defendant's assistance.’” Linde,
882 F.3d at 329 (citing Id. at 483-84).
The Second Circuit has explained that, “[a]iding
and abetting requires the secondary actor to be aware
that, by assisting the principal, it is itself assuming a
role in terrorist activities.” Linde, 882 F.3d at 319 (citation omitted). For a defendant that is a financial institution, this requires a showing that “in providing
[financial] services, the bank was generally aware that
it was thereby playing a role in [the terrorist organization’s] violent or life-endangering activities,” which
“requires more than the provision of material support
to a designated terrorist organization.” Id. (citation
omitted).
DISCUSSION
I.

Defendant’s Primary Liability Under the ATA

Plaintiffs assert, and this Court had concluded before the Second Circuit’s decision in Linde, that a triable issue of material fact remains as to whether Defendant committed an act of international terrorism
by facilitating the transfers of funds from Comite de
Bienfaisance et de Secours aux Palestiniens (Committee for Palestinian Welfare and Relief) (“CBSP”) to 13
charities (the “13 Charities”), which plaintiffs contend
are alter egos of or controlled by Hamas, an FTO. See,
Strauss III, 925 F. Supp.2d at 453. As discussed above,
the ATA sets forth four separate requirements for an
act to constitute international terrorism. The act at issue must: (1) involve violence or endanger human life;
(2) violate federal or state criminal law if committed in

65a
the United States; (3) appear intended to intimidate or
coerce civilian population, influence government policy, or affect government conduct by specified means;
and (4) occur primarily outside the United States or
transcend national boundaries. See, Licci, 673 F.3d at
68. The Court did not consider in its previous decisions
whether Defendant’s acts satisfy of all of these specific
prongs. See, e.g., Strauss III, 925 F. Supp.2d 414. Defendant argues that it is entitled to summary judgment because Plaintiffs cannot satisfy all four requirements. See generally, Mot. Specifically, Defendant contends that there is no triable issue of fact as to whether
Defendant engaged in violent acts or acts dangerous to
human life and did so with terroristic intent and, thus,
Plaintiffs cannot demonstrate the first and third
prongs discussed in Linde.
For purposes of its summary judgment motion
and because the Court previously ruled in Plaintiffs’
favor on the issues, See generally, Strauss III, Defendant assumes that a triable issue of fact remains as to
whether Defendant knowingly provided material support to an FTO in violation of § 2339B. See, Mot. at 5,
n.4. Thus, Defendant does not dispute that the second
Linde prong presents a triable issue of fact. Additionally, Defendant does not dispute the fourth Linde
prong, that its alleged conduct occurred primarily outside the United States or transcended national boundaries. Id. at 5, n.3.
A. Violent Acts or Acts Dangerous to
Human Life
Defendant contends that no reasonable juror
could find that Defendant’s routine banking services
to CBSP involved violent acts or acts dangerous to

66a
human life. See,Mot. at 9. Defendant argues that undisputed evidence demonstrates that, to Defendant’s
knowledge, CBSP was a charity “aiming to do good
works in a deeply deprived and troubled region.” Id. at
9-10. To support this contention, Defendant points to
CBSP’s bylaws, which describe CBSP’s charitable objectives. Id.; See also, Defendant’s Supplemental Rule
56.1 Statement (“CL 56.1 Stmt.”), Strauss, Dkt. Entry
No. 464 ¶ 1; Declaration of Mark E. McDonald in Support of Mot. (“McDonald Decl.”), Strauss, Dkt. Entry
No. 463, Ex. 1. Defendant provides evidence demonstrating that, of the transfers processed by Defendant
to the 13 Charities on behalf of CBSP that contained a
stated purpose, the transfers were earmarked for
charitable purposes. Mot. at 10; CL 56.1 Stmt. ¶¶ 6-7;
McDonald Decl., Ex. 4. None of the transfers processed
by Defendant were marked as being for a specific violent or terroristic purpose. Id. Furthermore, Defendant’s employee, Robert Audren, who worked in Defendant’s Financial Security Unit and reviewed activity in CBSP’s accounts, testified that he found CBSP’s
transfers were “perfectly coherent with the stated purpose of [CBSP] which was, in fact, welfare and solidarity with Palestine.” Mot. at 11; CL 56.1 Stmt. ¶ 3.
Audren understood the beneficiaries of CBSP’s transfers to be “charitable Muslim associations.” Mot. at 11;
CL 56.1 Stmt. ¶ 4.
Plaintiffs concede that there is no evidence that
any of CBSP’s transfers to the 13 Charities processed
by Defendant were identified as being for any specific
violent of terroristic purpose. See, Plaintiffs’ Response
to Defendant’s 2011 Rule 56.1 Statement (“Pls.’ Resp.
to 2011 56.1 Stmt.”), Strauss, Dkt. Entry No. 308 ¶ 255
(“Plaintiffs admit they do not contend that any of the

67a
funds CBSP transferred from the accounts it maintained with Crédit Lyonnais to Hamas were used specifically to finance any of the terrorist attacks that injured Plaintiffs and/or killed their loved ones.”) (internal quotation marks and citation omitted). Furthermore, Plaintiffs’ experts, Dr. Matthew Levitt and Mr.
Arieh Spitzen, admitted that the 13 Charities performed charitable work. See, Defendant’s 2011 Rule
56.1 Statement (“CL 2011 56.1 Stmt.”), Strauss, Dkt.
Entry No. 304 ¶¶ 269-71.
Citing to the expert reports by Levitt and Spitzen,
Plaintiffs instead argue that the evidence demonstrates that the 13 Charities were controlled by Hamas founders and that the 13 Charities “were instrumental in organizing and distributing payments to
families of suicide bombers and other terrorists.” See,
Mot. at 10 (citing Plaintiffs’ Supplemental Rule 56.1
Statement (“Pls.’ 56.1 Stmt.”), Strauss, Dkt. Entry No.
469 ¶¶ 2-6 and Declaration of Aaron Schlanger
(“Schlanger Decl.”), Strauss, Dkt Entry No. 467, Exs.
23, 24). Plaintiffs claim that the evidence shows that
the 13 Charities “recruited Hamas operatives to commit terrorist attacks.” See, Id. at 11 (citing Pls.’ 56.1
Stmt. ¶ 4 and Schlanger Decl. Ex. 3). Plaintiffs further
assert that the 13 Charities were “integral to Hamas’s
structure and operational capacity,” without providing
evidentiary support for such an assertion. See, Id. at
11.
Defendants rely on concessions made by Plaintiffs’
own experts, Levitt and Spitzen, to counter the arguments made by Plaintiffs. See, Reply at 6. Specifically,
Levitt does not opine that any funds transferred by
CBSP through Defendant accounts were used to

68a
perpetrate the 15 attacks or that any of the 12 Charities3 participated in, planned, trained the perpetrators
of, requested that someone carry out, or was the cause
of any of the 15 attacks. See, Id. at 12-13 (citing Pls.’
Resp. to 2011 56.1 Stmt. ¶¶ 260-63, 265-66). Similarly,
Spitzen does not opine that any funds transferred by
CBSP through its Defendant account were used to perpetrate the 15 attacks or that any of the 13 Charities
participated in, planned, trained the perpetrators of,
requested that someone carry out, or was the cause of
any of the 15 attacks. See, Reply at 6; See also, Mot. at
12-13 (citing Pls.’ Resp. to 2011 56.1 Stmt. ¶¶ 272-75,
277-78). Defendant further maintains that the evidence upon which Plaintiffs rely does not relate to the
wire transfers processed by Defendant. See, Reply at 6.
The Court previously held that Plaintiffs’ allegations survive summary judgment as to whether Defendant had the requisite scienter under the material
support statute, § 2339B. See, Strauss III, 925 F.
Supp.2d at 427-31 (“[W]hen viewing the record in the
light most favorable to Plaintiffs, there is a genuine
issue of material fact as to whether Defendant knowingly provided material support to a terrorist organization.”). In Weiss, the Second Circuit explained that §
2339 “requires only a showing that [Defendant] had
knowledge that, or exhibited deliberate indifference to
whether, [Defendant’s SDGT banking client] provided
material support to a terrorist organization, irrespective of whether [Defendant’s SDGT banking client]’s
support aided terrorist activities of the terrorist organization.” 768 F.3d at 205 (alterations in original).
3

The Expert Report of Dr. Matthew Levitt refers only to
twelve of the 13 Charities. See, Mot. at 13, n.8.

69a
However, § 2331(1) specifies that, to constitute an
act of international terrorism supporting civil liability
under § 2333, Defendant’s activities must meet the
definitional requirements of international terrorism §
2331(1). See, 18 U.S.C. § 2331(1). Thus, as the Second
Circuit subsequently elaborated in 2018 in Linde, a violation of § 2339(B) “does not invariably equate to an
act of international terrorism.” Linde, 882 F.3d at 326.
While, “conduct that violates a material support statute can also satisfy the § 2331(1) definitional requirements of international terrorism in some circumstances,” Id. (emphasis added), a reasonable juror cannot conclude that Defendant’s alleged conduct involves
violence or endangers human life.
Plaintiffs assert that the issue of whether Defendant’s conduct satisfies the elements of § 2331(1) and §
2333(d) always is a question for the jury. See, Opp. at
3. However, that assertion is not supported by the Second Circuit’s ruling in Linde. Instead, the Second Circuit concluded in Linde that, in that case, the acts alleged, i.e., “providing routine financial services to
members and associates of terrorist organizations,”
were “not so akin to providing a loaded gun to a child
as to . . . compel a finding that as a matter of law, the
services were violent or life-endangering acts that appeared intended to coerce civilians or to influence or
affect government.” Linde, 882 F.3d at 327. Linde did
not preclude a finding that, as a matter of law, providing routine financial services for charitable purposes
to charities that include members and associates of
terrorist organizations is not a violent act or act dangerous to human life under § 2331(1).
The Second Circuit remanded the Linde case for
the jury to determine whether the § 2331(1)

70a
requirements were satisfied without finding that defendant Arab Bank did not satisfy the § 2331(1) requirements as a matter of law. Id. However, evidence
was presented in the Linde case that is not present in
this case. See, Id. at 321-22. For example, Arab Bank
executed wire transfers for known Hamas leaders and
operatives. Id. at 321. At least one Hamas spokesman
held an account at an Arab Bank branch. Id. Arab
Bank employees admitted their awareness of the Hamas affiliations. Id. Arab Bank processed transfers on
behalf of purported charities known to funnel money
to Hamas. Id. Notably, some of the Arab Bank transfers were identified explicitly as payments for suicide
bombings. Id. at 321-22. There is no evidence that the
transfers Defendant processed on behalf of the 13
Charities were used explicitly for purposes similar to
those described in Linde.
Without guidance from the Second Circuit as to
the types of activities that would constitute violent
acts or acts dangerous to human life, the Court looks
to the plain language of the statute. Black’s Law Dictionary offers three definitions of ‘violent’: (1) “[o]f, relating to, or characterized by strong physical force;” (2)
“[r]esulting from extreme or intense force;” and (3)
“[v]ehemently or passionately threatening.” Violent,
Black’s Law Dictionary (10th ed. 2014). Black’s Law
Dictionary offers two definitions of ‘dangerous’: (1)
“([o]f a condition, situation, etc.) perilous; hazardous;
unsafe;” and (2) “([o]f a person, an object, etc.) likely to
cause serious bodily harm.” Dangerous, Id.
While the evidence Plaintiffs rely upon is sufficient to demonstrate a triable issue of fact as to
whether Defendant provided material support to a foreign terrorist organization in violation of § 2339B, the

71a
evidence does not warrant a trial as to whether Defendant’s activities involved violent acts or acts dangerous to human life as required under § 2331(1).
Plaintiffs’ reliance on the fact that the 13 Charities
were controlled by Hamas founders, without more, is
insufficient to prove that Defendant’s activities were
violent or endangered human life. Indeed, Plaintiffs
offer no evidence, and their experts do not opine, that
the 13 Charities participated in, planned, trained the
perpetrators of, requested that someone carry out, or
were the cause of the attacks giving rise to Plaintiffs’
claims. Plaintiffs identify no transfers from CBSP to
the 13 Charities as payments meant to involve a violent act or an act dangerous to human life.
Plaintiffs contend that Defendant’s banking services to CBSP and the 13 Charities contributed to terrorism merely because those organizations engage in
terroristic activity. See, Opp. at 8-9. Plaintiffs’ assertions address Defendant’s indirect contribution,
through banking services, to terrorist activities without establishing any nexus between the banking services and the terrorist activities. Plaintiffs offer no evidence that Defendant’s banking services directly involved strong physical force, or intense force, or vehement or passionate threats. Plaintiffs also do not offer
evidence sufficient to create a factual dispute as to
whether Defendant’s banking services directly involved peril or hazard or were likely to cause serious
bodily harm.
Thus, Defendant’s request for summary judgment
as to the violent acts and acts dangerous to human life
prong of § 2331(1) is granted because Plaintiffs fail to
present evidence sufficient to create a jury question as

72a
to whether Defendant’s activities involved violent acts
or acts dangerous to human life.
B. Terroristic Intent
The terroristic intent prong of § 2331(1) requires
that Defendant’s actions “appear to be intended to (i)
intimidate or coerce a civilian population; (ii) to influence the policy of a government by intimidation or coercion; or (iii) to affect the conduct of a government by
mass destruction, assassination, or kidnapping.” 18
U.S.C. § 2331(1)(B). The “appear to be intended” requirement “does not depend on the actor’s beliefs, but
imposes on the action an objective standard to recognize the apparent intention of action.” Weiss, 768 F.3d
at 207, n.6. As with the violent act or act that is dangerous to human life prong of § 2331(1), the provision
of material support to a terrorist organization in violation of § 2339B “does not invariably equate to an act
of international terrorism. Specifically, . . . providing
financial services to a known terrorist organization
may afford material support to the organization even
if the services . . . do not manifest the apparent intent
required by § 2331(1)(B).” Linde, 882 F.3d at 326.
Here, Plaintiffs have not alleged, and the uncontroverted evidence does not show, that Defendant’s apparent intent satisfies the specific intent requirement
under § 2331(B).
Plaintiffs rely on evidence apparently tending to
show that Defendant provided material support to a
terrorist organization to argue that an issue of fact exists as to whether Defendant had the requisite terroristic intent under § 2331. Plaintiffs rely on evidence
that Defendant knowingly provided financial services
to a designated FTO, which satisfies the scienter

73a
requirement under § 2339. See, Opp. at 13-14 (discussing a New York State Department of Financial Services Consent Order with Crédit Agricole Corporate &
Investment Bank New York Branch and Crédit
Agricole S.A. and a Deferred Prosecution Agreement
between the United States Attorney’s Office for the
District of Columbia and Crédit Agricole Corporate &
Investment Bank).
In Strauss III, this Court found that a genuine issue of material fact remained “as to whether Defendant knew about or deliberately disregarded CBSP’s
purported support of Hamas or Hamas front groups,
and that, by sending money to the 13 Charities, it was
facilitating Hamas’ ability to carry out terrorist attacks.” 925 F. Supp.2d at 429. The evidence demonstrates that Defendant had concerns about CSBP’s accounts since at least 1997, and that the concerns may
have been related to CBSP’s possible connection to terrorist groups. See, Id. at 429-431. Thus, this Court denied Defendant’s motion for summary judgment as to
whether Defendant knowingly provided material support to a terrorist organization. Id. at 431.
However, as clarified by the Second Circuit in
Linde, the scienter requirement of the predicate material support statute is not the same as the definitional
requirements of terroristic intent in § 2331(1). See, 882
F.3d at 328. In Linde, the Second Circuit provided an
example of an action that would constitute material
support and satisfy the requirements for international
terrorism as defined by § 2331(1):
Most obviously, a person who voluntarily acts
as a suicide bomber for Hamas in Israel can
thereby provide material support to that terrorist organization while also committing an

74a
act of terrorism himself. The suicide bombing
is unquestionably a violent act whose apparent intent is to intimidate civilians or influence government.
Id. at 326. In Linde, the evidence demonstrated that
defendant Arab Bank processed bank transfers that
“were explicitly identified as payments for suicide
bombings.” Id. at 321. The Second Circuit concluded
that such evidence was sufficient to create a triable issue of fact as to whether Arab Bank’s activities satisfied the intent requirement under § 2331(1)(B). Id. at
327. Here, Plaintiffs provide no such evidence. Defendant merely provided banking services to CBSP for ostensibly charitable purposes, which does not satisfy
the intent required by § 2331(B) as established by the
Circuit in Linde. While the evidence creates an issue
of fact as to whether Defendant knew about or deliberately disregarded CBSP’s purported support of Hamas or Hamas front groups, Plaintiffs adduce no evidence that Defendant had the apparent intent to intimidate or coerce a civilian population, influence the
policy of a government by intimidation or coercion, or
affect the conduct of a government by mass destruction, assassination, or kidnapping.
Accordingly, Defendant’s summary judgment motion as to the terroristic intent prong of § 2331(1) is
granted because there is no material issue of fact as to
whether Defendant’s activities appeared to be intended to intimidate or coerce a civilian population, influence the policy of a government by intimidation or
coercion, or affect the conduct of a government by mass
destruction, assassination, or kidnapping.

75a
II. Plaintiffs’ Aiding and Abetting Claims
Although Judge Sifton dismissed Plaintiffs’ aiding
and abetting claims in 2006, Plaintiffs contend that
they properly have asserted an aiding and abetting
claim by including a claim pursuant to § 2333(d) in the
proposed joint pretrial order. See, Strauss, Dkt. Entry
No. 458, filed on March 8, 2018, and Opp. at 15, n.16.
Defendant argues that this Court already dismissed
Plaintiffs’ aiding and abetting claim, and that Plaintiffs have not sought to replead any such claim. See,
Mot. at 21-22. Defendant further contends that, even
if the Court permits Plaintiffs to plead an aiding and
abetting claim, Defendant is entitled to summary
judgment on that claim. See, Id. at 21-24.
A. The Joint Pretrial Order
In the proposed joint pretrial order, Plaintiffs allege that Defendant is liable under § 2333(d) for aiding
and abetting a person or entity who committed an attack committed, planned, or authorized by a FTO. See,
Strauss, Dkt. Entry No. 458 at 3-6. Specifically, Plaintiffs allege that:
(1) Hamas was responsible for the attacks
that injured the Plaintiffs; (2) Defendant provided substantial assistance to Hamas for its
terrorist activities, including these attacks,
by transferring significant sums of money to
organizations that it knew (or consciously
avoided knowing) were controlled by Hamas;
and (3) Defendant’s acts were a substantial
factor in causing the Plaintiffs’ injuries and
those injuries were a reasonably foreseeable
result of the significant sums of money Defendant sent to Hamas.

76a
Id. at 5 (footnote omitted). Plaintiffs concede that the
Court dismissed Plaintiffs’ common law aiding and
abetting claim previously, but allege that, because
JASTA expressly is retroactive, § 2333(d) provides a
new and superseding legal basis for Plaintiffs’ aiding
and abetting claims, and that Halberstam is “the
proper legal framework” for evaluating such claims.
Id. at 5-6 (citing Linde, 882 F.3d at 329). Defendant’s
summary of defenses in the proposed joint pretrial order includes a statement that, “[t]he claims to be tried
do not include an aiding and abetting claim because
Judge Sifton dismissed the only aiding and abetting
claim plaintiffs have ever pleaded in these lawsuits
long ago.” Id. at 6, n.4 (citing Strauss I, 2006 WL
2862704, at *9).
Plaintiffs contend that they are entitled to proceed
on the aiding and abetting claims alleged in the proposed joint pretrial order because Rule 16(d) “provides
that a pretrial order controls the course of the action,
and such an action supersedes the pleadings.” Opp. at
15, n.16 (quotations and citations omitted). Plaintiffs
offer that, should the Court prefer that Plaintiffs assert their § 2333(d) claims by amending their complaint rather than through a pretrial order, Plaintiffs
would comply. Id.
As a threshold matter, the Court must decide
whether it will permit Plaintiffs to include an aiding
and abetting claim under § 2333(d) in the pretrial order even though Plaintiffs have not included the statutory claim in the pleadings. While a pretrial order
does supersede all prior pleadings and controls the
subsequent course of the action, See, Rockwell International Corp. v. United States, 549 U.S. 457, 474
(2007), the Court normally does not expect to see

77a
claims or defenses not contained in the pleadings appearing for the first time in the pretrial order, particularly in a case such as this that has been pending a
long time and has had substantial motion practice.
See, Wilson v. Muckala, 303 F.3d 1207, 1215 (10th Cir.
2002) (“The laudable purpose of Fed. R. Civ. P. 16 is to
avoid surprise, not foment it.”). Instead, a party may
amend its pleading to add claims with the court’s
leave. See, Fed. R. Civ. P. 15(a). Accordingly, the Court
will not permit Plaintiffs to raise JASTA claims for the
first time in the pretrial order.
The Court instead will consider whether it will
grant Plaintiffs leave to amend their complaint pursuant to Federal Rule of Civil Procedure 15(a), even
though Plaintiffs ask for this relief only in the alternative to the Court’s acceptance of the claim in the pretrial order, fashions the request as a cross-motion in a
footnote in the opposition, and does not attach a proposed amended complaint. See, Opp. at 15, n.16
(“Should the Court prefer that Plaintiffs assert their §
2333(d) claims by amended their complaints rather
than through the Joint Pre-Trial Order, they will of
course do so.”).
Federal Rule of Civil Procedure 15(a) provides
that a party shall be given leave to amend “when justice so requires.” Id. “Leave to amend should be freely
granted, but the district court has the discretion to
deny leave if there is a good reason for it, such as futility, bad faith, undue delay, or undue prejudice to the
opposing party.” Jin v. Metro. Life Ins. Co., 310 F.3d
84, 101 (2d Cir. 2002); See also, Local 802, Assoc. Musicians of Greater N.Y. v. Parker Meridien Hotel, 145
F.3d 85, 89 (2d Cir. 1998). If a scheduling order has
been entered setting a deadline for amendments, the

78a
schedule “may be modified” to allow the amendment
“only for good cause and with the judge's consent.”
Fed. R. Civ. P. 16(b)(4).
Here, a June 1, 2016 order set the deadline of June
17, 2016, for Plaintiffs to file the operative amended
complaints. See, June 1, 2016 ECF Order. Although
Plaintiffs met that deadline by filing Amended Complaints on June 17, 2016, See, Amended Complaint,
Strauss, Dkt. Entry No. 408, and Amended Complaint,
Wolf, Dkt. Entry No. 287, Plaintiffs could not have included their JASTA claims in the amended complaints
because Congress enacted JASTA over three months
later on September 28, 2016. “A finding of good cause
depends on the diligence of the moving party.”
Grochowski v. Phoenix Constr., 318 F.3d 80, 86 (2d Cir.
2003) (citing Parker v. Columbia Pictures Indus., 204
F.3d 326, 340 (2d Cir. 2000)). The enactment of an explicitly retroactive statute after a scheduling deadline
constitutes sufficient good cause.
Nonetheless, Defendant argues that Plaintiffs
should not be able to raise these claims because Judge
Sifton addressed them in Strauss I. See, Mot. at 21.
However, Judge Sifton dismissed Plaintiffs’ common
law aiding and abetting claims, but did not, and could
not address Plaintiffs’ statutory aiding and abetting
claims under JASTA as the statute did not exist at the
time. See, Owens v. BNP Paribas, S.A., 897 F. 3d 266,
278 (D.C. Cir. 2018) (“JASTA does not indicate that
Congress merely “clarified” existing law when it
amended § 2333. . . . If anything, JASTA’s passage confirms that Congress knows how to provide for aiding
and abetting liability explicitly and that the version of
§ 2333 in effect [previously] did not provide for that
liability.”). Defendant contends that Judge Sifton

79a
relied on the same legal framework for dismissing
Plaintiffs’ common law aiding and abetting claims as
required for dismissing JASTA claims. See, Reply at 89, 9, n.9 (citing Strauss I, 2006 WL 286704, at *9). Specifically, Defendant contends that Judge Sifton evaluated Plaintiffs’ aiding and abetting claim by relying on
aiding and abetting precedent set forth in In re Terrorist Attacks on Sept. 11, which considered the Halberstam elements. See, Id. (citing In re Terrorist Attacks on Sept. 11, 2001, 349 F. Supp.2d 765, 798-800
(S.D.N.Y. 2005)). While Judge Sifton did reference In
re Terrorist Attacks on Sept. 11, 2001, it is unclear
from Strauss I whether he applied the Halberstam factors. See, Strauss I, 2006 WL 2862704, at *9. The Second Circuit in Linde made clear that the Halberstam
elements of civil aiding and abetting liability and factors relevant to the substantial assistance element
provide the proper legal framework for evaluating a
JASTA aiding and abetting claim. 882 F.3d at 329. Because it is unclear whether Judge Sifton applied that
framework, the Court does not consider the decision in
Strauss I as a bar to Plaintiffs amending their complaint. However, for the reasons that follow immediately below, amendment of the complaint is denied as
futile.
B. Summary Judgment
§ 2333(d) Claims

on

Plaintiffs’

Finally, Defendant maintains that, even if the
Court were to permit Defendant to amend its complaint to include an aiding and abetting claim under
JASTA, the amendment would be futile because Defendant would be entitled to summary judgment as to
that claim. See, Opp. at 21-24. As a general matter, a
Rule 12(b)(6) motion is the benchmark for determining

80a
whether amendment is futile. See, Lucente v. International Business Machines Corp., 310 F.3d 243, 258 (2d
Cir. 2002) (“An amendment to a pleading is futile if the
proposed claim could not withstand a motion to dismiss pursuant to Fed. R. Civ. P. 12(b)(6).”); See also,
Alexander v. Westbury Union Free School District, 829
F. Supp.2d 89, 118-19 (E.D.N.Y. 2011) (“Usually, a
proposed amendment is futile if it could not survive a
Rule 12(b)(6) motion to dismiss for failure to state [a]
claim.”). However, “when a motion to amend is made
in response to a summary judgment motion, the court
may deny the amendment as futile when the evidence
in support of the plaintiff's proposed new claim creates
no triable issue of fact, even if the amended complaint
would state a valid claim on its face.” Alexander, 829
F. Supp.2d at 119 (citing Milanese v. Rust-Oleum
Corp., 244 F.3d 104,110 (2d Cir. 2001)). Here, amendment would be futile because Plaintiffs’ proposed
JASTA claim fails as a matter of law.
Plaintiffs again rely on evidence that apparently
tends to support a finding that Defendant had the requisite scienter required for providing material support
to a terrorist organization under § 2339B to support
their claim that Defendant had the requisite scienter
for aiding and abetting liability under JASTA. See,
Opp. at 23-25. Specifically, Plaintiffs assert that Defendant was “generally aware of its role as repository
and distribution mechanism for CBSP’s continuing
criminal enterprise which carried a foreseeable and
enormous . . . risk of terror attacks.” Id. at 23-24. However, as discussed in detail above, Plaintiffs present no
evidence that creates a triable jury question as to
whether Defendant generally was aware that it played
a role in any of Hamas’ or even CBSP’s violent or life-

81a
endangering activities. Evidence that Defendant
knowingly provided banking services to a terrorist organization, without more, is insufficient to satisfy
JASTA’s scienter requirement.
Plaintiffs’ proposed JASTA aiding and abetting
claim cannot survive summary judgment. Accordingly,
such an amendment would be futile and Plaintiffs’ motion for leave to amend the complaint is denied with
prejudice.
CONCLUSION
For the foregoing reasons, Defendant’s summary
judgment motion as to Plaintiffs’ remaining claims of
civil liability under the ATA is granted in its entirety.
Plaintiffs’ motion for leave to amend the complaint to
add a claim under JASTA is denied.
SO ORDERED.
Dated: Brooklyn, New York
March 31, 2019
s/
DORA L. IRIZARRY
Chief Judge

82a
APPENDIX D
________________________________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
________________________________
No. 06-CV-702 (DLI) (RML)
________________________________
MOSES STRAUSS, et al.,
Plaintiffs,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant.
________________________________
No. 07-cv-914 (DLI) (RML)
________________________________
BERNICE WOLF, et al.,
Plaintiffs,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant.
________________________________
OPINION AND ORDER
________________________________
DORA L. IRIZARRY, U.S. District Judge:
This is a consolidated action pursuant to the civil
liability provision of the Antiterrorism Act of 1992
(“ATA”), 18 U.S.C. § 2333(a) (“§ 2333(a)”). Plaintiffs,
over 200 individuals and estates of people who are deceased (collectively, “Plaintiffs”), seek to recover damages from Defendant Crédit Lyonnais, S.A.

83a
(“Defendant”) in connection with 19 attacks in Israel
and Palestine allegedly perpetrated by Hamas. (See
generally Fourth Am. Compl., (“Strauss FAC”),
Strauss Dkt. Entry No. 358; Compl. (“Wolf Compl.”),
Wolf Dkt. Entry No. 1).1 Specifically, Plaintiffs allege
that Defendant is civilly liable pursuant to the ATA’s
treble damages provision for: (1) aiding and abetting
the murder, attempted murder, and serious physical
injury of American nationals outside the United States
in violation of 18 U.S.C. § 2332; (2) knowingly providing material support or resources to a Foreign Terrorist Organization (“FTO”) in violation of 18 U.S.C. §
2339B; and (3) willfully and unlawfully collecting and
transmitting funds with the knowledge that such
funds would be used for terrorist purposes in violation
of 18 U.S.C. § 2339C. (Strauss FAC ¶¶ 672-90; Wolf
Compl. ¶¶ 407-25.) Defendant moves for dismissal of
this action for lack of personal jurisdiction pursuant to
Rule 12(b)(2) of the Federal Rules of Civil Procedure,
or in the alternative, for summary judgment pursuant
to Rule 56. (See Def.’s Mem. of Law in Supp. of Mot. to
Dismiss (“Def.’s Mem.”), Strauss Dkt. Entry No. 369.)
Plaintiffs oppose. (See Pls.’ Mem. of Law in Opp’n to
Mot. to Dismiss (“Pls.’ Opp’n”), Strauss Dkt. Entry No.
371.) For the reasons set forth below, Defendant’s motion is denied in its entirety.

1

Citations to the “Strauss Dkt.” are to docket 06-cv-702. Citations to the “Wolf Dkt.” are to 07-cv-914. Where the same document has been filed on both dockets, the Court cites to the Strauss
Docket only, as it is the lead case.

84a
BACKGROUND2
I.

The Parties

Plaintiffs’ claims arise from 19 terrorist attacks
that occurred in Israel and Palestine between approximately 2001 and 2004, which allegedly were perpetrated by Hamas.3 See Strauss v. Crédit Lyonnais, S.A.
(“Strauss II”), 925 F. Supp. 2d 414, 418 (E.D.N.Y.
2013). Plaintiffs comprise over 200 United States nationals who were injured in those attacks, the estates
of persons killed in those attacks, and/or family members of persons killed or injured in those attacks. Id.
Defendant is a financial institution incorporated
and headquartered in France. Id. At the time of the
events giving rise to this action, Defendant conducted
business in New York through the Crédit Lyonnais
2

The Court assumes familiarity with the facts underlying
this action, which are summarized more fully in the Court’s February 28, 2013 Opinion and Order on the parties’ cross-motions
for summary judgment. See Strauss v. Crédit Lyonnais, S.A.
(“Strauss II”), 925 F. Supp. 2d 414 (E.D.N.Y. 2013). The facts recounted herein are drawn from the statement of facts set forth in
that Opinion and Order, affidavits submitted in connection with
the motions for summary judgment that were the subject of that
Order, the pleadings, and certain materials submitted by the parties in connection with the instant motion. See Baron Philippe de
Rothschild, S.A. v. Paramount Distillers, Inc., 923 F. Supp. 433,
436 (S.D.N.Y. 1996) (“Matters outside the pleadings, however,
may also be considered in resolving a motion to dismiss for lack
of personal jurisdiction pursuant to Fed. R. Civ. P. 12(b)(2) without converting it into one for summary judgment.”) (citing Visual
Sciences, Inc. v. Integrated Comms., Inc., 660 F.2d 56, 58 (2d Cir.
1981)).
3

Hamas is an acronym for “Harakat al-Muqawama al-Islamiyya,” also known as the “Islamic Resistance Movement.” (Strauss
FAC. ¶ 1 n.1.)

85a
Americas New York Branch (Defendant’s “New York
Branch”).4 (See Decl. of Joseph Virgilio (“Virgilio
Decl.”) ¶ 2, Ex. 3 to the Decl. of Emily P. Eckstut in
Supp. of Def’s. Mot. for Summary Judgment, Strauss
Dkt. Entry No. 316-1.) According to Defendant, the
New York Branch served as the “intermediary bank
for U.S. Dollar denominated transfers that were requested by customers of Crédit Lyonnais in France.”
(Id.) Plaintiffs allege that Defendant also maintains
an office in Miami, Florida, and is registered with
State banking authorities there. (Strauss FAC ¶ 579;
Wolf Compl. ¶ 316.)
Among other customers, Defendant maintained
bank accounts in France for the Comite de Bienfaisance et de Secours aux Palestiniens (“Committee
for Palestinian Welfare and Relief”) (“CBSP”), a nonprofit organization registered in France and self-described as providing humanitarian aid to various charitable organizations in the West Bank, Gaza, and surrounding areas. See Strauss II, 925 F. Supp. 2d at 41819. During the time CBSP had accounts with Defendant, it transferred money to certain charitable organizations (each a “Charity,” and collectively the “Charities”) that Plaintiffs contend actually were front organizations for Hamas. See Id. at 419. Plaintiffs allege
that Defendant aided Hamas by maintaining CBSP’s
accounts and sending money to the Charities on
CBSP’s behalf, despite knowing that CBSP supported
Hamas. See Id. at 424-25. While the vast majority of
4

Plaintiffs contend that the New York Branch was a “legally
inseparable” corporate branch maintained by Defendant, rather
than a subsidiary with an independent corporate existence. (See
Pl.s’ Opp’n at 12 n.26.) Nevertheless, the Court uses the term
“New York Branch” as a matter of convenience only.

86a
transfers Defendant made to the Charities on behalf
of CBSP never went through the United States, the
parties agree that Defendant executed five such transfers through its New York Branch (the “New York
Transfers”), each in response to a specific request by
CBSP to send funds in U.S. Dollars. (See Ex. A to the
Oct. 16, 2015 Friedman Ltr., Strauss Dkt. Entry No.
393.) The relevant electronic transfer records reflect
that each New York Transfer was initiated by Defendant in Paris and routed through its New York Branch,
then was directed for the benefit of the respective
Charity to a correspondent account maintained by
that Charity’s bank either at a New York branch of
Arab Bank, PLC, or in one instance, Citibank N.A.
(See Exs. A-D to the Feb. 7, 2014 Osen Ltr., Strauss
Dkt. Entry No. 362; Ex. B to the Oct. 16, 2015 Osen
Ltr., Strauss Dkt. Entry No. 392; Ex. A to the Oct. 16,
2015 Friedman Ltr.)
II. Procedural History
After initially commencing an action against Defendant in the United States District Court for the District of New Jersey, Plaintiffs refiled the Strauss case
in this Court in February 2006. The initial complaint,
and every amended complaint thereafter, alleged that
Defendant is subject both to general personal jurisdiction (“general jurisdiction”) and specific personal jurisdiction (“specific jurisdiction”) in the United States.
(See Strauss FAC ¶ 4; see also Wolf Compl. ¶ 4.) Following its voluntary acceptance of service of process in
February 2006, (Strauss Dkt. Entry No. 3), Defendant
moved for dismissal of the Strauss action pursuant to
Rule 12(b)(6), declining to contest personal jurisdiction
at that time. (See Mot. to Dismiss, Strauss Dkt. Entry
No. 10.) The late Honorable Charles P. Sifton, then

87a
presiding, denied the motion to dismiss with respect to
Plaintiffs’ claims that Defendant provided material
support to an FTO and knowingly transmitted funds
that financed terrorism, but dismissed Plaintiffs’ aiding and abetting claim, with leave to amend. Strauss
v. Crédit Lyonnais, S.A. (“Strauss I”), 2006 WL
2862704 (E.D.N.Y. Oct. 5, 2006). Defendant similarly
accepted service in the Wolf action and thereafter filed
a motion to dismiss, which the parties resolved by stipulation without any objection by Defendant as to personal jurisdiction. (See Wolf Dkt. Entry Nos. 6, 13, and
31.)
Extensive merits discovery between the parties
ensued. On October 7, 2011, the Court formally consolidated the Strauss and Wolf actions. Thereafter, Defendant moved for summary judgment dismissing the
consolidated action, but again declined to raise a defense of lack of personal jurisdiction. (See Strauss Dkt.
Entry No. 293.) By Opinion and Order dated February
28, 2013, the Court granted summary judgment in favor of Defendant with respect to one attack for which
certain Plaintiffs sought recovery, but denied Defendant’s motion with respect to Plaintiffs’ claims concerning more than a dozen other attacks. See Strauss II,
925 F. Supp. 2d at 452-53.
On February 6, 2014, Defendant notified the
Court that, in light of the Supreme Court’s decision in
Daimler AG v. Bauman, 134 S. Ct. 746 (2014), it intended to assert a personal jurisdiction defense for the
first time in these proceedings. (See Feb. 6, 2014 Friedman Ltr., Strauss Dkt. Entry No. 361.) Decided in January 2014, Daimler addressed the extent to which a
forum State may exercise general jurisdiction over a
foreign corporation. Revisiting its past personal

88a
jurisdiction jurisprudence, the Supreme Court clarified that a corporation is subject to general jurisdiction
in a forum State only where its contacts are “so continuous and systematic,” judged against the corporation’s
nationwide and worldwide activities, that it is “essentially at home” in that State. Daimler, 134 S. Ct. at 761
& n.20 (quoting Goodyear Dunlop Tires Operations,
S.A. v. Brown, 131 S. Ct. 2846, 2851 (2011)) (internal
quotation marks omitted). Aside from the “exceptional
case,” the Supreme Court explained, a corporation is
at home and subject to general jurisdiction only in a
State that represents its formal place of incorporation
or principal place of business. See Id. & nn.19-20. The
Supreme Court emphasized that the “exceptional
case” exists only in rare and compelling circumstances
like those in Perkins v. Benguet Consol. Mining Co.,
342 U.S. 437 (1952), where a foreign corporation maintained a surrogate headquarters in Ohio during a period of wartime occupation in its native Philippines.
See Id. at 755-56 & nn.8, 19.
Citing the “new rule” on general jurisdiction purportedly announced in Daimler, (see Feb. 6, 2014
Friedman Ltr.), Defendant filed the instant motion to
dismiss this action pursuant to Rule 12(b)(2) of the
Federal Rules of Civil Procedure. In the alternative,
Defendant contends that it is entitled to summary
judgment dismissing Plaintiffs’ claims because, at
most, it is subject to personal jurisdiction in New York
only with respect to the five New York Transfers it executed through its New York Branch. (See Def.’s Mem.
at 15-25.) Renewing arguments from its prior summary judgment motion, Defendant contends that no
reasonable juror could find that it possessed the requisite scienter to establish liability under the ATA when

89a
making those five transfers, nor could a reasonable juror find that its activities as of the date of those transfers proximately caused Plaintiffs’ injuries.
Plaintiffs oppose the instant motion, arguing as a
threshold matter that Defendant waived a personal jurisdiction defense by failing to raise one in its prior
motions to dismiss the Strauss and Wolf actions, then
actively litigating this case for several years. (See Pl.s’
Opp’n at 4-11.) Plaintiffs further argue that Daimler
is distinguishable from this case, and therefore, the
Court may exercise general jurisdiction over Defendant even if it finds that Defendant did not waive its
personal jurisdiction defense. (See Id. at 12 n.27.) Finally, Plaintiffs contend that the Court may exercise
specific jurisdiction over Defendant based on its contacts with New York and the broader United States,
including most significantly the New York Transfers.
(See Id. at 12-25.)
On October 8, 2015, oral argument was held on
Defendant’s motion. (See Tr. of Oct. 8, 2015 Oral Argument (“Tr.”)). Following argument, at the Court’s request, the parties provided additional information concerning the extent of the transfers Defendant made to
the Charities on behalf of CBSP, and the portion or
percentage of those transfers that went through New
York or the broader United States. (See Strauss Dkt.
Entry Nos. 391-97.) This decision followed.
DISCUSSION
I.

Waiver

Taken together, Rules 12(g)(2) and 12(h)(1) of the
Federal Rules of Civil Procedure provide that a party
that moves to dismiss an action, but omits an available
personal jurisdiction defense, forfeits that defense.

90a
Even a party that complies with those rules may forfeit the right to contest personal jurisdiction if it unduly delays in asserting that right, or acts inconsistently with it. See, e.g., Insur. Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S. 694, 70204 (1982); Hamilton v. Atlas Turner, Inc., 197 F.3d 58,
61-62 (2d Cir. 1999). However, an exception exists
where a defendant seeks to assert a personal jurisdiction defense that previously was not available, as it is
well recognized that “a party cannot be deemed to have
waived objections or defenses which were not known
to be available at the time they could first have been
made.” Holzsager v. Valley Hosp., 646 F.2d 792, 796
(2d Cir. 1981).
Here, Plaintiffs argue that Defendant waived its
personal jurisdiction defense by omitting that defense
from its prior motions to dismiss the Strauss and Wolf
actions, then actively litigating this case over the
course of several years. (See Pl.s’ Opp’n at 4-11.) However, Plaintiffs’ argument is foreclosed by Gucci America, Inc. v. Weixing Li (“Gucci II”), 768 F.3d 122 (2d
Cir. 2014). In Gucci II, non-party Bank of China appealed from an order of the district court compelling it
to comply with an asset freeze injunction and certain
disclosures. For purposes of that order, the district
court assumed that Bank of China was subject to general jurisdiction in New York because it maintained
branch locations there. See Gucci Am. Inc., v. Weixing
Li (“Gucci I”), 2011 WL 6156936, at *4 n.6 (S.D.N.Y.
Aug. 23, 2011), vacated 768 F.3d 122. While the appeal
was pending, the Supreme Court decided Daimler,
prompting Bank of China to assert an objection that it
was not subject to general jurisdiction in New York.
That objection ordinarily would have been waived

91a
because it was not raised in the district court. However, the Second Circuit declined to find waiver, explaining that Bank of China’s personal jurisdiction objection was not available until Daimler cast doubt
upon, if not outright abrogated, controlling precedent
in this Circuit holding that a foreign bank with a
branch in New York was subject to general jurisdiction
here. See Id. at 135-36 (citing Wiwa v. Royal Dutch Petroleum Co., 226 F.3d 88, 93-95 (2d Cir. 2000)) (emphasis in original).
The same conclusion is compelled in this case. Under controlling precedent in this Circuit prior to Daimler, Defendant was subject to general jurisdiction in
New York because it had a New York Branch through
which it routinely conducted business. Gucci II expressly acknowledged that, in the wake of Daimler,
contact of such a nature with a forum State, absent
more, is insufficient to sustain general jurisdiction
over a foreign corporation. See Gucci II, 768 F.3d at
134-35. Accordingly, just as the Daimler ruling permitted Bank of China to raise its personal jurisdiction
objection in Gucci II, it similarly permits Defendant to
assert its personal jurisdiction defense at this juncture. It follows that Defendant did not waive that defense, having asserted it promptly after Daimler first
made it available.
Other courts in this Circuit, relying on the Second
Circuit’s application of Daimler in Gucci II, have held
similarly. See, e.g., In re LIBOR-Based Fin. Instruments Antitrust Litig., 2015 WL 4634541, at *30-31
(S.D.N.Y. Aug. 4, 2015); 7 West 57th St. Realty Co.,
LLC v. Citigroup, Inc., 2015 WL 1514539, at *5-7
(S.D.N.Y. Mar. 3l, 2015). Plaintiffs do not provide any
valid reason why this Court should depart from those

92a
decisions, or ignore the clear guidance of Gucci II. At
best, Plaintiffs argue that the question of waiver in
this case is governed by Rule 12(h)(1) of the Federal
Rules of Civil Procedure, which applies only to the parties to an action and, thus, was inapplicable to Bank
of China as a non-party in Gucci. (See Sept. 23, 2014
Glatter Ltr., Strauss Dkt. Entry No. 378.) That argument is without merit. As relevant here, waiver under
Rule 12(h)(1) expressly is limited to the “circumstances described in Rule 12(g)(2).” Subject to limited
exception, Rule 12(g)(2) prohibits a party from raising
a defense by way of a second motion to dismiss if that
defense “was available to the party but omitted from
its earlier motion.” Fed. R. Civ. P. 12(g)(2) (emphasis
added). In this respect, Rule 12(h)(1) comports with
the well settled principle that a party cannot be
deemed to have waived defenses not known to be available to it. See Holzsager, 646 F.2d at 796. Given the
Court’s prior determination that a personal jurisdiction defense was not available to Defendant prior to
Daimler, consideration of Rule 12(h)(1) does not alter
the Court’s conclusion that Defendant did not waive
that defense.
Plaintiffs’ remaining arguments are similarly unavailing. Plaintiffs contend that, if the Supreme Court
narrowed the law on general jurisdiction, it did so
three years before Daimler in Goodyear, 131 S. Ct.
2846, in which case Defendant waived its personal jurisdiction defense by waiting too long to assert it. (See
Pl.s’ Opp’n at 10-11.) Plaintiffs’ argument finds limited
support outside this Circuit. See, e.g., Am. Fidelity Assur. Co. v. Bank of N.Y. Mellon, 2014 WL 4471606
(W.D. Okla. Sept. 10, 2014), aff’d 2016 WL 231474
(10th Cir. 2016); Gilmore v. Palestinian Interim Self-

93a
Government Auth., 8 F.Supp. 3d 9 (D.D.C. June 23,
2014). However, the Court is not aware of any authority in this Circuit holding that Goodyear, rather than
Daimler, narrowed the law on general jurisdiction. To
the contrary, the issue was briefed in Gucci II and the
Second Circuit ultimately held that Daimler effected
the relevant change in the law.5 See Gucci II, 768 F.3d
at 135-36; see also 7 West 57th St., 2015 WL 1514539,
at *6-7 (rejecting argument that Goodyear altered the
law on general jurisdiction, as “Gucci America unequivocally holds . . . that Daimler effected a change in
the law.”)
The Second Circuit recently reaffirmed that holding in Brown v. Lockheed Martin Corp., 2016 WL
641392, at *6-7 (2d Cir. Feb. 18, 2016). There, the Second Circuit explained that “Goodyear seemed to have
left open the possibility that contacts of substance, deliberately undertaken and of some duration, could
place a corporation ‘at home’ in many locations.” Id. at
*7. However, Daimler all but eliminated that possibility, “considerably alter[ing] the analytic landscape for
general jurisdiction” by more narrowly holding that,
aside from the truly exceptional case, a corporation is
at home and subject to general jurisdiction only in its
place of incorporation or principal place of business.
Id.; see also Daimler, 134 S. Ct. at 760 (“Goodyear did
not hold that a corporation may be subject to general
jurisdiction only in a forum where it is incorporated or
has its principal place of business”) (emphasis in original). As Defendant relies on that newly articulated
principle of law for its personal jurisdiction defense, it
5

See, e.g., Letter Brief of Bank of China et al., Gucci Am., Inc.
v. Bank of China, 2014 WL 1873367, at *3 (2d Cir. Apr. 8, 2014).

94a
reasonably could not have raised that defense prior to
Daimler.
Plaintiffs also erroneously contend that Defendant actually contested personal jurisdiction in this
case as early as 2006, or at least could have, despite
now asserting that its personal jurisdiction defense
only became available after Daimler. (Pl.s’ Opp’n at 9.)
Plaintiffs base their argument on representations by
Defendant that it does not conduct business in the
United States, which Defendant made in: (1) a November 2006 submission to the magistrate judge; and (2)
Defendant’s December 2006 answer to the first
amended complaint. (See Ex. A to the Oct. 16, 2015
Osen Ltr., Strauss Dkt. Entry No. 391.) Upon review,
the Court finds that neither filing reasonably can be
construed as asserting an objection as to personal jurisdiction.
In particular, in its 2006 submission to the magistrate judge, Defendant emphasized its lack of business
activity in the United States only in the context of arguing that it would be unduly burdensome to disclose
business records maintained in France. (See Def.’s
Opp’n to Pl.s’ Discovery Motion, Strauss Dkt. Entry
No. 61, at 22-23.) Although the magistrate judge’s order on the discovery motions at issue noted, in a footnote, that Defendant had waived a personal jurisdiction defense by not raising one in its answer, see
Strauss v. Crédit Lyonnais, S.A., 242 F.R.D. 199, 203
n.5 (E.D.N.Y. 2007), the Court declines to treat that
ruling as the law of the case in light of the intervening
change in the law effected by Daimler. See Johnson v.
Holder, 564 F.3d 95, 99 (2d Cir. 2009) (“We may depart
from the law of the case for cogent or compelling

95a
reasons including an intervening change in law . . .”)
(internal quotation marks and citation omitted).
Plaintiffs’ argument that Defendant could have
asserted a personal jurisdiction defense earlier in this
case fares no better. The crux of Plaintiffs’ argument
is that, if Defendant really conducted no business
whatsoever in the United States, as it represented in
2006, then Defendant had a valid basis to contest personal jurisdiction even under pre-Daimler precedent.
Nevertheless, as discussed, any argument by Defendant prior to Daimler that it was not subject to personal
jurisdiction in New York would have been futile because Defendant had a branch in New York during the
timeframe relevant to the Court’s jurisdictional inquiry. See Gucci II, 768 F.3d at 135-36; see also Porina
v. Marward Shipping Co., Ltd., 521 F.3d 122, 128 (2d
Cir. 2008) (“In general jurisdiction cases, we examine
a defendant’s contacts with the forum state over a period that is reasonable under the circumstances—up
to an including the date the suit was filed.”) The Court
declines to find that Defendant, in failing to raise a futile argument, waived its personal jurisdiction defense.
Finally, Plaintiffs argue in passing that, even if an
objection as to general jurisdiction was unavailable to
Defendant prior to Daimler, Defendant still could have
challenged the existence of specific jurisdiction earlier
in this case. However, any challenge to that effect
would have been purely academic because, regardless
of the outcome, Defendant still would have been subject to general jurisdiction in New York under existing
law at the time. To the extent Defendant failed to contest specific jurisdiction at an earlier time, the Court
is satisfied it was for that reason. Accordingly, the

96a
Court concludes that Defendant did not waive its personal jurisdiction defense.
II. Personal Jurisdiction
A. Legal Standard
Once personal jurisdiction has been challenged,
“the plaintiff bears the burden of establishing that the
court has jurisdiction over the defendant.” Bank Brussels Lambert v. Fiddler Gonzalez & Rodriguez, 171
F.3d 779, 784 (2d Cir. 1999). On a motion to dismiss
for lack of personal jurisdiction, the plaintiff need only
make a prima facie showing that jurisdiction exists to
satisfy that burden. See Dorchester Fin. Secs., Inc. v.
Banco BRJ, S.A., 722 F.3d 81, 84 (2d Cir. 2013).
Where, as here, discovery regarding a defendant’s forum contacts has been conducted but no evidentiary
hearing has been held, the “plaintiff[’s] prima facie
showing, necessary to defeat a jurisdiction testing motion, must include an averment of facts that, if credited by [the ultimate trier of fact], would suffice to establish jurisdiction over the defendant.”6 Chloé v.
Queen Bee of Beverly Hills, LLC, 616 F.3d 158, 163 (2d
Cir. 2010) (quoting Metro. Life Ins. Co. v. RobertsonCeco Corp., 84 F.3d 560, 567 (2d Cir. 1996)) (alterations in original). The Court must “construe the pleadings and affidavits in the light most favorable to plaintiffs, resolving all doubts in their favor.” Porina, 521
6

No jurisdictional discovery has been ordered in this matter.
However, in the course of merits discovery, Plaintiffs sought and
obtained extensive disclosure concerning the relevant jurisdictional facts. As such, at oral argument in connection with the instant motion, the parties agreed that further discovery directed
to the jurisdictional facts would be unnecessary. (See Tr. at 40:1821; 41:22-42:8.)

97a
F.3d at 126. However, the Court is not to “draw argumentative inferences in the plaintiff’s favor,” Robinson
v. Overseas Military Sales Corp., 21 F.3d 502, 507 (2d
Cir. 1994) (internal quotation marks and citation
omitted), or “accept as true a legal conclusion couched
as a factual allegation.” Jazini v. Nissan Motor Co.,
Ltd., 148 F.3d 181, 185 (2d Cir. 1998) (quoting Papasan v. Allain, 478 U.S. 265, 286 (1986)).
To make a prima facie showing that personal jurisdiction exists, a plaintiff must demonstrate: “(1)
proper service of process upon the defendant; (2) a
statutory basis for personal jurisdiction over the defendant; and (3) that [the court’s] exercise of jurisdiction over the defendant is in accordance with constitutional due process principles.” Stroud v. Tyson Foods,
Inc., 91 F. Supp. 3d 381, 385 (E.D.N.Y. 2015) (citing
Licci ex rel. Licci v. Lebanese Canadian Bank, SAL
(“Licci I”), 673 F.3d 50, 59-60 (2d Cir. 2012)). Here, because Defendant does not dispute that it properly was
served with process, the Court’s analysis primarily is
a two-part inquiry to determine whether there is a
statutory basis for jurisdiction, and if so, whether due
process is satisfied.
In conducting this analysis, the Court distinguishes between general and specific jurisdiction.
General or “all-purpose” jurisdiction is “based on the
defendant’s general business contacts with the forum
state and permits a court to exercise its power in a case
where the subject matter of the suit is unrelated to
those contacts.” Metro. Life, 84 F.3d at 568 (quoting
Helicopteros Nacionales de Colombia, S.A. v. Hall, 466
U.S. 408, 414-16 & nn.8-9 (1984)). In contrast, specific
or “case-linked” jurisdiction depends “on the relationship among the defendant, the forum, and the

98a
litigation,” Walden v. Fiore, 134 S. Ct. 1115, 1121
(2014), and is said to exist where “a State exercises
personal jurisdiction over a defendant in a suit arising
out of or related to the defendant’s contacts with the
forum.” Metro. Life, 84 F.3d at 567-68 (quoting Helicopteros, 466 U.S. at 414-16 & nn.8-9).
B. General Jurisdiction
A court may exercise general jurisdiction over a
foreign corporation to hear any and all claims against
it when the corporation’s affiliations with the forum
State are so continuous and systematic as to render it
essentially at home there. Goodyear, 131 S. Ct. at 2851
(citing Int’l Shoe Co. v. Washington, 326 U.S. 310, 317
(1945)). Here, it is undisputed that New York is neither Defendant’s principal place of business nor its
place of incorporation. (See Strauss FAC ¶¶ 577-78;
Wolf Compl. ¶¶ 314-15). Therefore, Defendant is not
at home in New York under either of the two paradigm
bases for general jurisdiction discussed in Daimler.
See Daimler, 134 S. Ct. at 760. It follows that exercising general jurisdiction over Defendant would not
comport with the principles of due process articulated
in Daimler unless this is an exceptional case, akin to
Perkins, 342 U.S. 437, where Defendant’s contacts
with New York are so substantial and of such a nature
as to render it essentially at home there. See Daimler,
134 S. Ct. at 761 n.19.
The Court has little difficulty concluding that the
facts here do not present an exceptional case. Defendant’s alleged contacts with New York are nowhere
near as substantial as those in Perkins, where the defendant corporation maintained a surrogate headquarters in Ohio, the forum State. Id. By contrast,

99a
Defendant in this case merely had a New York Branch,
which it used just for that discrete element of its
worldwide operations that required clearing U.S. Dollar transfers. See Brown, 2016 WL 641392, at *8 (for
purposes of a general jurisdiction analysis, a corporation’s in-forum conduct must be assessed “in the context of the company’s overall activity” throughout the
United States and the world) (citing Daimler, 134 S.
Ct. at 762 n.20) (emphasis omitted). In fact, such contacts with New York are even more attenuated than
those maintained by Bank of China in Gucci II, which
the Second Circuit deemed insufficient to permit the
exercise of general jurisdiction. See Gucci II, 768 F.3d
at 135.
Moreover, Defendant’s New York contacts fall far
short of the contacts maintained with Connecticut by
Lockheed Martin (“Lockheed”), the corporate defendant that was the subject of the Second Circuit’s recent
decision in Brown. For example, Lockheed continuously maintained a physical presence in Connecticut
for over 30 years, ran operations out of as many as four
leased locations in the State, employed up to 70 workers there, and derived about $160 million in revenue
from its Connecticut-based work during the relevant
timeframe.7 Brown, 2016 WL 641392, at *6-7.
7

Lockheed also was formally registered to do business in Connecticut. Notably, the Second Circuit declined to interpret the
Connecticut business registration statute as requiring foreign
corporations to consent to general jurisdiction as a condition of
registration. Brown, 2016 WL 641392, at *9-18. The Second Circuit further observed that, even if the statute required such consent, it is questionable whether such consent validly could confer
general jurisdiction over a foreign corporation after Daimler. Id.

100a
Nevertheless, the Second Circuit held that those facts
still did not rise to an exceptional case that would support general jurisdiction over Lockheed in a forum
where it neither was headquartered nor incorporated.
Id. at *7-9. In reaching its decision, the Second Circuit
emphasized that a corporation’s “mere contacts” with
such a forum, “no matter how systematic and continuous, are extraordinarily unlikely to add up to an exceptional case.” Id. at *8 (internal quotation marks
omitted).
Given the fact that neither Gucci II nor Brown
amounted to an exceptional case, the instant case
clearly is not exceptional either. Accordingly, in light
of Daimler, there is no basis for the Court to exercise
general jurisdiction over Defendant in New York.
Plaintiffs nevertheless attempt to distinguish Daimler
on the ground that it involved a foreign corporation
with a subsidiary in the forum State, whereas in this
case the New York Branch purportedly was a legally
inseparable branch office of Defendant. (See Pl.s’
Opp’n at 12 n.27.) However, that distinction hardly
renders Daimler inapposite. As a central principle,
Daimler held that it would be “unacceptably grasping”
to permit general jurisdiction over a corporation in
every State where it engages in continuous and systematic business. Daimler, 134 S. Ct. at 761. There is
no basis to suggest that such reasoning, though
at *18. Here, although Defendant’s New York Branch was registered in New York under § 200 of the Banking Law, the Court
declines to find that Defendant consented to general jurisdiction
in New York by virtue of such registration. See 7 West 57th St.,
2015 WL 1514539, at *11 (“The plain language of this provision
limits any consent to personal jurisdiction by registered banks to
specific personal jurisdiction.”) (emphasis in original).

101a
articulated in the context of a case involving subsidiaries, would not also apply in cases involving a foreign
bank with a branch in New York. See Gliklad v. Bank
Hapoalim B.M., No. 155195/2014, 2014 N.Y. Slip Op.
32117(U), at *3 (Sup. Ct. N.Y. Cnty. Aug. 4, 2014). In
fact, the Second Circuit drew no such distinction when
applying Daimler to the facts in Brown, which involved Lockheed’s maintenance of offices and a facility
in Connecticut. See Brown, 2016 WL 641392, at *6-7.
Accordingly, Daimler is controlling here and clearly
precludes the Court from exercising general jurisdiction over Defendant in this matter.
C. Specific Jurisdiction Under Rule 4(k)(1)(A)
Rule 4(k)(1)(A) of the Federal Rules of Civil Procedure permits a federal court to “exercise personal jurisdiction to the extent of the applicable [State] statutes.” Peterson v. Islamic Republic of Iran, 2013 WL
1155576, at *11 (S.D.N.Y. Mar. 13, 2013), aff’d 758
F.3d 185 (2d Cir. 2014) (citing Fed. R. Civ. P.
4(k)(1)(A)). Under this rule, a federal court may look
to the long-arm statute of the State in which it sits to
establish a statutory basis for the exercise of personal
jurisdiction over a defendant. Here, Plaintiffs invoke
several provisions of New York’s long-arm statute, alleging that Defendant is subject to specific jurisdiction
under New York Civil Practice Law and Rules
(“C.P.L.R.”) §§ 302(a)(1), (a)(2), and (a)(3). (See Pl.s’
Opp’n at 22-25.) Because the Court concludes that
C.P.L.R. § 302(a)(1) (“§ 302(a)(1)”) permits the exercise of
jurisdiction over Defendant, it does not consider whether
jurisdiction also exists under §§ 302(a)(2) and (3).

102a
1.

CPLR § 302(a)(1)

Pursuant to § 302(a)(1), a court may exercise personal jurisdiction over a non-domiciliary that “transacts any business within the state.” N.Y. C.P.L.R. §
302(a)(1). This provision confers jurisdiction over a defendant if two requirements are met. First, the defendant must have transacted business in New York.
Known as the “purposeful availment” prong of §
302(a)(1), this requirement calls for a showing that the
defendant “purposefully avail[ed] itself of the privilege
of conducting activities within New York . . . thereby
invoking the benefits and protections of its laws.” Id.
at 61 (internal quotation marks and citations omitted).
The second requirement, known as the “nexus” prong
of § 302(a)(1), holds that there must be an “articulable
nexus” or “substantial relationship” between the
plaintiff’s claim and the defendant’s transaction in
New York. See Best Van Lines, Inc. v. Walker, 490 F.3d
239, 246 (2d Cir. 2007) (quoting Henderson v. INS, 157
F.3d 106, 123 (2d Cir. 1998)).
In Licci v. Lebanese Canadian Bank, SAL (“Licci
II”), 20 N.Y.3d 327 (2012), the New York Court of Appeals (“Court of Appeals”) answered questions certified from the Second Circuit concerning the reach of §
302(a)(1) in the context of an action, like the instant
one, alleging that a foreign bank violated the ATA by
knowingly transferring funds that supported an FTO.
Notably, the defendant bank in question “did not operate branches or offices, or maintain employees, in the
United States.” Id. at 332. Nevertheless, the Court of
Appeals held that the bank transacted business in
New York by executing dozens of wire transfers
through a correspondent bank account in New York on
behalf of an entity that allegedly served as the

103a
financial arm of an FTO. As the Court of Appeals explained: “[A] foreign bank’s repeated use of a correspondent account in New York on behalf of a client—
in effect, a course of dealing—show[s] purposeful
availment of New York’s dependable and transparent
banking system, the dollar as a stable and fungible
currency, and the predictable jurisdictional and commercial law of New York and the United States.” Id.
at 339 (internal quotations marks and citation omitted).
The Court of Appeals further explained that the
nexus prong of § 302(a)(1) does not demand a causal
connection between the defendant’s New York transaction the plaintiff’s claim, but instead requires only a
“relatedness . . . such that the latter is not completely
unmoored from the former.” Id. at 339. This “relatively
permissive” nexus is satisfied where “at least one element [of the plaintiff’s claim] arises from the [defendant’s] New York contacts.” Id. at 339, 341. The Court
of Appeals held that this requisite nexus was established in Licci II because the defendant bank, in utilizing a correspondent account in New York allegedly
to send money to a terrorist organization, purportedly
violated the very statutes under which the plaintiffs
sued. Id. at 340. Furthermore, the bank did not direct
those funds through New York “once or twice by mistake,” but deliberately and repeatedly used a New
York account allegedly to support the same terrorist
organization accused of perpetrating the attacks in
which the plaintiffs were injured. Id. at 340-41.
Turning to the instant action, Defendant’s relevant New York conduct is even more substantial and
sustained than that of the foreign bank in the Licci
cases (collectively, “Licci”). Whereas the bank in Licci

104a
maintained only a correspondent account as its sole
point of contact in New York, Defendant had a New
York Branch that was staffed with employees and licensed to operate under New York banking laws. Defendant routinely conducted business in New York
through that branch, utilizing it as the exclusive clearing channel for U.S. Dollar transfers requested by its
customers. (See Virgilio Decl. ¶ 2; see also Tr. 20:2221:6). In doing so, Defendant necessarily availed itself
of the benefits and protections accorded to such transactions when carried out using New York’s dependable
banking system, under the auspices of New York
banking and commercial laws. See Licci II, 20 N.Y.3d
at 339-40. These facts satisfy the purposeful availment
prong of § 302(a)(1).
With respect to the nexus prong of § 302(a)(1), the
relevant facts further demonstrate a close relatedness
between Plaintiffs’ claims in this action and Defendant’s New York conduct. Most significantly, in executing the New York Transfers, Defendant allegedly used
New York’s banking system to effect the very financial
support of Hamas that is the basis for Plaintiffs’
claims. While those five transfers represent only a
subset of the total transfers Defendant made to the
Charities on behalf of CBSP, they integrally constitute
part of Defendant’s alleged support of Hamas and its
terrorist activities, including the 19 attacks in which
Plaintiffs were injured. As such, the New York Transfers unquestionably are among the financial services
underlying Plaintiffs’ claims. (See Strauss FAC
¶¶ 676-90; Wolf Compl. ¶¶ 407-25.)
That nexus would be too attenuated if, contrary to
the facts alleged here, Defendant routed transfers
through New York just “once or twice by mistake,” or

105a
executed the New York Transfers at a time far removed from the attacks that caused Plaintiffs’ injuries. Licci II, 20 N.Y.3d at 340. However, five separate
times, Defendant deliberately routed a transfer
through its New York Branch in response to a specific
request by CBSP to transmit funds in U.S. Dollars to
a given Charity. Furthermore, the first New York
Transfer occurred in 1997, while the remaining four
transfers all were performed in June and July of 2001.
(See Ex. A to the Oct. 16, 2015 Friedman Ltr.) As such,
those transfers not only overlapped with the attacks in
2001 through 2004 that caused Plaintiffs’ injuries, but
also occurred at a time when Defendant allegedly
knew that funds it transferred on behalf of CBSP were
being used to support a terrorist organization. (See,
e.g., Strauss Compl. ¶ 678; Wolf Compl. ¶ 419); see also
Strauss II, 925 F. Supp. 2d at 429-430 (noting that
“Defendant admittedly had concerns about CBSP’s accounts since at least 1997,” and further finding that
“there is considerable documentary and testimonial
evidence showing Defendant’s knowledge of CBSP’s
possible terrorist affiliations from at least 2001
through 2003, which is contemporaneous to the attacks at issue.”)
Defendant nevertheless argues that the nexus required by § 302(a)(1) is foreclosed because Plaintiffs
have not proven with respect to any New York Transfer that the beneficiary Charity actually received and
took possession of the underlying funds. (See Def.’s
Mem. at 10-11.) However, it is not Plaintiffs’ burden to
adduce any such proof at this stage. Rather, Plaintiffs
need only plead facts that, if credited, would establish
jurisdiction over Defendant. See Metro. Life, 84 F.3d at
567. Plaintiffs have done so, having relied not only on

106a
an averment of facts but also on actual transfer records showing that each New York Transfer was directed to a beneficiary Charity, was routed by Defendant through its New York Branch, and reached a correspondent account in New York maintained by the respective Charity’s bank. (See Ex. B. to the Oct. 16,
2015 Osen Ltr.)
Defendant further argues that, even if each New
York Transfer reached its intended beneficiary, those
transfers do not support jurisdiction because they are
de minimis in comparison to the many other transfers
Defendant made to the Charities at CBSP’s behest.
The parties generally agree that, in addition to the five
New York Transfers, Defendant executed at least 280
other transfers to the Charities on behalf of CBSP that
never went through New York or the United States.
(See Oct. 20, 2015 Osen Ltr., Strauss Dkt. Entry No.
395.) Furthermore, whereas the New York Transfers
represented just $205,000 in transferred funds, the
other relevant transfers routed elsewhere in the world
totaled approximately $3 million. (See Oct. 16, 2015
Osen Ltr.) Accordingly, whether measured by number
or monetary value, the vast majority of the transfers
underlying Plaintiffs’ claims were routed from CBSP’s
accounts in Paris to various bank accounts abroad,
without any contact with New York or the United
States.
While relevant to the Court’s jurisdictional analysis, these facts do not foreclose jurisdiction under §
302(a)(1). As a “single act statute,” even “one transaction in New York is sufficient to invoke jurisdiction
[under § 302(a)(1)] . . . so long as the defendant’s activities here were purposeful and there is a substantial
relationship between the transaction and the claim

107a
asserted.” Deutsche Bank Secs., Inc., v. Montana Bd.
of Invs., 7 N.Y.3d 65, 71 (2006) (internal quotation
marks and citation omitted); see also Chloé, 616 F.3d
at 170; Kreutter v. McFadden Oil Corp., 71 N.Y.2d 460,
467 (1988). In number, the New York Transfers accounted for approximately 1.8% of the total transfers
Defendant made to the Charities on behalf of CBSP.
(See Oct. 21, 2015 Friedman Ltr., Strauss Dkt. Entry
No. 396). Defendant notes that a similar percentage of
New York activity was deemed de minimis in DH Services, LLC v. Positive Impact, Inc., 2014 WL 496875,
at *9-10 (S.D.N.Y. Feb. 5, 2014), where the court found
that it could not exercise jurisdiction over an out-ofstate organization that received approximately 1% of
its annual funding from New York sources.8
However, the court further explained that the
grants and donations composing that 1% of funding
had no demonstrated connection to the trademark
claims that were the subject of the action. Id. at *9.
The court sharply contrasted Chloé, 616 F.3d at 166,
where the Second Circuit held that a defendant who
shipped a single counterfeit handbag into New York
was subject to jurisdiction under § 302(a)(1) because
that “was the conduct underlying the lawsuit.” DH
Services, 2014 WL 496875, at *9 (emphasis in original). Here, although the New York Transfers
8

The Court notes that Defendant makes an apples-to-oranges
comparison. In DH Services, 1% represented the proportional
value of funds received from New York sources, whereas in this
case 1.8% represents the proportional number of transfers executed through New York. Expressed in terms of value, and based
on the figures generally agreed upon by the parties, the New York
Transfers may have represented as much as 6.8% of the total
funds Defendant transferred to the Charities on behalf of CBSP.

108a
represent a minority of the total transfers Defendant
made to the Charities on behalf of CBSP, they are an
integral facet of the conduct that is the basis for all of
Plaintiffs’ claims. Thus, similar to the facts in Chloé,
the New York Transfers are the conduct underlying
this lawsuit. As such, they establish the articulable
nexus required by § 302(a)(1).
Furthermore, the nexus between Plaintiffs’ claims
and Defendant’s New York conduct is premised on
more than just the New York Transfers. As an element
of their claims, “Plaintiffs must show that Defendant
knew or was deliberately indifferent to the fact that
CBSP was financially supporting terrorist organizations.” Strauss II, 925 F. Supp. 2d at 428. According to
Plaintiffs, what Defendant knew about CBSP’s potential involvement in financing terrorism was informed,
at least in part, by Defendant’s communications and
other interactions with the New York Branch. In particular, consistent with its general practice, Defendant’s New York Branch filtered all transfer requests
made by CBSP through a system designed to detect
terrorism financing based on notices from the United
States Treasury Office of Foreign Asset Control
(“OFAC”). (See Virgilio Decl. ¶ 3.) In October 2001, the
New York Branch blocked a transfer from CBSP’s
main account in Paris to the “El Wafa Charitable Society-Gaza” (the “El Wafa Transfer”), as that organization’s name was similar to the name of an organization
designated by OFAC as an Al Qaeda fundraiser. (See
Id. ¶¶ 2-4.) Ultimately, those two organizations were
determined to be distinct. As such, the New York
Branch’s blocking of the El Wafa Transfer, by itself,
provides limited insight into what Defendant

109a
potentially knew about CBSP’s involvement in financing terrorism. See Strauss II, 925 F. Supp. 2d at 430
n.10.
Nevertheless, Plaintiffs allege that the blocking of
the El Wafa Transfer precipitated communications between Defendant and its New York Branch regarding
CBSP’s banking activities. (See Ex. A to the Oct. 22,
2015 Osen Ltr., Strauss Dkt. Entry No. 397) (attaching list of communications). Those communications, in
turn, allegedly renewed suspicions at Defendant’s
home office in Paris regarding CBSP, and led to discussions among bank officials there regarding stricter
scrutiny of CBSP’s accounts. (See Pl.s’ Opp’n at 13 &
n.29.) Defendant nonetheless contends that those communications, potentially implicating what Defendant
knew about CBSP’s ties to terrorism, are not relevant
to the Court’s jurisdictional analysis under § 302(a)(1)
because they do not give rise to Plaintiffs’ claims. (See
Def.’s Reply Mem. in Supp. of Mot. to Dismiss (“Def.’s
Reply”) at 3, Strauss Dkt. Entry No. 372.)
However, Defendant too narrowly construes the
nexus requirement of § 302(a)(1). The defendant in
Chloé similarly misconstrued that requirement, arguing that counterfeit bags it shipped into New York
bearing marks not registered to the plaintiff were irrelevant to a jurisdictional analysis, as the plaintiff’s
trademark claims necessarily did not arise from those
particular shipments. The Second Circuit rejected that
argument on appeal, explaining that those shipments
were relevant to an analysis under § 302(a)(1) because
they evidenced a “larger business plan purposefully directed at New York.” Chloé, 616 F.3d at 166-67. With
the benefit of that broader context, the shipment of a
single bag into New York bearing the plaintiff’s marks

110a
was not the “one-off transaction” it otherwise appeared to be. Id. Here, the blocking of the El Wafa
Transfer and the ensuing communications between
the New York Branch and bank officials at Defendant’s home office in Paris similarly evidence a broader
operation fundamentally intertwined with New York.
Standing alone, that relationship perhaps would not
be enough to establish the nexus required by §
302(a)(1). However, those interactions give deeper context to the New York Transfers, demonstrating that
Plaintiffs’ claims are tied to New York by more than
just those five transactions.
In any event, jurisdiction under § 302(a)(1) is not
determined by the quantity of a defendant’s contacts
with New York, but by the quality of those contacts
when viewed in the totality of the circumstances.
Fischbarg v. Doucet, 9 N.Y.3d 375, 380 (2007); Farkas
v. Farkas, 36 A.D.3d 852, 853 (2d Dep’t 2007). Here,
Defendant had a New York Branch through which it
continuously and systematically conducted business
in New York, utilizing that branch to execute U.S. Dollar transfers requested by its customers. Whatever efficiency and cost savings Defendant gained as a result
allowed Defendant to retain relationships with customers that had a need to deal in U.S. currency, a contingent that from time to time included CBSP. Most
importantly, Defendant executed the five New York
Transfers through the New York Branch, repeatedly
and deliberately using New York’s banking system to
effect the alleged financial support of Hamas that is
the basis for Plaintiffs’ claims. Given the quality of
those contacts and their close connection to New York,
the Court concludes that § 302(a)(1) permits the exercise of jurisdiction over Defendant.

111a
2.

Scope Of Jurisdiction Under § 302(a)(1)

A plaintiff must establish personal jurisdiction
with respect to each claim asserted. See Sunward Elecs., Inc. v. McDonald, 362 F.3d 17, 24 (2d Cir. 2004).
Invoking this principle, Defendant argues that each
Plaintiff in this action asserts a claim under the ATA
separately and individually, and that jurisdiction
must be established uniquely for each one of these
claims. (See Def.’s Reply at 5.) Plaintiffs argue otherwise, essentially contending that they assert a “claim”
under the ATA, and that a single New York contact
that would support the exercise of specific jurisdiction
is sufficient to confer jurisdiction over that entire
claim. (See, e.g., Tr. 55:1-10.)
Because Plaintiffs allege injuries in connection
with 19 different attacks, each associated with a distinct class of Plaintiffs, the Court disagrees that all of
their claims can be aggregated into a single, unitary
claim under the ATA for purposes of establishing specific jurisdiction. Even so, the Court concludes that Defendant is subject to jurisdiction under § 302(a)(1) with
respect to claims made in connection with all 19 attacks. To explain why, it is useful to consider the result
if Plaintiffs had pursued their claims in 19 separate
actions, each premised upon a single attack. As previously noted, the first New York Transfer was in 1997
and the remaining four transfers all occurred in June
and July of 2001, while the 19 attacks at issue in this
action all took place between March 2001 and September 2004. (See Ex. A to the Oct. 16, 2015 Friedman
Ltr.) Given the timing of those transfers and the substantial amount underlying them, Plaintiffs in all 19
actions legitimately could rely upon the New York
Transfers as among the financial services and

112a
material support allegedly provided by Defendant in
violation of the ATA.
That conceivably would not be the case if, for instance, one of the attacks for which Plaintiffs sought
recovery occurred in 1992, five years before the first
New York Transfer. Under such circumstances, the
nexus between claims arising from the 1992 attack
and a series of transfers that did not even begin to occur until five years later theoretically would be too attenuated to support jurisdiction under § 302(a)(1). See,
e.g., Standard Chartered Bank v. Ahmad Hamad Al
Gosaibi & Bros. Co., No. 653506/2011, 2013 N.Y. Slip.
Op. 32312(U), at *3-5 (Sup. Ct. N.Y. Cnty. Sept. 24,
2013) (nexus required under § 302(a)(1) not satisfied
where 2009 default could not have arisen from business the defendant transacted in New York in 2010
and thereafter). However, those are not the facts here.
Even assuming that Plaintiffs had pursued their
claims in 19 separate actions, the New York Transfers
would embody purportedly unlawful conduct relevant
to establishing Defendant’s liability in each action.9 As
9

Defendant notes that one of the attacks at issue occurred on
March 28, 2001, at which point the only New York Transfer that
had been executed was a 1997 transfer in the amount of $5,000.
(See Def.’s Mem. at 23.) According to Defendant, the four remaining New York transfers necessarily could not have proximately
caused that attack because they were performed after it occurred,
in June and July of 2001. That argument presents a question of
causation not appropriately resolved here, but the Court notes
that the Honorable Brian M. Cogan, of this Court, recently rejected the very same argument in denying the defendant’s posttrial motions in Linde v. Arab Bank, PLC, 97 F. Supp. 3d 287, 329
(E.D.N.Y. 2015). As Judge Cogan explained: “Defendant's emphasis on the fact that these payments were made after the attacks

113a
such, the claims in each action could be said to arise,
at least in part, from the New York Transfers, in which
case § 302(a)(1) would confer jurisdiction over Defendant in each action. See Licci II, 20 N.Y.3d at 341.
Nevertheless, Defendant contends that the scope
of jurisdiction the Court may exercise in this action,
where Plaintiffs assert their claims collectively, is narrower and does not permit adjudication of all of Plaintiffs’ claims. Defendant’s position rests on the assumption that, if the Court were to adjudicate all of those
claims, it necessarily would be exercising specific jurisdiction not only with respect to the New York
Transfers, but also with respect to numerous other
transfers that never touched New York or the United
States. (See Def.’s Mem. at 8-10) (“This Court cannot
treat [Defendant’s] discrete wire transfers that
touched New York as providing a basis for asserting
personal jurisdiction over [Defendant] in New York
with respect to transfers that never touched the
United States.”) According to Defendant, exercising jurisdiction over the latter category of transfers is impermissible in a “specific jurisdiction universe” because those transfers, which were not routed through
the New York Branch, have no connection to Defendant’s New York conduct.
Defendant’s argument is fundamentally flawed,
however, as it erroneously assumes that the Court’s
adjudicatory power over Defendant is defined according to which individual transfers satisfy the
occurred misses the point; the jury was entitled to find that the
prospect that the families of dead Hamas terrorists would be financially rewarded was a substantial factor in increasing Hamas'
ability to carry out attacks such as these.” Id.

114a
jurisdictional requirements of § 302(a)(1), rather than
which claims satisfy those requirements. In fact, the
two are distinct. Plaintiffs’ claims are that Defendant
violated the ATA, causing injury, by providing material support to an FTO and knowingly financing terrorism. See 18 U.S.C. §§ 2339B and 2339C. Those
claims do not necessarily correspond one-to-one with
particular transfers, but instead rest upon the millions
of dollars Defendant allegedly transferred to Hamas
front organizations in close temporal proximity to the
19 attacks in which Plaintiffs were injured. Because
the New York Transfers were part of that allegedly unlawful conduct, the Court may exercise jurisdiction
with respect to claims made in connection with all 19
attacks.
This is true notwithstanding the fact that those
claims also may arise from other transfers Defendant
did not route through New York, including ones performed after the last of the New York Transfers was
executed in July 2001.10 There is no requirement

10

For this reason, the Court rejects Defendant’s argument
that Plaintiffs should be required to prove their claims based on
the state of affairs, and what Defendant knew, as of the date of
the last New York Transfer. (See Def.’s Mem. at 10-11.) That argument is premised on the fallacy that the Court only may exercise jurisdiction over the individual New York Transfers, which
uniquely give rise to specific claims that are not premised on any
other transfers. That is not the case, however, as all of Plaintiffs’
claims arise more broadly from the many transfers Defendant
made to the Charities during the relevant timeframe, of which
the New York Transfers were a part. Moreover, the Court unequivocally rejects Defendant’s unsupported contention that personal jurisdiction limits the evidence Plaintiffs may use to prove
their claims, confining it just to what existed at the time of the
last New York Transfer.

115a
under § 302(a)(1) that a plaintiff’s claim must arise exclusively from New York conduct. To the contrary, as
long as there is a relatedness between a plaintiff’s
claim and the defendant’s New York transaction, §
302(a)(1) confers jurisdiction even if some, or all, of the
acts constituting the breach sued upon occurred outside New York. See Hoffritz for Cutlery, Inc. v. Amajac
Ltd., 763 F.2d 55, 59 (2d Cir. 1985) (applying §
302(a)(1) and rejecting the district court’s “finding of
no jurisdiction over defendants merely on the basis
that the acts alleged in the complaint did not take
place in New York.”); Hedlund v. Products from Sweden, Inc., 698 F. Supp. 1087, 1091-93 (S.D.N.Y.1988)
(finding defendant subject to jurisdiction in New York
under § 302(a)(1) with respect to a claim of tortious interference that arose from conduct in Sweden). Thus,
even if Defendant’s conduct outside New York substantially gave rise to Plaintiffs’ claims, and outweighs
Defendant’s relevant New York conduct, Plaintiffs’
claims still are within the permissible scope of jurisdiction under § 302(a)(1) because they are all “sufficiently related to the business transacted [in New
York] that it would not be unfair . . . to subject [Defendant] to suit in New York.” Hoffritz, 763 F.2d at 59.
The Court is not persuaded that a different result
is compelled by Fontanetta v. American Board of Internal Medicine, 421 F.2d 355 (2d Cir. 1970), a case Defendant heavily relies upon even though it was decided
45 years ago without the benefit of clear precedent
from the New York courts regarding how § 302(a)(1)
should be applied. See Hoffritz, 763 F.2d at 61. Fontanetta involved a physician who sought certification
as an internist from the American Board of Internal
Medicine, which required passing both an oral and

116a
written exam. See Fontanetta, 421 F.2d at 356. The
physician passed the written exam in New York in
1963, but twice failed the oral exam—once in Philadelphia, Pennsylvania in 1965, and once in St. Louis, Missouri in 1967. Id. After he failed the oral exam for a
second time, the physician brought suit in New York
to compel the Board to disclose the reasons why he had
failed the two oral exams, and to issue the requested
certification. Id. Applying § 302(a)(1), the Second Circuit held that the physician’s claim, which concerned
only the oral exam, was not sufficiently related to the
written exam to sustain jurisdiction in New York. Id.
at 357-58. As the Second Circuit later explained in
Hoffritz: “We held [in Fontanetta] that the substantive
differences between the two kinds of examination, together with the separation both in time and geographic location of the oral examination from the written examination, rendered unrealistic a view of the
two as one unit.” Hoffritz, 763 F.2d at 61.
Here, while the transfers at issue vary in time and
location to a degree, substantively they constitute a
single course of conduct by Defendant that purportedly entailed violations of the same statute in the
same manner with respect to all of Plaintiffs’ claims.
Moreover, whereas in Fontanetta the plaintiff’s claim
did not relate to the written examination, the Court
already has determined the all of Plaintiffs’ claims in
this action relate to the New York Transfers. See Id.
at 61-62 (similarly distinguishing Fontanetta and
holding that jurisdiction existed under § 302(a)(1) with
respect to a claim “sufficiently connected to defendants’ transaction of business in New York.”) As such,
the Court’s finding that it may exercise jurisdiction

117a
with respect to all of Plaintiffs’ claims is not inconsistent with Fontanetta.
Defendant’s reliance on State v. Samaritan Asset
Management Services, Inc., 22 Misc.3d 669 (Sup. Ct.
N.Y. Cnty. 2008), similarly is unavailing. There, the
New York Attorney General brought a securities fraud
action against the defendants under the State’s Martin Act, N.Y. Gen. Bus. Law § 352 et. seq. The court
dismissed the action in part, holding that it could exercise personal jurisdiction with respect to trades the
defendants executed through New York brokers, but
not with respect to trades executed through a trust
company located in Phoenix, Arizona. Id. at 676-77.
However, that holding substantially was a consequence of the territorial limitations of the Martin Act,
which applies exclusively to acts “within and from”
New York. See Id. at 674, 676-77. No such limitation
binds the Court here. To the contrary, the ATA expressly is directed at terrorist activities that “occur
primarily outside the territorial jurisdiction of the
United States.” 18 U.S.C. § 2331(1). Indeed, the very
purpose of the ATA was to “provide a new civil cause
of action in Federal law for international terrorism
that provides extraterritorial jurisdiction over terrorist acts abroad against United States nationals.” In re
September 11 Litig., 751 F.3d 86, 93 (2d Cir. 2014)
(quoting H.R. 2222, 102d Cong. (1992)) (internal quotation marks omitted). While these are concepts of territorial jurisdiction, not personal jurisdiction, they distinguish Samaritan and render it inapposite here.
D. Jurisdiction Under Rule 4(k)(1)(C)
Plaintiffs argue that Rule 4(k)(1)(C) of the Federal
Rules of Civil Procedure provides an additional

118a
statutory basis for the Court to exercise personal jurisdiction over Defendant. The Court agrees. Under
Rule 4(k)(1)(C), personal jurisdiction may be established through proper service of process upon a defendant pursuant to a federal statute that contains its own
service provision. See Fed. R. Civ. P. 4(k)(1)(C) (“Serving a summons or filing a waiver of service establishes
personal jurisdiction over a defendant . . . when authorized by a federal statute.”); see also 4B Wright &
Miller et al., Federal Practice & Procedure § 1125 (4th
ed.) As relevant here, the ATA expressly authorizes
nationwide service of process, thereby establishing
personal jurisdiction over a defendant properly served
under the statute.11
Here, Defendant does not dispute that it properly
was served with process at its agency in Miami, Florida in connection with the original filing of this action
in the District of New Jersey. (See Ex. A to the Declaration of Aaron Schlanger, dated May 1, 2014
(“Schlanger Decl.”), Strauss Dkt. Entry No. 370.) Furthermore, when the Strauss action was refiled in this
Court, Defendant expressly agreed to accept service of
11

See 18 U.S.C. § 2334 (providing for nationwide service of
process “where[ever] the defendant resides, is found, or has an
agent”); Licci I, 673 F.3d at 59 n.8 (2d Cir. 2012) (acknowledging
the ATA’s nationwide service of process provision as a possible
basis for personal jurisdiction); Stansell v. BGP, Inc., 2011 WL
1296881, at *3 (M.D. Fla. Mar. 31, 2011); Sokolow v. Palestine
Liberation Org., 2011 WL 1345086, at *2 (S.D.N.Y. Mar. 30,
2011); Wultz v. Islamic Republic of Iran (“Wultz I”), 755 F. Supp.
2d 1, 31-32 (D.D.C. 2010); In re Terrorist Attacks on Sept. 11,
2001, 349 F. Supp. 2d 765, 806-07 (S.D.N.Y. 2005); see also IUE
AFL-CIO Pension Fund v. Hermann, 9 F.3d 1049, 1056 (2d Cir.
1993) (federal statute authorizing nationwide service of process
may be used to establish personal jurisdiction).

119a
the Summons and Complaint by stipulation of the parties dated February 17, 2006.12 (See Ex. B to the
Schlanger Decl.) Defendant voluntarily accepted service in the Wolf action as well. (See Stipulation and
Order dated April 5, 2007, Wolf Dkt. Entry No. 6.) As
such, Rule 4(k)(1)(C) provides an additional basis for
this Court to exercise personal jurisdiction over Defendant, to the extent permitted by due process.13 See
In re Terrorist Attacks, 349 F. Supp. 2d at 806 (exercise
of personal jurisdiction pursuant to Rule 4(k)(1)(C)
still requires demonstration that defendant has sufficient “minimum contacts” to satisfy traditional due
process inquiry); see also Wultz I, 755 F. Supp. 2d at
32 (“Nationwide service of process does not dispense
with the requirement that an exercise of personal jurisdiction comport with the Due Process Clause.”)
E. Constitutional Due Process
Having concluded that there is a statutory basis
to exercise personal jurisdiction over Defendant, the
12

At the time Defendant accepted service, the provision presently embodied by Rule 4(k)(1)(C) of the Federal Rules of Civil
Procedure was in effect as Rule 4(k)(1)(D), which subsequently
was renumbered pursuant to the 2007 Amendment to the Federal
Rules.
13
In Wultz v. Republic of Iran (“Wultz II”), 762 F. Supp. 2d 18,
25-29 (D.D.C. 2011), the district court held that the ATA’s nationwide service of process provision cannot be invoked to establish
personal jurisdiction unless the first clause of that provision, concerning proper venue under the statute, also is satisfied. Here,
Defendant has waived any argument that venue is improper by
failing to raise that issue. In any event, given that the ATA provides for venue in any district where any plaintiff resides or
where the defendant is served, the Court would find that venue
is proper in this district even if Defendant had asserted a challenge. See 18 U.S.C. § 2334(a).

120a
Court must consider whether exercising such jurisdiction would comport with the due process protections
provided by the United States Constitution. As articulated by the Supreme Court in International Shoe, the
touchstone due process principle requires that the defendant “have certain minimum contacts [with the forum state] such that maintenance of the suit does not
offend traditional notions of fair play and substantial
justice.” Licci ex rel. Licci v. Lebanese Canadian Bank,
SAL (“Licci III”), 732 F.3d 161, 169 (2d Cir. 2013)
(quoting Int’l Shoe, 326 U.S. at 316) (alterations in
original). Assuming the threshold showing of “minimum contacts” is satisfied, the Court also must consider whether its exercise of jurisdiction would be reasonable under the circumstances. See Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 476-77 (1985); see
also Licci III, 732 F.3d at 173-74.
Notably, after the Court of Appeals determined in
Licci II that the defendant bank was subject to jurisdiction in New York under § 302(a)(1), the Second Circuit in Licci III considered whether exercising such jurisdiction would comport with due process. In concluding that due process was satisfied, the Second Circuit
observed that it would be “rare” and “unusual” for a
court to determine that the exercise of personal jurisdiction over a defendant was permitted by § 302(a)(1),
but prohibited under principles of due process. Licci
III, 732 F.3d at 170. In fact, the Second Circuit noted
that it was aware of no such decisions within this Circuit. Id. Therefore, given the Court’s prior determination that § 302(a)(1) permits the exercise of jurisdiction over Defendant, it would be unusual, and even unprecedented, for the Court to find that due process is
not satisfied here.

121a
1.

Minimum Contacts

Where, as here, a court’s specific jurisdiction is invoked, “minimum contacts” sufficient to satisfy due
process exist if “the defendant purposefully availed itself of the privilege of doing business in the forum and
could foresee being haled into court there.” Licci III,
732 F.3d at 170 (quoting Bank Brussels Lambert v.
Fiddler Gonzalez & Rodriguez, 305 F.3d 120, 127 (2d
Cir. 2002)) Courts typically conduct this inquiry under
two separate prongs: (1) the “purposeful availment”
prong, “whereby the court determines whether the entity deliberately directed its conduct at the forum”;
and (2) the “relatedness” prong, “whereby the court determines whether the controversy at issue arose out of
or related to the entity’s in-forum conduct.” Gucci Am.,
Inc. v. Weixing Li (“Gucci III”), 2015 WL 5707135, at
*7 (S.D.N.Y. Sept. 29, 2015) (citing Chew v. Dietrich,
143 F.3d 24, 27-29 (2d Cir. 1998)).
Because this action arises under the ATA, a nationwide service of process statute, the appropriate
“minimum contacts” inquiry is whether Defendant has
sufficient contacts with the United States as a whole.14
14

See LIBOR, 2015 WL 4634541, at *18; Wultz II, 762 F. Supp.
2d at 25; In re Terrorist Attacks, 349 F. Supp. 2d at 806 (Where
jurisdiction is asserted under the ATA’s service provision, the
“relevant inquiry under such circumstances is whether the defendant has minimum contacts with the United States as a whole
[to satisfy Fifth Amendment due process requirements], rather
than . . . with the particular state in which the federal court sits.”)
(quoting Estates of Ungar ex rel. Strachman v. Palestinian Auth.,
153 F. Supp. 2d 76, 87 (D.R.I. 2001)) (alterations in original). But
see Gucci II, 768 F.3d at 142 n.21 (noting that the Second Circuit
has not yet decided whether the “national contacts” approach is

122a
Nevertheless, aside from an office Defendant purportedly maintains in Miami, Florida, essentially all of the
contacts relevant to the Court’s due process inquiry involve Defendant’s conduct in New York. Moreover,
having already determined that Defendant’s New
York conduct satisfies the purposeful availment prong
of § 302(a)(1), the Court has little difficulty concluding
that it similarly demonstrates purposeful availment
sufficient to establish “minimum contacts” with the
United States. See Licci III, 732 F.3d at 170. There is
nothing remotely “random, isolated, or fortuitous”
about that conduct that would call into question
whether it was purposefully directed at the United
States. Id. at 171 (quoting Keeton v. Hustler Magazine,
Inc., 465 U.S. 770, 774 (1984)). Defendant had a New
York Branch and systematically utilized that branch
as its exclusive clearing channel for U.S. Dollar transfers requested by its customers. Defendant’s officers in
Paris also regularly communicated with the New York
Branch, including with regard to CBSP on several occasions. (See Ex. A to the Oct. 22, 2015 Osen Ltr.) (attaching list of communications).
Most notably, Defendant deliberately used New
York’s banking system to execute the five New York
Transfers. Given that similar recurring transfers
routed through a New York correspondent account
were sufficient to establish purposeful availment in
Licci III, the New York Transfers demonstrate such
availment a fortiori because they were executed
through Defendant’s own branch in New York. As
such, there is no question that Defendant purposefully
proper for determining personal jurisdiction in cases arising under federal statutes that authorize nationwide service.)

123a
availed itself of the “privilege of conducting business
in [New York],” thereby subjecting itself to suit in the
United States with respect to any and all claims substantially related to such conduct. Licci III, 732 F.3d
at 171 (quoting Bank Brussels Lambert, 305 F.3d at
127); see also Gucci III, 2015 WL 5707135, at *8.
Turning to the question of relatedness, the Second
Circuit held in Licci III that the defendant bank’s use
of an in-forum correspondent account to execute the
very wire transfers that were the basis for the plaintiffs’ claims satisfied “minimum contacts.” As the Second Circuit explained:
[W]e by no means suggest that a foreign defendant’s ‘mere maintenance’ of a correspondent account in the United States is sufficient
to support the constitutional exercise of personal jurisdiction over the account-holder in
connection with any controversy. In this case,
the correspondent account at issue is alleged
to have been used as an instrument to achieve
the very wrong alleged. We conclude that in
connection with this particular jurisdictional
controversy—a lawsuit seeking redress for
the allegedly unlawful provision of banking
services of which the wire transfers are a
part—allegations of [the defendant’s] repeated, intentional execution of U.S.-dollardenominated wire transfers on behalf of Shahid, in order to further Hizballah's terrorist
goals, are sufficient [to sustain jurisdiction].
Licci III, 732 F.3d at 171. The same conclusion is compelled here, where the New York Transfers are among
the allegedly unlawful financial services Defendant

124a
provided to CBSP for which Plaintiffs seek redress in
this action.
Defendant attempts to distinguish Licci III on the
ground that all of the wire transfers at issue in that
case were routed through New York, whereas in this
case only a fraction of the transfers at issue contacted
New York. However, in Licci III, the Second Circuit
did not hold, or even suggest, that due process was satisfied because the transfers at issue were routed exclusively through New York. That fact was not even made
explicit in the Second Circuit’s opinion. Rather, per the
Second Circuit’s express holding, “minimum contacts”
were established by the defendant bank’s repeated and
deliberate use of a New York correspondent account to
effect the financial services underlying the plaintiffs’
claims. See Id. at 171-73; Wultz I, 755 F. Supp. 2d at
34 (suggesting that a single wire transfer knowingly
performed in the U.S. for the benefit of a terrorist organization could support a finding of specific jurisdiction in the ATA context); see also Burger King, 471
U.S. at 475 n.18 (“So long as it creates a substantial
connection with the forum, even a single act can support jurisdiction.”) (internal quotation marks and citation omitted). The facts alleged here demonstrate the
same repeated and deliberate conduct by Defendant.
The Court acknowledges that Licci III involved
dozens of wire transfers through New York totaling
millions of dollars, whereas in this case there were
only five New York Transfers totaling $205,000. Nevertheless, if not for the New York Transfers, $205,000
would not have been provided to the Charities and
thereupon purportedly delivered into the hands of Hamas during the same timeframe that Hamas allegedly
carried out the attacks in which Plaintiffs were

125a
injured. Contra 7 West 57th St., 2015 WL 1514539, at
*10 (“minimum contacts” not satisfied in LIBOR fixing
case because defendant bank’s conduct in New York
had no alleged connection with plaintiff’s injury and
did not even occur during the relevant timeframe).
Furthermore, Plaintiffs allege facts to support a finding that Defendant executed the New York Transfers
at a time when it knew, or at least suspected, that it
was supporting a terrorist organization by sending
money from CBSP to the Charities. See Strauss, 925
F. Supp. 2d at 429-30; cf. Wultz I, 755 F. Supp. 2d at
34 (“Where a bank has knowledge that it is funding
terrorists . . . contacts created by such funding can support such a finding [of specific jurisdiction].”) (citing In
re Terrorist Attacks on Sept. 11, 2001, 718 F. Supp. 2d
456, 488-90 (S.D.N.Y. 2010)). Under Licci III, these
factual assertions are sufficient to satisfy the “minimum contacts” component of the due process inquiry.
For the reasons discussed by the Court when analyzing the scope of jurisdiction under § 302(a)(1), supra, the Court further concludes that Defendant’s New
York conduct established “minimum contacts” as to
which all of Plaintiffs’ claims substantially relate. As
such, the Court finds that it may exercise jurisdiction
over Defendant with respect to all of those claims without offending due process. See Walden, 134 S. Ct. at
1121 (“minimum contacts” satisfied if “the defendant’s
suit-related conduct . . . create[s] a substantial connection with the forum State.”). Furthermore, as acknowledged by the Second Circuit, there is authority for the
“general proposition that use of a forum’s banking system as part of an allegedly wrongful course of conduct
may expose the user to suits seeking redress in that
forum when that use is an integral part of the

126a
wrongful conduct.” Licci III, 732 F.3d at 172 n.7. Here,
Defendant is a sophisticated financial institution that
had a New York Branch and routinely conducted business in the United States through that branch. As
such, it reasonably can be presumed that Defendant
was “fully aware of U.S. law concerning financial institutions, including provisions of the ATA criminalizing material support to terrorist organizations.” Wultz
I, 755 F. Supp. 2d at 34. Assuming the truth of Plaintiffs’ allegations, Defendant reasonably could have
foreseen that repeatedly availing itself of New York to
execute the New York Transfers would subject it to jurisdiction in the United States with respect to the
overall course of conduct of which those transfers were
a part.
Nevertheless, Defendant asserts the same fallacy
as it did with respect to § 302(a)(1), arguing that due
process prohibits the Court from exercising “jurisdiction” over transfers that never went through New
York or the United States. Defendant contends that
this principle is exemplified in a decision recently
reached by the Honorable Naomi R. Buchwald, United
States District Judge for the Southern District of New
York, in a multidistrict litigation concerning alleged
manipulation of the London Interbank Offer Rate (“LIBOR”). (See Oct. 16, 2015 Friedman Ltr.; see also Tr.
44:12-25.) In basic terms, LIBOR is a set of interestrate benchmarks calculated on the basis of quotes
from a panel of leading banks, each of which reports
on a daily basis the rate at which it could borrow funds
under certain stated conditions. See LIBOR, 2015 WL
4634541, at *2-3. The plaintiffs in the multidistrict litigation allege, inter alia, that the panel banks knowingly and persistently submitted falsely high or low

127a
quotes to manipulate LIBOR in a manner designed to
fraudulently improve their respective positions in the
market. As a threshold ruling, Judge Buchwald indicated that specific jurisdiction would not exist in New
York with respect to any claim alleging fraud based
upon a false LIBOR quote that neither was determined nor submitted in New York, nor otherwise requested by a trader located in New York. See Id. at *32.
Whatever basis in the facts and law that ruling
had in LIBOR, no such basis can be found here. In that
case, each purportedly false LIBOR submission at issue was alleged to have caused a distinct and identifiable harm that directly gave rise to a specific plaintiff’s
claim. The transfers at issue here are not comparable.
Without rehashing the Court’s entire analysis concerning the scope of jurisdiction under § 302(a)(1), supra, Plaintiffs’ claims are that Defendant provided
material support to an FTO and knowingly financed
terrorism. Those claims rest upon the many transfers
Defendant made to the Charities on behalf of CBSP in
close temporal proximity to the 19 attacks in which
Plaintiffs were injured. Due process does not require
that the Court secure a basis for jurisdiction over all
of those transfers in order to adjudicate Plaintiffs’
claims. Rather, as discussed, Plaintiffs must show that
there is a substantial relationship between claims
made in connection with all 19 attacks and Defendant’s relevant New York conduct. See Walden, 134 S.
Ct. at 1121. Based on its prior determination that
Plaintiffs adequately have done so, prima facie, the
Court may exercise jurisdiction with respect to all of
their claims without offending due process.

128a
2.

Reasonableness

At the second stage of the due process analysis,
the party challenging jurisdiction bears a heavy burden to make “a compelling case that the presence of
some other considerations would render jurisdiction
unreasonable.” Bank Brussels Lambert, 305 F.3d at
129 (quoting Metro. Life Ins. Co., 84 F.3d at 568).
Where a defendant has purposefully directed its suitrelated conduct at the forum State, as is the case here,
“dismissals resulting from the application of the reasonableness test should be few and far between.”
Metro. Life, 84 F.3d at 575 (citing Burger King, 471
U.S. at 477). Among the factors typically considered by
a court assessing the reasonableness of exercising jurisdiction are: (1) “the burden that the exercise of jurisdiction will impose on the [entity]”; (2) “the interests
of the forum state in adjudicating the case”; (3) “the
plaintiff’s interest in obtaining convenient and effective relief”; (4) “the interstate judicial system’s interest
in obtaining the most efficient resolution of the controversy”; and (5) “the shared interest of the states in furthering substantive social policies.” Gucci III, 2015
WL 5707135, at *9 (citing Bank Brussels Lambert, 305
F.3d at 129) (alterations in original). In addition,
“[w]hen the entity that may be subject to personal jurisdiction is a foreign one, courts consider the international judicial system’s interest in efficiency and the
shared interests of the nations in advancing substantive policies.” Id. (citing Asahi Metal Indus. Co. v. Superior Ct. of Cal., Solano Cnty. 480 U.S. 102, 115
(1987)) (emphasis in original).
Here, in challenging jurisdiction, Defendant does
not directly address the individual reasonableness factors. Having considered those factors anyway, the

129a
Court concludes that they support the exercise of jurisdiction over Defendant. To begin with, Defendant
has been litigating this action in this Court for the better part of ten years. Extensive discovery already has
taken place, with the parties capably surmounting any
obstacles presented by the fact that many of the pertinent witnesses and documents are located abroad. As
such, Defendant cannot seriously contend that continuing to litigate this case in New York presents an unreasonable burden. See Licci III, 732 F.3d at 174 (observing that any such burden is eased by “the conveniences of modern communication and transportation”).
Indeed, up until Daimler was decided, Defendant presumably had every expectation of litigating this matter to a resolution in New York.
Furthermore, the claims in this action are predicated on the overall course of conduct by which Defendant allegedly provided financial support to a terrorist organization. To the extent Defendant’s use of
New York’s banking system was integral to that conduct, the Court also may take into account “the United
States’ and New York’s interest in monitoring banks
and banking activity to ensure that its system is not
used as an instrument in support of terrorism.” Id. Finally, although not a controlling factor, it is appropriate to consider the federal policy underlying Congress’
enactment of the ATA. Cf. 4 Wright & Miller, Federal
Practice and Procedure § 1068.1 (4th ed.) (“[W]hen
Congress has undertaken to enact a nationwide service statute applicable to a certain class of disputes,
that statute should be afforded substantial weight as
a legislative articulation of federal social policy.”) As
demonstrated by the legislative history and express
language of the ATA, a clear statutory objective is “to

130a
give American nationals broad remedies in a procedurally privileged U.S. forum.” Goldberg v. UBS AG, 660
F. Supp. 2d 410, 422 (E.D.N.Y. 2009). That policy by
no means overrides the due process to which Defendant is entitled. However, having already determined
that Defendant established “minimum contacts” with
the United States as a whole, the Court is further persuaded by that policy and the other reasonableness
factors that exercising jurisdiction over Defendant is
consistent with due process. Accordingly, Defendant’s
motion to dismiss for lack of personal jurisdiction is
denied.15
III. Pendent Personal Jurisdiction
Plaintiffs invoke the doctrine of pendent personal
jurisdiction as an alternative basis for finding that Defendant is subject to jurisdiction with respect to all of
Plaintiffs’ claims. (See Pl.s’ Opp’n at 19 n.9.) In general, that doctrine permits a court to exercise personal
jurisdiction with respect to a claim for which it otherwise lacks jurisdiction, if that claim arises from the
same common nucleus of fact as another claim for
which the court properly has jurisdiction over the defendant. See 4 Wright & Miller, Federal Practice and
15
In Gucci II, the Second Circuit directed the district court to
consider, upon remand, whether the exercise of jurisdiction over
Bank of China would comport with principles of international
comity. See Gucci II, 768 F.3d at 138-39. However, in that case,
there was an alleged conflict of law between Chinese banking
laws and an asset-freeze injunction issued by the district court.
Id. Here, Defendant does not address the issue of comity, nor is
there any suggestion that merely continuing to exercise jurisdiction over Defendant, albeit on a theory of specific jurisdiction rather than general, would conflict with any foreign laws or otherwise infringe on the sovereign interests of a foreign state.

131a
Procedure § 1069.7 (4th ed.) However, within the Second Circuit, the doctrine of pendent personal jurisdiction primarily has been embraced to permit the adjudication of pendent state law claims that derive from
the same common nucleus of fact as a federal claim for
which the court has jurisdiction over the defendant.
See, e.g., IUE AFL-CIO Pension Fund v. Herrmann, 9
F.3d 1049, 1059 (2d Cir. 1993); see also Hargarve v.
Oki Nursery, Inc., 646 F.2d 716, 719-21 (2d Cir. 1980)
(court that properly had jurisdiction over defendant on
state law claim permitted to exercise pendent jurisdiction as to related state law claims). Notably, those are
not the circumstances here, where all of Plaintiffs’
claims are brought under a single federal statute. In
any event, having already determined that it may exercise jurisdiction with respect to all of Plaintiffs’
claims under traditional personal jurisdiction principles, the Court need not decide whether it also would
be appropriate to exercise pendent personal jurisdiction. Therefore, the Court declines to do so.
IV. Defendant’s Motion for Summary Judgment
Defendant alternatively moves for summary judgment on the basis that the Court can exercise jurisdiction only with respect to the New York Transfers, and
Plaintiffs cannot prove Defendant’s liability in a case
confined just to those five transfers. (See Def.’s Mem.
at 15-25.) In other words, Plaintiffs purportedly cannot prevail on their claims because they cannot prove
that as of July 31, 2001—the date of the last New York
Transfer—Defendant acted with the requisite scienter
and proximately caused Plaintiffs’ injuries. However,
the Court already has rejected Defendant’s arguments
seeking to limit the scope of jurisdiction in this manner, including the fallacy that the Court must secure

132a
jurisdiction over individual transfers rather than jurisdiction over Defendant itself. Accordingly, Defendant’s motion for summary judgment is denied.
CONCLUSION
For the foregoing reasons, Defendant’s motion to
dismiss this action, or in the alternative for summary
judgment, is denied in its entirety.
SO ORDERED.
Dated: Brooklyn, New York
March 31, 2016
s/
DORA L. IRIZARRY
United States District Judge

133a
APPENDIX E
________________________________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
________________________________
No. 06-CV-702 (DLI) (RML)
________________________________
MOSES STRAUSS, et al.,
Plaintiffs,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant.
________________________________
No. 07-cv-914 (DLI) (RML)
________________________________
BERNICE WOLF, et al.,
Plaintiffs,
v.
CRÉDIT LYONNAIS, S.A.,
Defendant.
________________________________
OPINION AND ORDER
________________________________
DORA L. IRIZARRY, U.S. District Judge:
Over 200 individuals and estates of deceased persons (collectively, “Plaintiffs”), brought this consolidated action against defendant Crédit Lyonnais, S.A.
(“Defendant”), seeking to recover damages from fifteen
terrorist attacks in Israel and Palestine pursuant to
the civil liability provision of the Antiterrorism Act of

134a
1992 (“ATA”), 18 U.S.C. § 2333(a) (“Section 2333(a)”).
Defendant moved for summary judgment pursuant to
Rule 56 of the Federal Rules of Civil Procedure. In addition, a group of Plaintiffs who seek damages related
to one of the fifteen attacks, a September 9, 2003 terrorist attack at the Café Hillel in Jerusalem, (“Café
Hillel Plaintiffs”),1 cross-moved for summary judgment as to liability against Defendant. For the reasons
set forth below, Defendant’s motion is denied in part
and granted in part, and the Café Hillel Plaintiffs’ motion is denied in part and granted in part.
BACKGROUND2
I.

The Parties

Plaintiffs’ claims arise from fifteen attacks in Israel and Palestine that occurred between March 27,
2002 and September 24, 2004, which Plaintiffs allege
were perpetrated by the Palestinian organization, Hamas. (Def.’s Am. Statement of Material Facts, Strauss
Dkt. Entry 295 (“CL’s 56.1 Stmnt.”), ¶ 251; Pls.’ Resp.
to Def.’s Am. Statement of Material Facts, Strauss
Dkt. Entry 297 (“Pls.’ 56.1 Resp.”) ¶ 251.)3 Plaintiffs

1

The Café Hillel Plaintiffs are Natan Applebaum for the Estate of David Applebaum and the Estate of Naava Applebaum,
Debra Applebaum, the Estate of Jacqueline Applebaum, Natan
Applebaum, Shira Applebaum, Yitzchak Applebaum, Shayna Applebaum, Tovi Belle Applebaum, Geela Applebaum Gordon and
Chaya Tziporah Cohen.
2

Except where otherwise stated, the Background is taken from
facts that are not genuinely in dispute.
3

Citations to the “Strauss Docket” are to docket 06-cv-702. Citations to the “Wolf Docket” are to 07-cv-914. Where documents
have been filed on both dockets, the court cites to the Strauss
Docket only, as it is the lead case.

135a
comprise over 200 United States citizens who were injured in the terrorist attacks, the estates of those
killed in the terrorist attacks and/or are family members of people killed or injured in the terrorist attacks.
(See 3d Am. Compl., Strauss Dkt. Entry 127 (“Strauss
3d Am. Compl.”), ¶¶ 5-572; Compl., Wolf Dkt. Entry 1
(“Wolf Compl.”), ¶¶ 5-313.)
Defendant is a financial institution incorporated
and headquartered in France that also does business
in the United States. (CL’s 56.1 Stmnt. ¶ 1; Pls.’ 56.1
Resp. ¶ 1.)
II.

CBSP

The Comite de Bienfaisance et de Secours aux Palestiniens (“Committee for Palestinian Welfare and Relief”) (“CBSP”) is a non-profit organization registered
in France and currently headquartered in Paris. (CL’s
56.1 Stmnt. ¶ 2; Pls.’ Resp. ¶ 2.) CBSP opened an account with Defendant in May 1990, and opened three
additional accounts with Defendant in 1993. (CL’s 56.1
Stmnt. ¶ 3; Pls.’ 56.1 Resp. ¶ 3.) CBSP indicated in the
account opening documentation it provided to Defendant that it collects funds for humanitarian aid that it
transfers to various charitable organizations in the
West Bank and Gaza and surrounding areas. (CL’s
56.1 Stmnt. ¶ 2; Pls.’ 56.1 Resp. ¶ 2.)
During the period relevant to this case, neither
France nor the European Union included CBSP on any
lists of persons subject to the freezing of assets or supervision of their financial transactions. (CL’s 56.1
Stmnt. ¶ 114; Pls.’ 56.1 Resp. ¶ 114.) However, on August 21, 2003, the United States Treasury Office of
Foreign Assets Control (“OFAC”) listed CBSP as a
“Specially-Designated Global Terrorist” (“SDGT”).

136a
(CL’s 56.1 Stmnt. ¶ 116; Pls.’ 56.1 Resp. ¶ 116.) In the
press release issued by the Department of Treasury’s
Office of Public Affairs announcing the designation,
CBSP was described as a primary fundraiser for Hamas in France that has “collected large amounts of
money . . ., which it then transfers to sub-organizations of Hamas.” (Decl. of Joel Israel, Wolf Dkt. Entry
182-4 (“Israel Decl.”) Ex. 31 at 5.) Hamas already had
been designated as a Foreign Terrorist Organization
(“FTO”) in 1997 by the United States. (CL’s 56.1
Stmnt. ¶¶ 299-301; Pls.’ 56.1 Resp. ¶¶ 299-301.) The
press release announcing CBSP’s designation also
stated that CBSP had worked “in collaboration with
more than a dozen humanitarian organizations based
in different towns in the West Bank and Gaza and in
Palestinian refugee camps in Jordan and Lebanon.”
(Israel Decl. Ex. 31 at 5.) In addition, in 1997, the Israeli government had designated CBSP as a “terrorist
organization” under the Prevention of Terrorism Ordinance and an “unlawful organization” under Israel’s
Defense (Emergency) Regulations. (CL’s 56.1 Stmnt.
¶ 125; Pls.’ 56.1 Resp. ¶ 125.)
III. The Charities
While CBSP had accounts with Defendant, it
transferred money to “13 Charities”4 Plaintiffs contend

4

The 13 Charities are: Al-Mujama al-Islami-Gaza (the Islamic Center-Gaza); Al- Jam’iya al-Islamiya-Gaza (the Islamic
Society-Gaza); Al-Salah Islamic Association-Gaza (Jam’iyat alSalah al-Islamiya-Gaza); Al-Wafa Charitable Society-Gaza
(Jam’iyat al-Wafa al-Khiriya-Gaza); Islamic Charitable SocietyHebron (Al-Jam’iya al-Khiriya al-Islamiya al-Khalil); Jenin Zakat Committee (Lajnat al-Zakaa Jenin); Nablus Zakat

137a
were “alter egos” of Hamas. (CL’s 56.1 Stmnt. ¶¶ 284,
299-301; Pls.’ 56.1 Resp. ¶¶ 284, 299-301.) The United
States, however, did not designate any of the transferees of funds from CBSP’s accounts as SDGTs before
August 21, 2003. (CL’s 56.1 Stmnt. ¶ 117; Pls.’ 56.1
Resp. ¶ 117.)
The boards of directors of at least some of the 13
Charities included members of Hamas. (CL’s 56.1
Stmnt. ¶ 317; Pls.’ 56.1 Resp. ¶ 317.) Each of the 13
Charities maintained its own bank accounts in either
its own name or the names of the treasurer or the head
of the entity. (CL’s 56.1 Stmnt. ¶¶ 322-23; Pls.’ 56.1
Resp. ¶¶ 322-23.)
IV. Defendant’s Suspicions About CBSP’s Accounts
A. Defendant’s Initial Suspicions
From 1997 through 2003, activity in CBSP’s accounts was monitored by Defendant’s unit responsible
for the prevention of fraud and money laundering,
which became known as the Financial Security Unit
(“FSU”). (CL’s 56.1 Stmnt. ¶ 5; Pls.’ 56.1 Resp. ¶ 5.)
The FSU’s Committee for the Prevention of Money
Laundering and Fraud (“CPML”) was the body within
the FSU responsible for analyzing information it
Committee (Lajnat al-Zakaa Nablus); Al-Tadamum Charitable
Society-Nablus (Jam’iyat Al-Tadamum al-Khiriya al-Islamiya
Nablus); Tulkarem Zakat Committee (Lajnat al-Zakaa Tulkarem); Ramallah-al Bireh Zakat Committee (Lajnat al-Zakaa
Ramallah wal-Bireh); Al-Islah Charitable Society-Ramallah &
Al-Bireh (Jam’iyat al-Islah al-Khiriya al-Ajithamiya Ramallah
wal-Bireh); Beit Fajar Zakat Committee (Lajnat al-Zakaa Beit
Fajar); and Jerusalem Central Zakat Committee (Lajnat alZakaa al-Markaziya al-Quds). (CL’s 56.1 Stmnt. ¶ 284; Pls.’ 56.1
Resp. ¶ 284.)

138a
received about suspicious activity by Defendant’s customers, including CBSP, and then evaluating what
steps should be taken based on that information. (CL’s
56.1 Stmnt. ¶ 9; Pls.’ 56.1 Resp. ¶ 9.)
In 1997, Robert Audren, the individual at the FSU
in charge of monitoring activities in CBSP’s accounts,
opened an investigative file on CBSP’s accounts. (See
Decl. of Aitan D. Goelman, Strauss Dkt. Entry 299
(“Goelman Decl.”), Ex. 11 at 21-22, 46.) Audren opened
the investigative file after the accounts were brought
to Audren’s attention by employees at the local branch
where CBSP maintained its accounts. (See id. 22.)
Audren testified that he believed the local branch
brought the accounts to his attention because “Associations” “are not very common types of accounts in a
branch and an account which through its title or
through its name raised questions.” (Id.) During his
review, Audren requested back-up information for
transfers to several of the 13 Charities. (See id. Ex. 11
at 60-66, Exs. 16-18.) Audren testified that he believed
the transfers “corresponded or they were at least perfectly coherent with the stated purpose of this Association which was, in fact, welfare and solidarity with
Palestine.” (Id. Ex. 11 at 66.) After reviewing account
statements, Audren determined that the account’s operation seemed normal and that “the incoming funds
were coming from private individuals, seemingly, according to the names of the donors of North African
origin and that seemed coherent in people’s minds
with the account such that it was opened. Now, the
way that the funds left the account didn’t pose a problem for us.” (Id. 28.)

139a
B. Defendant Reports CBSP to the French Government
In late fall of 2000, Audren became aware of what
he perceived to be large and unexplained increases in
the number and amounts of deposits into CBSP’s main
account coming from sources he was unable to identify. (CL’s 56.1 Stmnt. ¶ 20; Pls.’ 56.1 Resp. ¶ 20.)
Audren concluded that the increase in the number and
amounts of unidentifiable inflows made the origins of
the deposits more opaque. (CL’s 56.1 Stmnt. ¶ 21; Pls.’
56.1 Resp. ¶ 21.) More specifically, Audren testified
that, “[i]n terms of the names of the donors there is no
opacity. As for the origin of the funds contributed by
the donors, well, I don’t know them personally.” (Goelman Decl. Ex. 15 at 114-15.) According to Audren, he
believed that the large increase in cash flows indicated
that CBSP’s main account might have been used for
money laundering. (Decl. of Emily P. Eckstut, Strauss
Dkt. Entry 316 (“Eckstut Decl.”) Ex. 2 ¶ 4.)
On December 19, 2000, Audren drafted for the
CPML’s review what he referred to as a “pre-declaration,” describing the suspicious activity in CBSP’s
main account. (CL’s 56.1 Stmnt. ¶ 26; Pls.’ 56.1 Resp.
¶ 26.) In the pre-declaration, Audren described CBSP’s
activities as “[c]ollection of funds from ‘supporters’5
5

The actual French word in the pre-declaration is “sympathisants.” Plaintiffs dispute Defendant’s translation of this word
as “supporters” and insist that the proper translation is “sympathizers.” (See Pls.’ 56.1 Resp. ¶ 32.) Audren testified that he used
the word to “convey the sympathy and support sufficient that people would set up permanent transfers or even give checks.” (Goelman Decl. Ex. 11 at 100-01.) The court takes no position on the
correct translation, and notes that the translation of this word
does not affect the outcome of the Order.

140a
and individual donors, then transfers to banks established in LEBANON or PALESTINE, to non-resident
charitable and/or Islamic associations.” (Eckstut Decl.
Ex. 32.) Audren described his “reason for suspicion” as:
Essentially, the increased amount. The movements, up to now, apparently compatible with
a collection provided by individuals, by
checks, wire transfers, cash for low amounts,
increased in October, November 2000 . . .,
mainly by increasing payments in cash, both
in number and amounts. Similarly, the check
deposits grew and the current main account
balance is now often around one million
francs. If the events in ISRAEL partly explain
this new increase in support, the source of
funds is also much more obscure. Moreover,
the personality of the President appears contrasted.
(Id.) Audren testified that by “events” in Israel he was
referring to the increased period of conflict in Israel
and Palestine at the time, known as the “Second Intifada.” (CL’s 56.1 Stmnt. ¶ 33; Pls.’ 56.1 Resp. ¶ 33;
Goelman Decl. Ex. 11 at 107-08; Café Hillel Pls.’ Statement of Material Facts, Wolf Dkt. Entry 182-2 (“CH
Pls.’ 56.1 Stmnt.”) ¶ 3; Def.’s Resp. to Café Hillel Pls.’
Statement of Material Facts, Wolf Dkt. Entry 188-2
(“CL’s 56.1 Resp.”) ¶ 3.) Audren also explained that his
description of the “President” as “contrasted” was intended to refer to Defendant’s personnel’s perception
that CBSP’s president had an uncooperative and unfriendly demeanor. (CL’s 56.1 Stmnt. ¶ 34; Pls.’ 56.1
Resp. ¶ 34.)
Audren drafted this pre-declaration so the CPML
could decide whether to report CBSP’s activity to the

141a
French government agency known as TRACFIN
and/or to terminate Defendant’s relationship with
CBSP. (CL’s 56.1 Stmnt. ¶ 27; Pls.’ 56.1 Resp. ¶ 27.)
Defendant believed that it was obligated by French
law to file a declaration with TRACFIN when Defendant suspected that one of its customers was laundering
money so that TRACFIN could analyze the bank’s report and, if appropriate, refer the matter to French
prosecutors. (CL’s 56.1 Stmnt. ¶ 28; Pls.’ 56.1 Resp.
¶ 28.) The CPML discussed the pre-declaration at a
meeting on January 9, 2001, where they decided to file
a declaration concerning Defendant’s suspicions about
CBSP with TRACFIN. (CL’s 56.1 Stmnt. ¶¶ 35, 39;
Pls.’ 56.1 Resp. ¶¶ 35, 39.) During the meeting, the
CPML also decided to place CBSP’s accounts under
heightened surveillance. (CL’s 56.1 Stmnt. ¶ 40; Pls.’
56.1 Resp. ¶ 40.)
The local prosecutors in the region where CBSP
maintained its accounts with Defendant investigated
CBSP, but, on July 19, 2001, the local authorities issued a decision to end the investigation and not bring
charges, due to an “absence of offense.” (CL’s 56.1
Stmnt. ¶ 100; Pls.’ 56.1 Resp. ¶ 100.)
C. Defendant Reports CBSP to the French
Government for the Second Time
In late 2001, Audren decided to bring the CBSP
file to the attention of the CPML for a second time.
(CL’s 56.1 Stmnt. ¶ 42; Pls.’ 56.1 Resp. ¶ 42.) On November 27, 2001, Audren drafted for the CPML’s consideration a “pre-declaration” for a “complementary”
declaration to be filed with TRACFIN regarding
CBSP, providing updated information about CBSP.
(CL’s 56.1 Stmnt. ¶ 44; Pls.’ 56.1 Resp. ¶ 44.) The pre-

142a
declaration stated that the movements of funds in
CBSP’s main account had increased since the previous
filing with TRACFIN, but that Defendant was not suspicious with respect to any change in the origin of the
funds, and the destination of CBSP’s outgoing transfers had not changed. It also noted that CBSP was depositing funds through an intermediary French bank,
rather than directly from the original donors, which
made it impossible for Defendant to identify the original sources of those funds. (CL’s 56.1 Stmnt. ¶ 46; Pls.’
56.1 Resp. ¶ 46.)
Audren also wrote, for the CPML’s eyes only,
“[t]hese developments, the international context, and
the potential repercussions on the image of the CL
lead us to ask ourselves whether or not to maintain
the accounts in our Establishment. Of course, any decision in this matter will essentially be political.” (Eckstut Decl. Ex. 17.) Audren testified that he was referring to possible bad press if the media discovered Defendant was holding “the accounts of Muslim organizations or Muslim individuals,” but also the concern
that there would be negative repercussions within the
Muslim community if the accounts were closed. (Goelman Decl. Ex. 15 at 122.) The CPML discussed the predeclaration at a meeting on December 6, 2001, and directed that an updated declaration be filed with
TRACFIN. (CL’s 56.1 Stmnt. ¶ 50; Pls.’ 56.1 Resp.
¶ 50.)
Upon submission of the declaration, the French
authorities re-opened their investigation into CBSP.
(See CL’s 56.1 Stmnt. ¶ 104; Pls.’ 56.1 Resp. ¶ 104.) On
September 19, 2002, as part of the investigation,
Audren provided a sworn statement concerning CBSP
to the local police in the region where CBSP

143a
maintained its accounts. (CL’s 56.1 Stmnt. ¶ 101; Pls.’
56.1 Resp. ¶ 101.) Auden explained in his statement
that he became aware of CBSP at some point in 1998
“following an increase in the movements received in
the accounts and the fact that transfers to banks located in Palestine or Jordan were operated for the benefit of seemingly Islamist organizations without visibility on our part.” (Eckstut Decl. Ex. 39.) Audren later
testified that he understands “Islamist” means “that it
promotes a radical form of Islam. . . . Now, without
thinking that all persons who are referred to as Islamists are potential terrorists certain events have
demonstrated that certain branches of this trend use
violence.” (Goelman Decl. Ex. 15 at 54.) Audren also
explained in his statement to the police that Defendant perceived a considerable increase in the movement
of funds in CBSP’s accounts at the end of 2000 and in
November 2001, and that, while Defendant decided to
terminate CBSP’s accounts, it was giving CBSP an extension of time to establish a relationship with another
bank. (Eckstut Decl. Ex. 39.)
On October 28, 2002, the local prosecutor issued a
decision to end the investigation and not bring any
charges, due to “insufficient evidence of offense.” (CL’s
56.1 Stmnt. ¶ 104; Pls.’ 56.1 Resp. ¶ 104.) Investigations also were conducted into CBSP by the French
National Police in Paris from January 2003 through
April 2008. (CL’s 56.1 Stmnt. ¶ 105; Pls.’ 56.1 Resp.
¶ 105.) On April 11, 2008, the prosecutor directing the
investigation decided not to bring any charges. (CL’s
56.1 Stmnt. ¶ 105; Pls.’ 56.1 Resp. ¶ 105.)

144a
D. Defendant Decides to Close the CBSP
Accounts
In the December 6, 2001 CMPL meeting where
the committee decided once again to report CBSP to
the French authorities, the CMPL also decided to close
CBSP’s accounts. (CL’s 56.1 Stmnt. ¶ 51; Pls.’ 56.1
Resp. ¶ 51.) In a letter dated January 9, 2002, Defendant informed CBSP that CBSP’s accounts would be
closed on May 9, 2002. (CL’s 56.1 Stmnt. ¶ 86; Pls.’
56.1 Resp. ¶ 86.) On February 19, 2002, the president
of CBSP responded to Defendant by letter, requesting
a postponement of the closing date to December 31,
2002 so that CBSP would have time to set up a new
account and inform donors. (Eckstut Decl. Ex. 53.) The
president of CBSP wrote “[b]ecause, if it were necessary to close our accounts with CL now, we would be
obligated to give the exact reasons for this change. We
would like to spare you the bad publicity.” (Id.) The
CPML granted CBSP’s request to keep its accounts
open until the end of 2002. (Eckstut Decl. Ex. 54.) The
last time CBSP transferred money from its account
with Defendant to another organization was on February 11, 2002, but CBSP’s accounts with Defendant remained officially open until after the end of 2002. (CL’s
56.1 Stmnt. ¶¶ 89-90; Pls.’ 56.1 Resp. ¶¶ 89-90.)
By letter dated April 1, 2003, CBSP’s attorney accused Defendant of closing its accounts based upon religious discrimination. (Eckstut Decl. Ex. 59 at 1.) The
letter stated that Audren told local police:
that he needed to know about CBSP accounts
specifically due to: “transfers to banks located
in Palestine or Jordan were operated for the
benefit of seemingly Islamist organizations
without visibility on our part.” Essentially,

145a
this is saying that you are refusing this charity as a client because you believe it has relationships with Muslim NGOs.
(Id. (emphasis in original).) In the letter, CBSP’s attorney asserted that Defendant’s concerns had “no basis” and that it had reported its money laundering concerns to TRACFIN in “complete bad faith.” (Id. 2.) The
attorney also noted that “[y]ou emphasized that large
amounts of money were sitting in my client’s accounts,
while you were the one refusing to make the transfers.” (Id.)
Defendant’s legal department assessed and rejected the discrimination allegation, instead finding
that the decision to close the account was “based on
the sudden change in volume of the transactions recorded in CBSP’s accounts, compared to the previous
period.” (Eckstut Decl. Ex. 60; CL’s 56.1 Stmnt. ¶ 95;
Pls.’ 56.1 Resp. ¶ 95.) On May 10, 2003, Defendant
sent a response to CBSP denying that its decision to
close the accounts was based upon discrimination and
instructing CBSP to close its accounts by May 31,
2003, or Defendant would send the money left in the
accounts by cashier’s check. (Eckstut Decl. Ex. 61.) Defendant also sent numerous letters to CBSP requesting that CBSP provide information for an account at
another bank to which Defendant could transfer the
balance of CBSP’s funds, but CBSP never responded.
(CL’s 56.1 Stmnt. ¶ 97; Pls.’ 56.1 Resp. ¶ 97.)
E. CBSP Is Designated as a Terrorist
Supporter and Its Accounts Are Closed
As described above, on August 21, 2003, the OFAC
listed CBSP as a SDGT because of its purported financial support of Hamas. (CL’s 56.1 Stmnt. ¶ 116; Pls.’

146a
56.1 Resp. ¶ 116.) The following day, the Vice President and Compliance Officer for Defendant’s operations in the United States emailed the OFAC bulletin
officially designating CBSP as a SDGT to a number of
Defendant’s employees. (CH Pls.’ 56.1 Stmnt. ¶ 18;
CL’s 56.1 Resp. ¶ 18.) Among those who received the
bulletin were the head of Defendant’s Anti-Fraud and
Anti-Money Laundering Department and the employee who oversaw international issues in Defendant’s FSU, who then further distributed the bulletin
internally. (CH Pls.’ 56.1 Stmnt. ¶¶ 20-22; CL’s 56.1
Resp. ¶¶ 20-22.)
On August 25, 2003, after learning that CBSP’s
accounts at Defendant remained open, Alain Marsat,
who worked in the FSU, emailed Antoine Blachier,
who was a risk supervisor for the region where CBSP
maintained its accounts, and others requesting an explanation for the delay in closing the accounts. (CH
Pls.’ 56.1 Stmnt. ¶ 23; CL’s 56.1 Resp. ¶ 23.) Blachier
responded by summarizing the correspondences between Defendant and CBSP since Defendant told
CBSP that it would close the accounts. (Israel Decl.
Ex. 45.) Marsat replied the following day by e-mail
stating “[t]his is what I do not understand, because
since we announced (by registered letter with acknowledgment of receipt) the balance of the accounts
at June 2, 03, why was this decision not applied? . . .
[A]s one could foresee, this case is taking on international proportions.” (Id. Ex. 50.) Marsat attached to his
e-mail an Associated Press story about the designation
of CBSP as a SDGT and CBSP’s denial that it supported Hamas. (Id.) On August 26, 2003, Blachier sent
an e-mail to Marsat and others requesting confirmation that, “following the embargo announced in the

147a
USA, it is still advisable to close the accounts immediately and send the funds to the association, or alternatively if we have to change the way of doing it.” (Id. Ex.
46.)6 Marsat responded that “[t]he OFAC embargo
does not change our closure decision and the manner
of doing it.” (Id.)
On August 29, 2003, Defendant sent a letter to
CBSP explaining that, because CBSP had not told Defendant what bank it wanted its money sent to, Defendant was proceeding to close the accounts, and enclosed four checks for the balance of CBSP’s accounts,
which totalled over €250,000. (Eckstut Decl. Ex. 62.)
However, the accounts continued to receive deposits
into September 2003. (CH Pls.’ 56.1 Stmnt. ¶ 37; CL’s
56.1 Resp. ¶ 37.) In early September 2003, Defendant
sent checks to CBSP with the additional money that
had been deposited. (CH Pls.’ 56.1 Stmnt. ¶ 43; CL’s
56.1 Resp. ¶ 43.)
V. This Action
Pursuant to Section 2333(a) of the ATA, two
groups of Plaintiffs brought separate actions in this
district against Defendant, captioned Strauss, et al. v.
Crédit Lyonnais, S.A., 06-cv-702, and Wolf, et al. v.
Crédit Lyonnais, S.A., 07-cv-914. (Compl., Strauss
Dkt. Entry 1 (“Strauss Compl.”) ¶¶ 536-54; Wolf

6

Defendant insists that this phrase is properly translated as
“[h]owever, please confirm that following the embargo declared
in the U.S., it is still appropriate to close the accounts immediately and send the funds to the association, or if we should change
the approach.” (CL’s 56.1 Resp. ¶ 26.) The court takes no position
on the correct translation, but notes that the court finds the differences in the two translations immaterial for purposes of the
summary judgment motions.

148a
Compl. ¶¶ 407-25.) Plaintiffs sought damages arising
out of terrorist attacks allegedly carried out by Hamas
in Israel and Palestine, and alleged that Defendant
aided and abetted the murder or attempted murder of
United States citizens, committed acts of international
terrorism and collected and transmitted funds on behalf of a terrorist organization. (Strauss Compl.
¶¶ 536-54; Wolf Compl. ¶¶ 407-25.) More specifically,
Plaintiffs alleged that Defendant aided Hamas because it maintained bank accounts for CBSP and sent
money to Hamas front organizations on behalf of
CBSP, even though it knew that CBSP supported Hamas. (Strauss Compl. ¶¶ 528-35; Wolf Compl. ¶¶ 393400.)
Defendant in the Strauss action moved to dismiss
the action in its entirety. The Honorable Charles B.
Sifton, Senior United States District Judge, who was
presiding over the action at the time,7 granted the motion with respect to Plaintiffs’ claim that Defendant
aided and abetted the murder or attempted murder of
United States citizens, but denied the motion with respect to Plaintiffs’ claims that Defendant committed
acts of international terrorism and collected and
transmitted funds on behalf of foreign terrorists. See
Strauss v. Credit Lyonnais, S.A., 2006 WL 2862704
(E.D.N.Y. Oct. 5, 2006). The court also granted the motion to dismiss with respect to claims arising from
three of the attacks as time barred. See id. at *7-8.
In light of Judge Sifton’s rulings in Strauss, the
parties in Wolf agreed to dismissal of the aiding and
abetting claim and claims arising out of the three
7

These cases were ultimately reassigned to this court on January 28, 2011.

149a
attacks that were outside of the statute of limitations
without prejudice to re-file the claims consistent with
any appellate rulings in Strauss or Wolf. (See Wolf
Dkt. Entries 31, 35.) By order dated October 7, 2011,
Strauss and Wolf were formally consolidated.
Defendant moves for summary judgment, asserting that no reasonable juror could find that: 1) Defendant acted with the requisite scienter; 2) Plaintiffs have
proven proximate causation and Article III standing;
or 3) Hamas was responsible for the terrorist attacks
at issue. (See Mem. of Law of Def. in Supp. of its Mot.
for Summ. J., Strauss Dkt. Entry 294 (“Def.’s Mem.”).)
Defendant also contends that the proposed testimony
of the experts Plaintiffs put forth to establish scienter,
causation and Hamas’ responsibility for the attacks is
inadmissible, and, therefore, cannot be relied upon by
the court in deciding the motion for summary judgment. (See id.)
Plaintiffs opposes Defendant’s motion for summary judgment, and a sub-set of Plaintiffs who seek
damages arising from a terrorist attack on the Café
Hillel in Jerusalem (“Café Hillel Plaintiffs”), crossmoves for summary judgment on their claims with respect to Defendant’s liability. (See Pls.’ Mem. of Law
in Opp’n to Def.’s Mot. for Summ. J., Strauss Dkt. Entry 306 (“Pls.’ Opp’n”); Mem. of Law of Café Hillel Pls.
in Supp. of Their Mot. for Summ. J., Wolf Dkt. Entry
186 (“CH Pls.’ Mem.”).) Café Hillel Plaintiffs contend
that they have proven all the elements required by
Section 2333(a) and are entitled to judgment as a matter of law that Defendant is liable for the damages
Café Hillel Plaintiffs suffered as a result of the attack
on the Café Hillel. (See CH Pls.’ Mem.) Defendant opposes Café Hillel Plaintiffs’ motion for summary

150a
judgment for the same reasons it seeks summary judgment on all claims. (See Mem. of Law of Def. in Opp’n
to the Café Hillel Pls.’ Mot. for Summ. J., Wolf Dkt.
Entry 184 (“Def.’s Opp’n”).)
LEGAL STANDARD
Summary judgment is appropriate where “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The court
must view all facts in the light most favorable to the
nonmoving party, but “only if there is a ‘genuine’ dispute as to those facts.” Scott v. Harris, 550 U.S. 372,
380 (2007). “When opposing parties tell two different
stories, one of which is blatantly contradicted by the
record, so that no reasonable jury could believe it, a
court should not adopt that version of the facts for purposes of ruling on a motion for summary judgment.”
Id. A genuine issue of material fact exists if “the evidence is such that a reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). The nonmoving
party, however, may not rely on “[c]onclusory allegations, conjecture, and speculation.” Kerzer v. Kingly
Mfg., 156 F. 3d 396, 400 (2d Cir. 1998). “When no rational jury could find in favor of the nonmoving party
because the evidence to support its case is so slight,
there is no genuine issue of material fact and a grant
of summary judgment is proper.” Gallo v. Prudential
Residential Servs., Ltd. P’ship, 22 F. 3d 1219, 1224 (2d
Cir. 1994) (citing Dister v. Cont’l Grp., Inc., 859 F. 2d
1108, 1114 (2d Cir. 1988)).

151a
DISCUSSION
I.

Statutory Background

Plaintiffs’ claims arise under Section 2333(a) of
the ATA, which provides a civil remedy for United
States citizens who are injured by a terrorist attack.
The statute provides that: “[a]ny national of the
United States injured in his or her person, property,
or business by reason of an act of international terrorism, or his or her estate, survivors, or heirs, may sue
therefor in any appropriate district court of the United
States and shall recover threefold the damages he or
she sustains and the cost of the suit, including attorney’s fees.” 18 U.S.C. § 2333(a). Plaintiffs contend that
Defendant committed an act of international terrorism
because it violated 18 U.S.C. § 2339B (“Section
2339B”) and 18 U.S.C. § 2339C (“Section 2339C”). Violations of Sections 2339B and 2339C are considered
to be acts of “international terrorism” under Section
2333(a). See Strauss, 2006 WL 2862704, at *1 (“Violations of 18 U.S.C. § 2339B and § 2339C are recognized
as international terrorism under 18 U.S.C. 2333(a)”);
Boim v. Quranic Literacy Inst. & Holy Land Found. for
Relief & Dev., 291 F. 3d 1000, 1015 (7th Cir. 2002)
(“Boim I”) (“If the plaintiffs could show that [Defendants] violated either section 2339A or section 2339B,
that conduct would certainly be sufficient to meet the
definition of ‘international terrorism’ under sections
2333 and 2331.”).
Section 2339B imposes criminal penalties on anybody who:
knowingly provides material support or resources to a foreign terrorist organization, or
attempts or conspires to do so. . . . To violate

152a
this paragraph, a person must have
knowledge that the organization is a designated terrorist organization . . ., that the organization has engaged or engages in terrorist activity . . . , or that the organization has
engaged or engages in terrorism.
18 U.S.C. § 2339B(a)(1).
Section 2339C imposes criminal penalties on anybody who:
by any means, directly or indirectly, unlawfully and willfully provides or collects funds
with the intention that such funds be used, or
with the knowledge that such funds are to be
used, in full or in part, in order to carry out . .
. any other act intended to cause death or serious bodily injury to a civilian, or to any other
person not taking an active part in the hostilities in a situation of armed conflict, when the
purpose of such act, by its nature or context,
is to intimidate a population, or to compel a
government or an international organization
to do or to abstain from doing any act.
18 U.S.C. § 2339C(a)(1).
II. Scienter
Defendant asserts that no reasonable jury could
find that it acted with the scienter required by Sections 2333(a), 2339B or 2339C because there is no evidence that it knowingly provided support to terrorists.
(See Def.’s Mem. 1-18.) Plaintiffs contend that there is
ample evidence upon which a reasonable juror can conclude that Defendant had the requisite state of mind.
(See Pls.’ Opp’n 14-30.)

153a
Courts have held that a party must engage in
knowing misconduct to be liable under Section
2333(a). See Boim v. Holy Land Found. for Relief &
Dev., 549 F. 3d 685, 694 (7th Cir. 2008) (en banc)
(“Boim III”). A party also must “knowingly” provide
material support to a terrorist organization to run
afoul of Section 2339B, which means that it must
“have knowledge that the organization is a designated
terrorist organization . . . that the organization has engaged or engages in terrorist activity . . . , or that the
organization has engaged or engages in terrorism.” 18
U.S.C. § 2339B(a)(1). Section 2339C similarly requires
that the party act “with the knowledge that such funds
are to be used” to carry out terrorist attacks. 18 U.S.C.
§ 233C(a)(1) (emphasis added); see also Strauss, 2006
WL 2862704, at *17.
The parties disagree vigorously over the definition
of “knowledge” and “knowingly” in these statutes for
purposes of a claim under Section 2333(a). Defendant
suggests that Plaintiffs must show that it “intended
that the funds CBSP transferred” from its accounts
with Defendant “would be used to carry out terrorist
attacks.” (Def.’s Mem. 3.) However, ruling on Defendant’s motion to dismiss, Judge Sifton rejected reading
an intent requirement into the statute. See Strauss,
2006 WL 2862704, at *13, *17 (“The statute requires
only that the defendant knowingly provide material
support or resources to a foreign terrorist organization
and makes no mention of an intent to further the organization’s goals.” (quotation marks omitted)). This
holding is the law of the case and the court finds no
reason to disturb it. See Official Comm. of Unsecured
Creditors of Color Tile, Inc. v. Coopers & Lybrand,
LLP, 322 F. 3d 147, 167 (2d Cir. 2003) (previous

154a
holdings “may not usually be changed unless there is
an intervening change of controlling law, the availability of new evidence, or the need to correct a clear
error or prevent a manifest injustice” (quotation
marks omitted)). Thus, for the same reasons that
Judge Sifton determined that there is no intent requirement in the ATA, this court holds that Plaintiffs
need not prove that Defendant intended specifically to
support terrorist acts to be held liable under Section
2333(a).
Plaintiffs assert that they need to show only that
Defendant was reckless or willfully blind to the fact
that it was sending money to terrorists. (See Pls.’
Opp’n 15-16.) Defendant accepts, for purposes of its
motion only, that Plaintiffs can establish scienter by
showing willful blindness, but argues that recklessness is insufficient. (Def.’s Mem. 3; Reply Mem. of Law
of Def. in Further Supp. of its Mot. for Summ. J.,
Strauss Dkt. Entry 301 (“Def.’s Reply”) at 10.)
Plaintiffs urge the court to adopt the scienter
standard described in Boim III, which they argue supports a recklessness standard that is less demanding
than willful blindness. (See Pls.’ Opp’n 15-16.) However, the standard elucidated by the Seventh Circuit
in Boim III, while using the term “reckless,” appears
to be indistinguishable from willful blindness. In Boim
III, after explaining that the punitive treble damages
provision in Section 2333(a) suggests that Congress
sought to punish deliberate wrongdoing, the court
held:
To give money to an organization that commits terrorist acts is not intentional misconduct unless one either knows that the organization engages in such acts or is deliberately

155a
indifferent to whether it does or not, meaning
that one knows there is a substantial probability that the organization engages in terrorism but one does not care. When the facts
known to a person place him on notice of a
risk, he cannot ignore the facts and plead ignorance of the risk. That is recklessness and
equivalent to recklessness is wantonness,
which has been defined as the conscious doing
of some act or omission of some duty under
knowledge of existing conditions and conscious that from the doing of such act or omission of such duty injury will likely or probably
result.
Boim III, 549 F. 3d at 693 (internal citations and quotation marks omitted). Circuit Judge Richard A. Posner, writing for the Seventh Circuit’s en banc majority,
explained that, while “recklessness” can mean different things in different contexts, under the ATA “[t]he
mental element required to fix liability on a donor to
Hamas is therefore present if the donor knows the
character of that organization.” Id. at 695.
In Goldberg v. UBS AG, the court adopted the
Boim III recklessness standard and explained that:
Plaintiffs need not show that the defendant in
fact knew its actions would further terrorism.
Rather, it is sufficient to show that it knew
the entity had been designated as a terrorist
organization, and deliberately disregarded
that fact while continuing to provide financial
services to the organization with knowledge
that the services would in all likelihood assist
the organization in accomplishing its violent
goals.

156a
660 F. Supp. 2d 410, 428 (E.D.N.Y. 2009); see also Gill
v. Arab Bank, PLC, 2012 WL 4960358, at *31
(E.D.N.Y. Oct. 17, 2012) (“Gill I”) (“[I]t must be shown
that the defendant’s alleged actions were reckless,
knowing, or intentional.”); In re Terrorists Attacks on
Sept. 11, 2001, 740 F. Supp. 2d 494, 517 (S.D.N.Y.
2010) (“A defendant must either know that the recipient of the material support provided by him is an organization that engages in terrorist acts, or defendant
must be deliberately indifferent to whether or not the
organization does so, i.e., defendant knows there is a
substantial probability that the organization engages
in terrorism, but does not care.”).
Finally, in Linde v. Arab Bank, PLC, which Defendant urges this court to follow, the court explicitly
held that Section 2339B (and thus Section 2333(a)) “is
violated if the Bank provides material support in the
form of financial services to a designated foreign terrorist organization and the Bank either knows of the
designation or knows that the designated organization
has engaged or engages in terrorist activities.” 384
F. Supp. 2d 571, 585 n.8, 587 (E.D.N.Y. 2005).
The court fails to perceive much, if any, difference
between recklessness as described by the Seventh Circuit in Boim III and applied by the court in Goldberg,
and the standard the court described in Linde. Under
both formulations, it is apparent that, whether it is labelled willful blindness or recklessness, Plaintiffs
must show that Defendant knew or was deliberately
indifferent to the fact that CBSP was financially supporting terrorist organizations, meaning that Defendant knew there was a substantial probability that Defendant was supporting terrorists by hosting the
CBSP accounts and sending money at the behest of

157a
CBSP to the 13 Charities. See Boim III, 549 F. 3d at
693-94.
Viewing the record in the light most favorable to
Plaintiffs, there is a genuine issue of material fact as
to whether Defendant knew about or deliberately disregarded CBSP’s purported support of Hamas or Hamas front groups, and that, by sending money to the
13 Charities, it was facilitating Hamas’ ability to carry
out terrorist attacks.8 Defendant admittedly had concerns about CBSP’s accounts since at least 1997, and
placed the accounts under heightened scrutiny. (Goelman Decl. Ex. 11 at 21-22, 46.) There is also evidence
showing that these concerns may have been related to
CBSP’s possible connection to terrorist groups. In
2000 and 2001, Audren was sufficiently suspicious of
CBSP that he raised the matter with the CPML twice,
which itself was sufficiently concerned that it referred
CBSP to TRACFIN, the French governmental entity
in charge of policing money laundering and, arguably,
terrorism financing.9 (CL’s 56.1 Stmnt. ¶¶ 35, 50; Pls.’
56.1 Resp. ¶¶ 35, 50; Eckstut Decl. Exs. 17, 32.) In
2000, Audren admittedly was concerned about the

8
The court also is mindful that determining whether a given
state of mind existed is “generally a question of fact, appropriate
for resolution by the trier of fact . . . . The Second Circuit has been
lenient in allowing scienter issues to withstand summary judgment based on fairly tenuous inferences.” Press v. Chem. Inv.
Servs. Corp., 166 F. 3d 529, 538 (2d Cir. 1999) (quotation marks
omitted).
9

Defendant contends that TRACFIN was not responsible for
investigating terrorist financing during the relevant period, but
there is evidence on the record that French banking regulators
believed that concerns about terrorist financing should be reported to TRACFIN. (See Eckstut Decl. Ex. 66.)

158a
large influx of cash coinciding with a major escalation
of violence in Israel and Palestine. (CL’s 56.1 Stmnt.
¶¶ 20, 33; Pls.’ 56.1 Resp. ¶¶ 20, 33; CH Pls.’ 56.1
Stmnt. ¶ 3; CL’s 56.1 Resp. ¶ 3; Goelman Decl. Ex. 11
at 107-08.) In November 2001, on the heels of the September 11, 2001 terrorist attacks, Audren again noted
“the international context” in which his concerns arose
and urged “the potential repercussions on the image of
the CL lead us to ask ourselves whether or not to
maintain the accounts in our Establishment.” (Eckstut
Decl. Ex. 17.)
Audren more directly linked Defendant’s concerns
with CBSP’s accounts to possible international terrorist ties by telling French authorities in 2001 that he
was concerned about the CBSP accounts because of
“transfers to banks situated in Palestine or in Jordan
being made in favor of probably Islamist associations
with no visibility from our end.” (Goelman Decl. Ex.
87.) Audren later explained that he understands “Islamist” to mean “that it promotes a radical form of Islam. . . . Now without thinking that all persons who
are referred to as Islamists are potential terrorists certain events have demonstrated that certain branches
of this trend use violence.” (Goelman Decl. Ex. 15 at
54.) These concerns led Defendant by December 2001
to decide to close CBSP’s accounts and block transfers
from CBSP’s accounts from February 2002 until the
accounts were actually closed in 2003. (CL’s 56.1
Stmnt. ¶¶ 51, 89-90; Pls.’ 56.1 Resp. ¶¶ 51, 89-90.)
In August 2003, Defendant received confirmation
that CBSP arguably was raising money for Hamas,
when the OFAC announced that CBSP was a SDGT
because it was a primary fundraiser in France for Hamas. (CL’s 56.1 Stmnt. ¶¶ 116, 299-301; Pls.’ 56.1

159a
Resp. ¶¶ 116, 299-301; Israel Decl. Ex. 31 at 5.) It is
undisputed that the OFAC’s announcement was distributed within Defendant. (CH Pls.’ 56.1 Stmnt.
¶¶ 18, 20-22; CL’s 56.1 Resp. ¶¶ 18, 20-22.) Moreover,
a reasonable fact-finder could infer that Defendant’s
reaction to the announcement was not one of surprise
that CBSP had been identified as a supporter of a
FTO, but rather of frustration that the accounts had
not yet been closed because of the possible repercussions of hosting CBSP’s accounts. As one employee
said in an email after complaining that CBSP’s accounts remained open, “as one could foresee, this case
is taking on international proportions.” (Israel Decl.
Ex. 50 (emphasis added).)10 In light of this information, a reasonable fact-finder could come to the conclusion that Defendant knew of or was deliberately indifferent to its support of terrorism through its dealings with CBSP.
Such testimonial and documentary evidence from
Defendant’s employees relating to the same period as
the attacks at issue distinguishes this case from Gill
v. Arab Bank, PLC, 2012 WL 5395746 (E.D.N.Y. Nov.
6, 2012) (“Gill III”), where the Honorable Jack B.
10

Plaintiffs also assert that an incident where Defendant froze
a transfer from one of CBSP’s accounts in October 2001 to an organization called the “El Wafa Charitable Society-Gaza” demonstrates Defendant’s knowledge that its transfers on behalf of
CBSP were supporting terrorism. (See Pls.’ Opp’n 19.) However,
the blocking provides limited, if any, support for Plaintiffs, because there is no genuine dispute that Defendant blocked this
transaction because the organization had a name similar to the
Wafa Humanitarian Organization, which had been designated by
OFAC as a fundraiser for Al Qaeda, and that the two organizations are distinct. (See CL’s 56.1 Stmnt. ¶¶ 58-63, 80; Pls.’ 56.1
Resp. ¶¶ 58-63, 80.)

160a
Weinstein, Senior United States District Judge,
granted summary judgment in favor of the defendant
financial institution in an ATA action. In Gill, in opposition to the defendant’s motion for summary judgment, the plaintiff relied upon “a chain of inferences of
remote dates with little or no citation or documentation.” Id. at *15. For example, events that allegedly
put the defendant in Gill on “notice” that it was supporting Hamas-affiliated charities “took place in 2005
or earlier” and, therefore, had “no substantial probative force in proving the [defendant’s] intentions concerning an event that took place in 2008.” Id. at *16.
Here, there is considerable documentary and testimonial evidence showing Defendant’s knowledge of
CBSP’s possible terrorist affiliations from at least
2001 through 2003, which is contemporaneous to the
terrorist attacks at issue.
Defendant argues strenuously that it was suspicious only that CBSP’s accounts may have been used
for money laundering and did not suspect that CBSP
was funnelling money to a terrorist group. (See Def.’s
Mem. 6-10.) While the court agrees that this is a plausible interpretation of the record, the court cannot
adopt this interpretation as a matter of law. For example, Defendant has not pointed to any evidence showing that some other criminal activity was the source of
the money possibly being laundered by CBSP (for example, narcotics trafficking), while there is evidence
that it was concerned about the accounts, at least in
part, because money was being sent to “Islamist” organizations in Palestine during the Second Intifada. A
reasonable juror also could find incredible testimony
that Defendant was concerned only about the sources
of CBSP’s money, and not its destination. In

161a
particular, Audren testified that he thought that the
source of CBSP’s money was opaque, even though he
could determine the names of people sending money to
CBSP’s accounts, because he did not know the donors
“personally.” (Goelman Decl. Ex. 15 at 114-15.) A reasonable juror could find this explanation unbelievable,
because presumably Audren did not know personally
a significant number of donors to any non-profit. Thus,
by Audren’s definition, taken it to its logical extreme,
non-profits are per se suspicious and he should have
reported them all to TRACFIN.
Moreover, and perhaps most importantly, there is
no serious dispute that money laundering and terrorism are not mutually exclusive. It has been widely
acknowledged that they can go hand in hand, as one
certainly can be used to fund the other. (See Eckstut
Decl. Ex. 66.) In other words, even if Defendant sincerely believed that CBSP’s accounts were being used
to launder money, that does not show it could not have
thought that the accounts also were being used to support terrorism.
Defendant also asserts that it could not have
known that CBSP was funding a terrorist organization
because neither France nor the European Union have
ever sanctioned CBSP or charged it with supporting
terrorists, and French authorities cleared CBSP of any
crimes after Defendant filed its two declarations with
TRACFIN. (See Def.’s Mem. 4-5.) However, just because the French government and the European Union have decided that they have insufficient evidence
to sanction CBSP under their own governing law, does
not mean that CBSP was not supporting a terrorist

162a
organization for purposes of the ATA.11 While a reasonable jury could conclude that France and the European Union essentially are correct, and that there is
not sufficient evidence that CBSP was sending money
to terrorists, it would be perfectly reasonable for a jury
to disagree and side with the United States government’s assessments.
Thus, when viewing the record in the light most
favorable to Plaintiffs, there is a genuine issue of material fact as to whether Defendant knowingly provided material support to a terrorist organization.12
III. Proximate Causation and Article III Standing
A. Proximate Causation
Defendant asserts that Plaintiffs have failed to
raise a triable issue of fact of proximate causation

11

Indeed, the court notes that, according to Plaintiffs’ proposed expert, Dr. Matthew Levitt, French officials have resisted
banning CBSP, not because they dispute that CBSP is affiliated
with Hamas, but because Hamas also provides social welfare services. (Eckstut Decl. Ex. 102 at 34.) Levitt quotes from a 2005
letter written by then-Minister of Interior Nicholas Sarkozy to
the director of the Wiesenthal Center in Paris acknowledging
CBSP’s connection with Hamas: “[s]ome of the Palestinian organizations the CBSP works with are affiliated with the Hamas
movement, which is on the European list of terrorist organizations. The CBSP justifies these transfers, which are not a secret,
by the need for this structure to rely on partners that are reliable
and not corrupted.” (Id.)
12

Defendant also seeks to exclude the proposed expert testimony of Frances McLeod and Thierry Bergeras relating to the
question of Defendant’s scienter. (See Def.’s Mem. 15-18.) The
court need not decide this issue at this time because, even without the proposed expert testimony, there is a genuine issue of material fact as to Defendant’s state of mind.

163a
because there is insufficient evidence that the money
remitted to the 13 Charities from CBSP’s accounts
caused the terrorist attacks at issue. (See Def.’s Mem.
18-29.) Specifically, Defendant contends that Plaintiffs admittedly have no evidence that the money
transferred by Defendant to CBSP and the 13 Charities was used specifically to finance the terrorist attacks at issue. (See id. 19.) Defendant contends that
merely transferring money to the 13 Charities is not
sufficient to show causation without showing the
money was used to fund the attacks because the
money was sent through third parties, rather than directly to Hamas. (See id. 25-29.) Plaintiffs counter that
Defendant cannot escape liability by funding a terrorist group’s non-violent activities. (See Pls.’ Opp’n 31-32.)
Section 2333(a) provides for recovery by individuals injured “by reason of” international terrorism. 18
U.S.C. § 2333(a). Recently, the Second Circuit held
that the phrase “by reason of” requires that Plaintiffs
show that their damages were proximately caused by
Defendant. See Rothstein v. UBS AG, --- F. 3d ---, 2013
WL 535770, at *12 (2d Cir. 2013) (“We are not persuaded that Congress intended to permit recovery under § 2333 on a showing of less than proximate cause
. . . .”). In its holding, the court rejected the plaintiffs’
contention that the “‘by reason of’ language chosen by
Congress in creating a civil right of action under the
ATA was intended to permit recovery on a showing of
less than proximate cause, as the term is ordinarily
used.” Id. As the term is “ordinarily used,” proximate
cause requires a showing that Defendant’s actions
were “a substantial factor in the sequence of responsible causation,” and that the injury was “reasonably
foreseeable or anticipated as a natural consequence.”

164a
Lerner v. Fleet Bank, N.A., 318 F. 3d 113, 123 (2d Cir.
2003).
Here, there is a genuine issue of material fact as
to whether Defendant’s conduct is a proximate cause
of Plaintiffs’ injuries. A reasonable jury could conclude, based upon the evidence, that Defendant sent
millions of dollars to organizations controlled by Hamas, and was providing financial services to Hamas’
primary fundraiser in France. (See Israel Decl. Ex. 31
at 5; Eckstut Decl. Ex. 97 at 1-17.) There also is evidence that, during the same period, Hamas financed
and executed the attacks that injured Plaintiffs and/or
Plaintiffs’ family members. See infra § V. On this record, a reasonable juror could conclude that the sizable
amount of money sent from Defendant to Hamas front
organizations was a substantial reason that Hamas
was able to perpetrate the terrorist attacks at issue,
and that Hamas’ increased ability to carry out deadly
attacks was a foreseeable consequence of sending millions of dollars to groups controlled by Hamas. Cf. Gill
I, 2012 WL 4960358, at *31 (“A defendant who is deliberately indifferent to – that is, reckless with regard
to – facts that should put him on notice that his actions
are substantially likely to result in harm to American
nationals will be more likely have his actions be found
to be the proximate cause of any subsequent harm to
Americans. . . .”).13

13

In contrast, the monetary transfers and financial services at
issue in Gill took place years before the attack at issue. See Gill
III, 2012 WL 5395746, at *18, *26 (“No single or total transfer
highlighted by plaintiff establishes the requisite magnitude and
temporal connect on to the attack required to find that the Bank’s
actions proximately caused plaintiff’s injuries.”).

165a
None of Defendant’s counterarguments are convincing. Defendant asserts that the Second Circuit’s
decision in Rothstein requires this court to decide in
Defendant’s favor here. However, Rothstein is distinguishable from this case. In Rothstein, the plaintiff alleged that the defendant-financial institution provided
United States currency to the Iranian government.
2013 WL 535770, at *3. The Iranian government has
been designated a state sponsor of terrorism by the
United States government and it provides material
support to Hamas and Hezbollah. Id. at *1-2. The
plaintiffs were injured and/or had family members injured or killed in Hamas or Hezbollah attacks. Id. at
*4. To make a causation connection among the currency provided by the defendant to Iran, Iran’s support
of Hamas and Hezbollah, and the attacks at issue, the
plaintiffs alleged that Hezbollah and Hamas “needed
large sums of money to fund their operations; that
those organizations, by reason of their nature and the
existence of counterterrorism sanctions, could not
freely use normal banking services such as checks or
wire transfers; and that U.S. currency is a universally
accepted form of payment.” Id. at *10.
The Second Circuit held that these allegations,
along with conclusory allegations that the dollars the
defendant provided to the Iranian government “would
be used to cause and facilitate terrorist attacks by Iranian-sponsored terrorist organizations such as Hamas
[and] Hizbollah,” were not adequate to plead proximate causation. Id. at *14 (emphasis in original). This
connection is more attenuated than in the instant
case, where the money from Defendant was purportedly going directly to Hamas front-groups, rather than
to a government that performs myriad legitimate

166a
functions in addition to allegedly funding terrorist organizations. Cf. id. at *14 (“But the fact remains that
Iran is a government, and as such it has many legitimate agencies, operations, and programs to fund.”).
Here, Hamas carried out the attacks during the same
period of time within which the money was transferred, which, again, is distinguishable from Rothstein, where Iran did not carry out the attacks at issue.
These differences are meaningful because Congress has specifically found that “foreign organizations
that engage in terrorist activity are so tainted by their
criminal conduct that any contribution to such an organization facilitates that conduct.” Antiterrorism and
Effective Death Penalty Act of 1996, Pub. L. 104-32, §
301(a)(7), 110 Stat. 1214, 1247 (1996). The same thing
cannot be said about a government. See Rothstein v.
UBS AG, 772 F. Supp. 2d 511, 516 (S.D.N.Y. 2011)
(“[T]he Supreme Court’s finding that FTOs are so
tainted by their criminal conduct that any contribution to such an organization facilitates that conduct is
specific to FTOs. Such a finding does not necessarily,
or even probably, apply to state sponsors of terrorism.”), aff’d, 2013 WL 535770 (2d Cir. 2013). Indeed,
unlike here, in Rothstein, the Second Circuit explained
that “[t]he Complaint does not allege that [the defendant] was a participant in the terrorist attacks that injured plaintiffs. It does not allege that [the defendant]
provided money to Hizbollah or Hamas. It does not allege that U.S. currency [the defendant] transferred to
Iran was given to Hizbollah or Hamas.” Rothstein,
2013 WL 535770, at *14. Therefore, Rothstein does not
require judgment as a matter of law in favor of Defendant here.

167a
Defendant also maintains that there is no evidence that the money it provided to the 13 Charities
was used to fund the attacks at issue or even used to
support violence, rather than peaceful charitable activities. However, plaintiffs who bring an ATA action
are not required to trace specific dollars to specific attacks to satisfy the proximate cause standard. Such a
task would be impossible and would make the ATA
practically dead letter because “[m]oney is fungible.”
Holder v. Humanitarian Law Project, 130 S. Ct. 2705,
2725 (2010). As Judge Weinstein held in denying in
part a financial institution’s motion to dismiss Section
2333(a) claims, money transferred by the defendant
“need not be shown to have been used to purchase the
bullet that struck the plaintiff. A contribution, if not
used directly, arguably would be used indirectly by
substituting it for money in Hamas’ treasury; money
transferred by Hamas’ political wing in place of the donation could be used to buy bullets.” Gill I, 2012 WL
4960358, at *32; see also Boim III, 549 F. 3d at 698 (“If
Hamas budgets $2 million for terrorism and $2 million
for social services and receives a donation of $100,000
for those services, there is nothing to prevent its using
that money for them while at the same time taking
$100,000 out of its social services ‘account’ and depositing it in its terrorism ‘account.’”).
Indeed, the social services provided by Hamas and
its front groups are integral to building popular support for its organization and goals, which then facilitates its ability to carry out violent attacks. See Boim
III, 549 F. 3d at 698 (“Hamas’s social welfare activities
reinforce its terrorist activities both directly by providing economic assistance to the families of killed,
wounded, and captured Hamas fighters and making it

168a
more costly for them to defect (they would lose the material benefits that Hamas provides them), and indirectly by enhancing Hamas’s popularity among the
Palestinian population and providing funds for indoctrinating schoolchildren.”). That is why Congress
crafted the ATA to cut off all money to terrorist organizations, finding that they are fundamentally tainted
even if they also have non-violent public welfare operations.
The court also finds unconvincing Defendant’s argument that its alleged support for Hamas was indirect because the money went through CBSP and the
13 Charities. A jury could find that Defendant sent the
money to organizations that were controlled by Hamas, which is no different from sending the money directly to Hamas for purposes of the ATA. See Nat’l
Council of Resistance of Iran v. Dep’t of State, 251 F.
3d 192, 200 (D.C. Cir. 2001) (“Logically, indeed mathematically, if A equals B and B equals C, it follows that
A equals C. If the NCRI is the PMOI, and if the PMOI
is a foreign terrorist organization, then the NCRI is a
foreign terrorist organization also.”). To hold otherwise would “invite money laundering, the proliferation
of affiliated organizations, and two-track terrorism
(killing plus welfare).” Boim III, 549 F. 3d at 702.
Accordingly, a reasonable juror could decide that
Defendant’s actions proximately caused Plaintiffs’ injuries.
B. Hamas Alter Egos
Defendant asserts that, to show proximate causation, Plaintiffs must establish that the 13 Charities
were either alter egos of or controlled by Hamas, which
the evidence does not establish. (See Def.’s Mem. 20-

169a
24.) Plaintiffs contend that proposed testimony of
Plaintiffs’ experts, Dr. Mathew Levitt and Arieh
Spitzen, describing the connections between the 13
Charities and Hamas, is sufficient for a jury to determine that the 13 Charities are Hamas alter egos. (See
Pls.’ Opp’n 37-39.) Assuming, arguendo, that, to show
proximate causation, Plaintiffs must establish that at
least some of the 13 Charities are alter egos of Hamas
or under Hamas’ control, Plaintiffs have met their burden for purposes of Defendant’s summary judgment
motion.
In his decision granting in part and denying in
part Defendant’s motion to dismiss, Judge Sifton
adopted the holding in National Council of Resistance
of Iran v. Department of State, 373 F. 3d 152 (D.C. Cir.
2004), where then-United States Circuit Judge John
G. Roberts, Jr., writing for a panel of the D.C. Circuit,
addressed the question of when an entity is considered
an “alias” of a FTO for purposes of the statute granting
the Secretary of State power to designate FTOs. Specifically, the D.C. Circuit held that:
[O]rdinary principles of agency law are fairly
encompassed by the alias concept under
AEDPA. When one entity so dominates and
controls another that they must be considered
principal and agent, it is appropriate, under
AEDPA, to look past their separate juridical
identities and to treat them as aliases. . . .
Just as it is silly to suppose that Congress empowered the Secretary to designate a terrorist
organization only for such periods of time as
it took such organization to give itself a new
name, and then let it happily resume the
same status it would have enjoyed had it

170a
never been designated, so too is it implausible
to think that Congress permitted the Secretary to designate an FTO to cut off its support
in and from the United States, but did not authorize the Secretary to prevent that FTO
from marshaling all the same support via juridically separate agents subject to its control.
Nat’l Council of Resistance of Iran, 373 F. 3d at 157-58
(internal citation, quotation marks and alteration
omitted). In adopting the D.C. Circuit’s alter ego concept, Judge Sifton explained that “[f]actors to be considered include whether the organizations share leadership, whether they commingle finances, publications, offices, etc., and whether one operates as a division of the other.” See Strauss, 2006 WL 2862704, at
*10 (internal citations omitted). The parties do not dispute that this standard applies for purposes of Defendant’s motion for summary judgment.14
Considering the factors described by Judge Sifton
in Strauss and the record developed in this case thus
far, a reasonable jury could find that the 13 Charities
are operating as Hamas front groups. To cite a few examples:
•

The Islamic Center Gaza was founded by cofounders of Hamas. (Eckstut Decl. Ex. 102 (“Levitt
Supp. Report”) at 55-58.)

14

Defendant also recites the traditional factors for corporate
veil piercing, and asserts that Plaintiffs must satisfy these elements. While these factors may be similar to the factors listed by
Judge Sifton, the court questions whether legitimate corporations
are sufficiently analogous to terrorist groups such that every corporate veil piercing factor applies here.

171a
•

The Islamic Society Gaza was founded by Hamas’
founder; its chairman from 1985 to 2004 was a
senior Hamas leader who vocally has supported
Hamas’ terrorist attacks; the German intelligence
service has warned that the Islamic Society Gaza
is “closely associated with Hamas;” it has been
outlawed previously by both Israel and the Palestinian Authority because of its affiliation with Hamas; it supports Hamas’ ideology through, among
other things, the schools that it runs; and the Palestinian Ambassador in Saudi Arabia wrote a letter in 2000 to the Saudi government complaining
about Saudi donations to radical groups, including
Islamic Society Gaza, “which belongs to Hamas.”
(Id. 10-11, 58-62.)

•

The Al-Salah Society has been described by one
Hamas leader as “one of three charities that form
Hamas’ welfare arm;” the United States designated the Al- Salah Society as a SDGT in 2007 and
has accused it of financing Hamas’ terrorist
agenda by recruiting youth to support Hamas and
financing Hamas land purchases; it has been described as one of “our organizations” by a Hamas
operative; and its director for over a decade personally was designated as a SDGT, and has since
served as a minister for the Hamas government in
Gaza. (Id. 62-64.)

•

The Islamic Charitable Society-Hebron (“ICS”)
has been described by the German intelligence
service as “the most important Hamas association
on the West Bank;” current and former leaders
have been identified as Hamas operatives or have
worked with Hamas, including a member of ICS’s
administrative board; a one-time head of ICS was

172a
also the Hamas spokesman in Hebron and became
a senior strategist for Hamas; the directorate cochairman of ICS has been imprisoned for Hamasrelated activities; the head of the ICS’s Orphan
Branch was a member of Hamas’ leadership in
Hebron; schools run by the ICS purportedly instill
their pupils with Hamas’ values. (Id. 65-69.)
The expert reports submitted by Plaintiffs describe similar overlap among the rest of the 13 Charities and Hamas, including shared leadership and an
active support of Hamas’ ideology and goals. (See id.
72-89; see also Eckstut Decl. Ex. 103 (“Spitzen Report”)
at 36-142.) Though some of the 13 Charities share
stronger connections with Hamas than others, the reports paint a plausible picture of the 13 Charities as
interwoven with Hamas and crucial to its success.15
Thus, a reasonable jury could weigh the overlap and
mutual support evidence and determine whether the
13 Charities are alter egos of and/or are controlled by
Hamas.
C. Article III Standing
For similar reasons that it contends that Plaintiffs
have not shown proximate causation, Defendant asserts that Plaintiffs lack Article III standing. (See
Def.’s Mem. 18-19.) Article III, Section 2 of the United

15

Defendant tries to poke holes in the expert reports by pointing to alter ego factors where the evidence is weak or non-existent, including evidence (or lack thereof) relating to overlapping
bank accounts and the presence of non-Hamas members on the
13 Charities’ boards of directors. (See Def.’s Mem. 20-24.) This is
for a jury to weigh against the evidence described above supporting Plaintiffs’ contention that the 13 Charities are affiliated with
Hamas.

173a
States Constitution limits federal court jurisdiction to
the resolution of “cases” and “controversies.” There are
three elements necessary to show the “irreducible constitutional minimum of standing” under Article III:
First, the plaintiff must have suffered an injury in fact – an invasion of a legally protected
interest which is (a) concrete and particularized, and (b) actual or imminent, not conjectural or hypothetical. Second, there must be a
causal connection between the injury and the
conduct complained of . . . . Third, it must be
likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.
McCormick v. Sch. Dist. of Mamaroneck, 370 F. 3d
275, 284 (2d Cir. 2004) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560-61 (1992) (citations, footnote, and internal quotation marks omitted)). To show
a sufficient causal connection for purposes of Article
III standing, Plaintiffs must show that their injuries
are “fairly . . . trace[able] to the challenged action of
the defendant.” Lujan, 504 U.S. at 560 (alterations in
original). “[T]he test for whether a complaint shows
the ‘fairly traceable’ element of Article III standing imposes a standard lower than proximate cause.” Rothstein, 2013 WL 535770, at *9.
In this case, for the same reasons that there are
triable proximate causation issues, a fortiori, there is
sufficient evidence that Plaintiffs’ injuries are fairly
traceable to Defendant’s conduct. Plaintiffs have set
forth evidence in the record that Defendant sent, at
the behest of CBSP, over $2 million to Hamas front
organizations, the 13 Charities, between 1997 and
2003. (See Eckstut Decl. Ex. 97 at 1-17; supra § III.A.)

174a
Moreover, Defendant performed financial services to
CBSP, an organization labelled as a primary fundraiser for Hamas in France (see Israel Decl. Ex. 31 at
5), over the same period, and remitted to CBSP hundreds of thousands of dollars upon closing its accounts
in 2003. (See Eckstut Decl. Ex. 62.) Finally, as discussed infra § V, there is evidence that Hamas executed terrorist attacks injuring Plaintiffs during the
same period as these transfers.
Accordingly, Plaintiffs have Article III standing.
D. Expert Testimony
Defendant asserts that, even if Levitt’s and
Spitzen’s proposed testimony were sufficient to show
proximate cause and Article III standing, the proposed
testimony is inadmissible. Specifically, Defendant attacks the proposed expert testimony on five grounds:
1) the testimony is irrelevant; 2) the testimony is repackaged hearsay; 3) Levitt’s proposed testimony is
not supported sufficiently by his sources and he did not
consider any alternative conclusions that could be
drawn from those sources; 4) Spitzen employs no accepted, peer reviewed or verifiable methodology; and
5) Levitt and Spitzen offer improper legal conclusions.
(See Def.’s Mem. 24, 30-34.)
Federal Rule of Evidence 104(a) provides that the
admissibility of expert testimony is a preliminary
question of law for the court to determine. See Daubert
v. Merrell Dow Pharm., Inc., 509 U.S. 579, 592 (1993).
In Daubert, the Supreme Court explained that the
trial judge must perform a “gatekeeping” function to
ensure that the expert testimony “both rests on a reliable foundation and is relevant to the task at hand.”
509 U.S. at 597. It is, therefore, proper for district

175a
courts to screen out inadmissible expert testimony on
summary judgment:
Because the purpose of summary judgment is
to weed out cases in which “there is no genuine issue as to any material fact and . . . the
moving party is entitled to a judgment as a
matter of law,” Fed. R. Civ. P. 56(c), it is appropriate for district courts to decide questions regarding the admissibility of evidence
on summary judgment. Although disputes as
to the validity of the underlying data go to the
weight of the evidence, and are for the factfinder to resolve, questions of admissibility
are properly resolved by the court.
Raskin v. Wyatt Co., 125 F. 3d 55, 66 (2d Cir. 1997)
(internal citations omitted). This is true even if the exclusion of expert testimony would be outcome determinative. See Gen. Elec. Co. v. Joiner, 522 U.S. 136, 14243 (1997) (rejecting “[the] argument that because the
granting of summary judgment in [a] case [may be]
‘outcome determinative,’ [the exclusion of expert testimony] should [be] subjected to a more searching standard of review.”).
As discussed below, Defendant’s request that the
court exercise its gatekeeping function and discard
Levitt’s and Spitzen’s proposed expert testimony for
purposes of Defendant’s summary judgment motion is
denied.16

16

This decision that the expert testimony is admissible for
purposes of summary judgment is without prejudice, and Defendant is free to renew its challenge to the admissibility the witnesses’ testimony via voir dire at trial.

176a
1.

Relevance

Defendant contends that Levitt’s and Spitzen’s
proposed testimony is inadmissible because neither
addresses the relevant factors for determining alter
ego or control status. (Def.’s Mem. 30.) In fulfilling the
court’s gatekeeping role with respect to expert testimony, “the trial court should look to the standards of
Rule 401 in analyzing whether proffered expert testimony is relevant, i.e., whether it has any tendency to
make the existence of any fact that is of consequence
to the determination of the action more probable or
less probable than it would be without the evidence.”
Amorgianos v. Nat’l R.R. Passenger Corp., 303 F. 3d
256, 265 (2d Cir. 2002) (quotation marks and alteration omitted).
Here, the proposed expert testimony tends to
make the existence of Hamas’ control over the 13
Charities more probable, because, upon consideration
of the proposed testimony about the connections
among the 13 Charities and Hamas, a reasonable jury
could determine that they are alter egos of Hamas.
The proposed expert testimony may not align perfectly
with the relevant control factors, but the proposed experts describe in detail, among other things, the origins of the 13 Charities and their personnel overlap
with Hamas, all of which is evidence a jury can rely on
to find they are Hamas front groups. As Judge Weinstein held in admitting testimony by Levitt, Spitzen
and other terrorism experts in Gill, “[w]ith so many
vectors at play – most of which will not be familiar to
jurors – a wide gateway to large amounts of evidence
must be provided. Jurors will not have the broad background knowledge and hypotheses they bring to bear
in run-of-the-mill cases within their ken.” Gill v. Arab

177a
Bank, PLC, 2012 WL 5177592, at *1 (E.D.N.Y. Oct. 19,
2012) (“Gill II”). Accordingly, Spitzen’s and Levitt’s
testimony is relevant.
2.

Hearsay

Defendant asserts that Levitt’s and Spitzen’s proposed testimony is repackaged hearsay from secondary sources, and, thus, is an impermissible end-run
around the Federal Rules of Evidence. (See Def.’s
Mem. 30.) Pursuant to the Federal Rules of Evidence:
An expert may base an opinion on facts or
data in the case that the expert has been
made aware of or personally observed. If experts in the particular field would reasonably
rely on those kinds of facts or data in forming
an opinion on the subject, they need not be admissible for the opinion to be admitted.
Fed. R. Evid. 703. Although an expert may rely upon
inadmissible hearsay, the expert “must form his own
opinions by applying his extensive experience and a
reliable methodology to the inadmissible materials.
Otherwise, the expert is simply repeating hearsay evidence without applying any expertise whatsoever, a
practice that allows the [party] to circumvent the rules
prohibiting hearsay.” United States v. Mejia, 545 F. 3d
179, 197 (2d Cir. 2008) (quotation marks and internal
citations omitted).
However, courts in this circuit have admitted testimony from experts based upon hearsay analyzing
the “origin, leadership, and operational structure” of
terrorist organizations, analogizing such testimony “to
the type of expert testimony regularly permitted by
the United States Court of Appeals for the Second Circuit in cases involving organized crime families.”

178a
United States v. Paracha, 2006 WL 12768, at *21
(S.D.N.Y. Jan. 3, 2006) (citing United States v. Amuso,
21 F. 3d 1251, 1263-64 (2d Cir. 1994); United States v.
Locascio, 6 F. 3d 924, 936 (2d Cir. 1993); United States
v. Daly, 842 F. 2d 1380, 1388 (2d Cir. 1988)), aff’d, 313
F. App’x 347 (2d Cir. 2008). Indeed, courts, including
this one, have allowed Levitt to testify about similar
terrorist organizational matters over objections that
his testimony only repeated inadmissible hearsay. See
United States v. Damrah, 412 F. 3d 618, 625 (6th Cir.
2005) (Affirming district court’s holding that Levitt’s
reliance upon hearsay was permissible because,
“[g]iven the secretive nature of terrorists, the Court
can think of few other materials that experts in the
field of terrorism would rely upon.”); United States v.
Hammoud, 381 F. 3d 316, 336-38 (4th Cir. 2004) (en
banc) (Affirming admission of Levitt’s testimony describing Hezbollah’s structure and leadership.), rev’d
on other grounds, 543 U.S. 1097 (2005); United States
v. Defreitas, 2011 WL 317964 (E.D.N.Y. Jan. 31, 2011)
(Admitting Levitt’s testimony about “background information on Hezbollah and that group’s longstanding
presence in South America and its efforts to secure financing, recruit operatives and conduct terrorist attacks.” (quotation marks omitted)). Additionally, as
stated above, in Gill, Judge Weinstein also held that
similar testimony about Hamas’ organizational structure from both Levitt and Spitzen were admissible,
notwithstanding objections that their reports relied
upon inadmissible evidence. Gill II, 2012 WL 5177592,
at *6.
Here, while both Levitt and Spitzen rely in large
part upon sources such as news reports and academic
materials that are hearsay, and portions of their

179a
reports appear to be repetition of other secondary
sources, their proposed testimony generally is admissible. Their reports do not only regurgitate the hearsay, but bring to bear their terrorism expertise, and
the types of sources they use are reasonably relied
upon by experts in the field. For example, rather than
just cut and paste or summarize what others have said
about Hamas, Levitt uses the information to opine
that social welfare organizations affiliated with Hamas are crucial to its ability to carry out terrorist attacks. (See Levitt Supp. Report 2.) He uses his expertise to describe the leadership structures of Hamas
and the 13 Charities, and thus how the 13 Charities
are connected to Hamas. (Id. 2-3.) Moreover, as other
courts have noted in the past, it is reasonable that an
expert in terrorism would have to rely on hearsay as
opposed to relying solely on fieldwork, as terrorist organizations necessarily are secretive and dangerous,
and there may be political reasons against meeting
with reputed terrorists. (See Goelman Decl. Ex. 125 at
111 (Levitt’s testimony that, while he has met with
Hamas members who are in jail, he does not meet with
those who are not in jail because he does not want to
create the impression, as a former government official,
that he was opening up a back channel between the
United States government and Hamas).)
Spitzen also analyzes sources, including both primary and secondary sources, and makes conclusions
about the structure of Hamas and its affiliations with
the 13 Charities based upon his professional expertise.
Spitzen goes beyond rehashing secondary sources, and
analyzes factors he believes are important in determining whether each of the 13 Charities is controlled
by Hamas. (See, e.g., Spitzen Report 48-59 (discussing

180a
the Islamic Society-Gaza (one of the 13 Charities) and
concluding that it is “controlled by Hamas.”)
This testimony by Levitt and Spitzen is precisely
the type of analysis of a criminal group’s organization
and leadership of criminal groups that courts have admitted in the past. Thus, their reliance on hearsay
does not preclude their testimony, as it is “less an issue
of admissibility for the court than an issue of credibility for the jury.” Locascio, 6 F. 3d at 938.
3.

Levitt’s
Sources
Explanations

and

Alternative

Defendant also opposes the admission of Levitt’s
proposed testimony because his sources are insufficient to support his conclusions and he did not consider alternative explanations for the information
upon which he relied. (Def.’s Mem. 31-32.) Defendant
contends that Levitt could not rely upon secondary
sources rather than fieldwork, because other experts
have performed fieldwork and come to different conclusions from Levitt, which Levitt fails to consider.
(Id.) Defendant further asserts that Levitt mischaracterizes his sources and they actually do not support his
conclusions. (Id.)
In considering whether expert testimony is admissible, “[a] district court must determine whether the
proffered testimony has a sufficiently reliable foundation to permit it to be considered.” Amorgianos, 303 F.
3d at 265 (quotation marks omitted). “In short, the district court must make certain that an expert, whether
basing testimony upon professional studies or personal experience, employs in the courtroom the same
level of intellectual rigor that characterizes the practice of an expert in the relevant field.” Id. at 265-66

181a
(quotation marks omitted). In other words, expert testimony should be excluded if it is “speculative or conjectural,” or if is based on assumptions that are “‘so
unrealistic and contradictory as to suggest bad faith’
or to be in essence an ‘apples and oranges comparison.’” Boucher v. U.S. Suzuki Motor Corp., 73 F. 3d 18,
21 (2d. Cir. 1996) (quoting Shatkin v. McDonnell
Douglas Corp., 727 F. 2d 202, 208 (2d Cir. 1984)).
The purported flaws in Levitt’s report described
by Defendant are insufficient to render his report inadmissible. As support for its contention that other experts have done more extensive field work, Defendant
provides a laundry list of books and articles that Defendant argues are based on primary sources and contradict Levitt’s conclusions. (See Def.’s Mem. 31; Def.’s
56.1 Stmnt. ¶ 385.) However, the court is not convinced that the materials Defendant cites to conclusively contradict Levitt’s report such that his failure to
discuss these articles could render his report fundamentally flawed, and there appears to be a genuine
dispute over how much of the materials are based
upon “field work.” (See Pls.’ 56.1 Resp. ¶ 385.) Notably,
Defendant may cross-examine the expert concerning
the evidence or lack of evidence upon which his opinion is based.
Similarly, Defendant’s assertions that Levitt mischaracterizes certain of his sources and that other conclusions lack support, do not appear to undermine his
basic conclusion that Hamas exerts certain degrees of
control over the 13 Charities. Rather, Defendant takes
issue generally with statements that do not have an
immediate citation, but are supported elsewhere in
the report (see Pls.’ 56.1 Resp. ¶ 390), or are relatively
minor misquotes. (See id. ¶ 401.) Additionally, in

182a
support of its contention that Levitt did not properly
vet his sources, Defendant only points to two sources,
and there is a genuine dispute as to how thoroughly
Levitt vetted those two sources. (Def.’s Mem. 32; Def.’s
56.1 Stmnt. ¶¶ 420-30; Pls.’ 56.1 Resp. ¶¶ 420-30.) At
most, these issues raise questions about Levitt’s credibility that can be tested on cross-examination during
trial and are up to the jury to resolve. Amorgianos, 303
F. 3d at 267 (“[O]ur adversary system provides the
necessary tools for challenging reliable, albeit debatable, expert testimony. As the Supreme Court has explained, ‘[v]igorous cross-examination, presentation of
contrary evidence, and careful instruction on the burden of proof are the traditional and appropriate means
of attacking shaky but admissible evidence.’” (quoting
Daubert, 509 U.S. at 596)).
4.

Spitzen’s Methodology

Defendant next contends that Spitzen’s proposed
expert testimony should be rejected because he does
not employ an accepted, peer reviewed methodology.
(Def.’s Mem. 32-33.) More specifically, Defendant asserts that Spitzen invented his own 18-factor test to
determine whether the 13 Charities are alter egos or
controlled by Hamas, and he does not apply his test
consistently. (Id. 32-34.) It is well settled that “[u]nder
Daubert and Rule 702, expert testimony should be excluded if the witness is not actually applying expert
methodology.” United States v. Dukagjini, 326 F. 3d
45, 54 (2d Cir. 2003). District courts may consider factors such as:
(1) whether a theory or technique can be (and
has been) tested; (2) whether the theory or
technique has been subjected to peer review
and publication; (3) a technique’s known or

183a
potential rate of error, and the existence and
maintenance of standards controlling the
technique’s operation; and (4) whether a particular technique or theory has gained general acceptance in the relevant scientific community.
Amorgianos, 303 F. 3d at 266 (internal citations and
quotation marks omitted). However, these factors are
not a “definitive checklist or test,” as the court’s inquiry is a “flexible one,” that “must be tied to the facts
of a particular case.” Id.
While there may be legitimate questions as to
whether Spitzen’s 18-point test demonstrates definitively that the 13 Charities are alter egos under the
standard previously discussed (see supra § III.B), his
methodology is supported sufficiently to be admissible.
Spitzen testified that the factors he used in his test are
based upon those used by law enforcement authorities
and other experts in determining whether an entity is
controlled by Hamas, and that his methodology was
approved by the Israel Security Agency (“ISA”), a government security agency where Spitzen worked. (Goelman Decl. Ex. 128 at 430-31, 440-41.) The court finds
this testimony sufficient to establish admissibility for
purposes of summary judgment. Indeed, Defendant
fails to point to any factors that are unreliable or are
different from those used by other experts in the field.
As Judge Weinstein held in admitting Spitzen’s testimony in Gill, “Mr. Spitzen’s eighteen-factor analysis
encompasses categories of information generally considered by experts who analyze entities believed to act
for terrorist entities. His methodology passes muster
under Daubert and Rule 702.” Gill II, 2012 WL
5177592, at *6.

184a
Contrary to Defendant’s conclusion that Spitzen
purposely ignored certain factors in analyzing several
of the 13 Charities, Spitzen’s omission of these factors
appears to be the unsurprising result of the unavailability of certain information. Finally, the court does
not consider Spitzen’s somewhat subjective weighing
of the evidence supporting his factors as a fatal methodological flaw. Spitzen’s expertise is in a social science field where there are not the type of hard data
and neat conclusions that would be expected with a
hard science. Thus, Spitzen’s proposed testimony is
admissible.
5.

Legal Conclusion

Defendant also asserts that Levitt’s and Spitzen’s
proposed testimony is inadmissible because they make
legal conclusions that the 13 Charities are alter egos
of Hamas. (See Def.’s Mem. 24.) The court must determine whether expert testimony will “usurp either the
role of the trial judge in instructing the jury as to the
applicable law or the role of the jury in applying that
law to the facts before it.” United States v. Lumpkin,
192 F. 3d 280, 289 (2d Cir. 1999). “In evaluating the
admissibility of expert testimony, [the Second Circuit]
requires the exclusion of testimony which states a legal conclusion.” United States v. Duncan, 42 F. 3d 97,
101 (2d Cir. 1994).
The court finds that Levitt’s and Spitzen’s reports
do not state legal conclusions. Levitt’s report provides
information and analysis on the structure of Hamas
and its connections with the 13 Charities, but it does
not provide any conclusions that these connections
satisfy the legal alter ego standard or otherwise describe the legal requirements of establishing that the
13 Charities are alter egos of Hamas.

185a
Spitzen’s 18-factor test purporting to show
whether an organization is “controlled by Hamas, only
supports Hamas or coincidentally employs one or more
members of Hamas,” (Spitzen Report 4-5), also does
not define the legal definition of alter ego, as the test
does not track courts’ definition of alter ego or separately try to legally define the term alter ego. See Duncan, 42 F. 3d at 101-02 (expert testimony not impermissible legal conclusion where expert did not “use
any legally specialized terms” that tracked the relevant statute). Therefore, this case is different from the
case Defendant cites, Pereira v. Cogan, 281 B.R. 194
(S.D.N.Y. 2002). In Pereira, unlike here, the expert report at issue actually sought “to define the term ‘alter
ego,’” which would have usurped the court’s function.
Id. at 199-200. Instead, Spitzen presents an 18-factor
test that he based on his experience in law enforcement, which leaves for to the jury to decide whether
satisfying some or all of the factors makes the 13 Charities alter egos of Hamas under the legal definition
provided by this court. Thus, at this stage, the court
finds that Spitzen’s expert testimony could assist the
jury in deciding whether Plaintiffs have demonstrated
that the 13 Charities are alter egos of Hamas, without
intruding on the exclusive fact finding province of the
jury or the legal determinations of the court. See Gill
II, 2012 WL 5177592, at *6 (Spitzen’s “report and testimony will aid the jury in understanding issues related to the Bank’s conduct and state of mind.”).
Accordingly, Levitt’s and Spitzen’s testimony do
not state legal conclusions and are admissible.

186a
IV. Section 2339B Claim
Defendant seeks to dismiss Plaintiffs’ Section
2339B claim on the ground that Plaintiffs must show
Defendant gave support directly to a FTO, reiterating
that the 13 Charities are not Hamas alter egos. (Def.’s
Mem. 34.) As discussed above, this assertion is without merit because Plaintiffs have shown that there is
a material issue of fact as to whether the 13 Charities
are Hamas alter egos.17
V. Hamas’ Responsibility for the Attacks
Defendant asserts that, based on the admissible
evidence, no reasonable trier of fact could find that Hamas is responsible for the fifteen attacks at issue in
this case. (Def.’s Mem. 35-50.) Defendant strenuously
argues that the testimony of Plaintiffs’ proposed experts supporting Plaintiffs’ contention that Hamas is
responsible for the fifteen attacks (Ronni Shaked and
Evan Kohlmann) is inadmissible because the experts:
1) are unqualified; 2) aggregate inadmissible hearsay;
3) opine on topics that are not proper subjects of expert
testimony; and/or 4) do not utilize a sufficient methodology under Daubert. (Id. 35-48.) Defendant further
17

The court also notes that Plaintiffs do not and could not assert a claim directly under Section 2339B, but rather bring claims
under Section 2333(a). Section 2339B imposes criminal penalties
and does not provide for an independent private cause of action.
See 18 U.S.C. § 2339B. Plaintiffs can prove that they have a claim
under Section 2333(a) by showing that Defendant violated Section 2339B, so long as knowledge and causation are shown, because such “conduct would certainly be sufficient to meet the definition of ‘international terrorism’ under sections 2333 and 2331.”
Boim I, 291 F. 3d at 1015. However, the claim is still brought
pursuant to Section 2333(a) and not Section 2339B. (See Strauss
3d Am. Compl. ¶¶ 676-81; Wolf Compl. ¶¶ 415-20.)

187a
maintains that the evidence upon which Shaked and
Kohlmann rely is inadmissible and, thus, if the court
strikes their proposed testimony, Plaintiffs will have
no evidence showing that Hamas is responsible for the
attacks. (Id. 48-50.) For the reasons set forth below,
the court finds that certain portions of the proposed
testimony of Shaked and Kohlmann are inadmissible.
However, Plaintiffs have presented sufficient independently admissible evidence to create a genuine issue of material fact as to whether Hamas perpetrated
fourteen of the fifteen attacks.
A. Shaked
Plaintiffs submit a report from Ronni Shaked,
who has worked as an analyst and commentator for
Yedioth Ahronoth, a major Israeli newspaper, covering
terrorism and security-related subjects. (Eckstut Decl.
Ex. 130 (“Shaked Supp. Report”) at 1.) In addition, between 1969 and 1982, Shaked worked for the ISA, the
security agency responsible for the “war against terror” in Israel and Palestine, where he held the positions of Commander of the Jerusalem Sector and Commander of the Ramallah Sector. (Id.) In his report,
Shaked generally describes how Hamas typically publicizes its terrorist attacks and the resulting Israeli investigations. (Id. 3-16.) For each of the fifteen attacks,
Shaked analyzed various materials, including news
reports, claims of responsibility by Hamas through its
reputed websites, video “wills” of suicide bombers, documents issued by the ISA, convictions from Israeli
courts and, for some of the attacks, his interviews with
Hamas operatives. (See id. 28-140; Eckstut Decl. Ex.
132 (“Shaked Supp. Report for Mar. 7, 2003 Attack”)
at 1-10.) Based upon these materials, Shaked gives his
opinion, with varying degrees of certainty, that Hamas

188a
is responsible for each of the fifteen terrorist attacks.
(See Shaked Supp. Report 28-140; Shaked Supp. Report for Mar. 7, 2003 Attack 9.)
Defendant asserts that Shaked is unqualified and
that his opinions are not based upon a reliable methodology as required by Daubert. (See Def.’s Mem. 3842.) This contention lacks merit. Shaked has established that he has specialized “knowledge, skill, experience, training, or education,” about Hamas. Fed. R.
Evid. 702. Among other things, he served for over a
decade in the ISA, has worked as a consultant for the
FBI, authored a published book about Hamas and covered Palestinian affairs and terrorism for Israel’s largest newspaper for over twenty years. (Shaked Supp.
Report at 1-2.)
Moreover, Shaked’s analysis appears to comport
with the “same level of intellectual rigor that characterizes” a terrorism expert. Paracha, 2006 WL 12768,
at *19. He states that his findings are based upon multiple sources of information, including interviews and
reviews of secondary materials, and he has crosschecked his findings against other sources of information (see Shaked Supp. Report at 3-4), which is similar to what other courts have held is a typical methodology accepted among and used by terrorism experts. See Gill II, 2012 WL 5177592, at *4-5; Paracha,
2006 WL 12768, at *20.
Defendant avers that Shaked’s opinion as to
whether Hamas committed each of the attacks is an
inappropriate topic for expert testimony and is an improper summary of inadmissible testimony. (Def.’s
Mem. 36-38.) Plaintiffs respond that Shaked’s testimony is similar to testimony that has been admitted
in other terrorism cases, and is particularly

189a
appropriate here where Hamas operates, in part, covertly on a different continent. (Pls.’ Opp’n 42-44.)
Under the Second Circuit’s decision in United
States v. Mejia, much of Shaked’s testimony is inadmissible because it does not require expert knowledge.
In Mejia, the Second Circuit held that testimony by a
government expert that the “unspecified deaths of
eighteen to twenty-three persons have been homicides
committed by members of” a certain gang was outside
the scope of appropriate expert testimony pursuant to
Federal Rule of Evidence 702, because it repeated evidence that was understandable to a layperson. 545
F. 3d at 195-96. However, the court held that the expert could testify about how evidence admitted
through a lay witness connected the murders to the
gang. Id. at 195. For example, the expert could provide
an “explanation of how the graffiti near a body indicated that the murderer was a member of [the gang],”
or “testimony that the gang used a particular method
to kill enemies and that as a result of his review of the
autopsy reports (which would have been in evidence
before the jury), he had concluded that [the gang] committed those murders.” Id.18
Here, significant portions of Shaked’s proposed
testimony appear to summarize factual, non-technical
materials. For example, Shaked repeats at length
postings on websites and describes video “wills” he has

18

Contrary to Plaintiffs’ suggestion otherwise, (see Pls.’ Opp’n
42), the holding in Mejia was based on both Federal Rule of Evidence 702 as well as the Confrontation Clause, and, therefore, its
holding applies in civil cases. See CIT Group/Business Credit,
Inc. v. Graco Fishing & Rental Tools, Inc., 815 F. Supp. 2d 673,
678 (S.D.N.Y. 2011) (relying upon Mejia in civil case).

190a
watched of purported Hamas suicide bombers before
some of the attacks at issue, which Plaintiffs use to establish as fact Hamas’ responsibility for the attacks.
These materials apparently largely consist of Hamas
boasting about and promoting their involvement in
various attacks. For example, in support of his conclusion that Hamas was responsible for the March 27,
2002 suicide bombing in the Park Hotel in Netanya,
Shaked summarizes an announcement that appeared
on the internet using Hamas letterhead. Shaked
quotes the substance of the announcement that basically describes the attack, praises the suicide bomber
and states that Hamas’ military wing, the Izz al-Din
al-Qassam Brigades, is responsible for the attack. (See
Shaked Supp. Report 29.) If the announcement were
otherwise admissible, Shaked could use his expertise
to explain, for example, that the logo on the letterhead
is Hamas’, how Hamas typically makes announcements over the internet or that the Izz al-Din al-Qassam Brigades is Hamas’ military branch. Such testimony might provide helpful context for the jury, akin
to using expertise on gang violence to explain that
graffiti near a dead body indicates that a member of a
gang is the murderer. However, under Mejia, attribution testimony cannot be used as an excuse to introduce and summarize straightforward factual evidence
that has not been admitted, such as a webpage that
says “Hamas carried out a suicide bombing.” Thus,
while Shaked can put factual evidence in context to
help Plaintiffs establish that Hamas is responsible for
an attack, he cannot be used to establish basic facts in
the first place. See Mejia, 545 F. 3d at 196 (“Expert
testimony might have been helpful in establishing the
relationship between these facts and [the gang], but it
was not helpful in establishing the facts themselves.”).

191a
The court declines Plaintiffs’ invitation to follow
the Seventh Circuit’s holding in Boim III that an expert’s opinion based upon unauthenticated documents, such as Hamas-affiliated websites, an unsigned set of notes prepared by a United States foreign
service officer who attended the trial of the Hamas operative convicted in the attack, and an Arabic-language document that purportedly was the written conviction and sentence of the alleged perpetrator of the
attack, established, as a matter of law, Hamas’ responsibility for an attack. 549 F. 3d at 703-05. This holding,
which determined merely that the district court did
not abuse its discretion in admitting the expert’s testimony, cannot be squared with Mejia, as Boim III
would allow a party to prove responsibility for an attack without first building a proper evidentiary foundation.19 As United States Circuit Judge Ilana D. Rovner, joined by United States Circuit Judges Diane P.
Wood and Ann C. Williams, explained in concurring in
part and dissenting in part from the majority en banc
panel in Boim III, such an expert report purporting to
attach responsibility for an attack “is meaningless
without reference to the websites and documents that
he so heavily relied upon in forming his opinion, and
yet allowing [the expert] to recount what those sources
19
The court also is unconvinced by Plaintiffs’ arguments based
on other cases from outside this circuit that “courts routinely permit expert attribution in terrorism cases.” (Pls.’ Opp’n 44 (emphasis omitted).) As Defendant correctly asserts, in Flatow v. Islamic
Republic of Iran, 999 F. Supp. 1 (D.D.C. 1998), Belkin v. Islamic
Republic of Iran, 667 F. Supp. 2d 8 (D.D.C. 2009), Peterson v. Islamic Republic of Iran, 264 F. Supp. 2d 46 (D.D.C. 2003) and Beer
v. Islamic Republic of Iran, 574 F. Supp. 2d 1 (D.D.C. 2008), the
defendant, Iran, defaulted and there was no discussion of the admissibility of attribution testimony.

192a
say without establishing their authenticity and trustworthiness would contradict the basic requirement
that expert opinion have ‘a reliable foundation.’” Id. at
715 (Rovner, J., concurring in part and dissenting in
part) (quoting Daubert, 509 U.S. at 597).
Thus, Plaintiffs cannot use Shaked’s opinions to
establish a genuine issue of material fact as to Hamas’
responsibility for the fifteen attacks without first
building a proper foundation.
B. Kohlmann
As with Shaked, Defendant contends that Kohlmann’s testimony is inadmissible because he is unqualified, his methodology is unreliable, and his report
merely aggregates inadmissible and unauthenticated
materials. (See Def.’s Mem. 42-48.) Plaintiffs respond
that Kohlmann has studied terrorism extensively and
his methods have been approved by other courts. (Pls.’
Opp’n 46-47.)
As with Shaked, the court finds that Kohlmann is
qualified as a terrorism expert and that his methodology is sufficiently reliable. Among other things, he is
the author of a textbook on terrorism that is used in
graduate level courses at Harvard University’s Kennedy School of Government and Princeton University,
and oversees one of the largest digital collections of
terrorist multimedia and propaganda in the world.
(See Eckstut Decl. Ex. 159 (“Kohlmann Report”) at 3.)
Notably, Kohlmann has testified as an expert in sixteen cases in federal courts and before the Guantanamo Bay military commissions. (Id. 3-4.) Moreover,
his research and archival methodology appear to be
consistent with those in the terrorist field, as other
courts have recognized. See Paracha, 2006 WL 12768,

193a
at *20 (“Although Kohlmann’s methodology is not
readily subject to testing and permits of no ready calculation of a concrete error rate, it is more reliable
than a simple cherry-picking of information from websites and other sources.”); United States v. Kassir,
2009 WL 910767, at *6-7 (S.D.N.Y. Apr. 2, 2009) (rejecting argument that Kohlmann’s methodology is unreliable); see also Gill II, 2012 WL 5177592, at *5
(“[Expert’s] analysis of Internet-based material is
rooted in the methodology employed by other experts
in his field.”).
However, part of Kohlmann’s proposed testimony
is inadmissible. The first portion of his report gives
background on Hamas, focusing on a description of its
use of propaganda and its websites. (See Kohlmann
Report at 9-28.) This part of the report is background
information that is admissible and an appropriate subject for an expert opinion, (see supra § III.D), and is
similar to testimony that Kohlmann has been allowed
to give in the past. See Paracha, 2006 WL 12768, at
*21-22; Kassir, 2009 WL 910767, at *7 (Holding that
Kohlmann’s “testimony on the origins, history, structure, leadership and various operational methods of al
Qaeda and other terrorist groups is sufficiently reliable.”). The rest of the report, however, is nothing more
than a recitation of secondary evidence, not all of
which is admissible (see infra § V.C), that Hamas perpetrated the fifteen attacks. (See Kohlmann Report at
28-44.) In this section of his report, he makes no attempt to bring his expertise to bear and comes to no
conclusion as to the import or accuracy of his summaries other than concluding that Hamas has claimed responsibility for the attacks. (See id.) This tactic of
simply “repeating hearsay evidence without applying

194a
any expertise whatsoever” has been rejected by the
Second Circuit, and therefore must be rejected here.
Mejia, 545 F. 3d at 197.
Therefore, Kohlmann may testify as an expert
about Hamas’ background and use of propaganda, but
his summaries of the fifteen attacks and repetition of
evidence that Hamas was responsible for those attacks, without using any expertise, is not admissible
and cannot be relied upon by this court in deciding the
summary judgment motions.
C. Other Evidence
Plaintiffs contend that they have set forth sufficient evidence besides Shaked’s and Kohlmann’s reports that are non-hearsay or exceptions to the hearsay rule and can be authenticated. (See Pls.’ Opp’n 4850.) In particular, Plaintiffs rely upon video “wills” of
suicide bombers, Israeli court documents, Hamas’
claims of responsibility on its websites, Hamas’ written claims taking credit for attacks faxed directly to
Shaked and Israeli government records. (Id. 48-49.)
Defendant contends that the evidence Plaintiffs have
set forth has not been authenticated and is inadmissible hearsay. (See Def.’s Mem. 47-50.)
The court holds that, while not all of the evidence
Plaintiffs point to is admissible, there is sufficient admissible evidence for a reasonable jury to determine
that Hamas committed all of the fifteen attacks except
for one attack, the September 24, 2004 mortar fire attack in Neve Dekalim (“September 24 Attack”). Except
for the September 24 Attack, Shaked and Kohlmann
relied at least in part upon judgments in Israeli courts
assigning responsibility to Hamas or its operatives, official Israeli government investigative reports

195a
concluding that Hamas or its operatives were responsible for the attack and/or Shaked’s own eye-witness
accounts. (See generally Shaked Supp. Report 28-140;
Shaked Supp. Report for Mar. 7, 2003 Attack 1-9;
Kohlmann Report 28-44.) These materials are admissible and can be authenticated.
A judgment of conviction is admissible in a civil
case as an exception to the hearsay rule, if it was entered after trial or guilty plea, the conviction was for a
crime punishable by death or imprisonment for more
than one year and the evidence is admitted to prove
any fact essential to the judgment. Fed. R. Evid.
803(22). The parties do not dispute that the convictions are for crimes punishable by death or more than
one year imprisonment, the evidence is admitted to
prove an essential fact and this exception can be “applied to admit evidence of foreign criminal judgments.”
Jack B. Weinstein & Margaret A. Berger, Weinstein’s
Federal Evidence § 803.24[2], at 803-146 (Joseph M.
McLaughlin ed., 2d ed. 2012). Moreover, as foreign
public documents, they can be self-authenticated, and
Defendant has not challenged the authenticity of the
judgments at issue here. See Fed. R. Evid. 902(3);
Raphaely Int’l, Inc. v. Waterman S.S. Corp., 972 F. 2d
498, 502 (2d Cir. 1992). Defendant’s expert concedes
that, in all of the fifteen attacks except four (the March
7, 2003 attack in Kiryat Arba (“March 7 Attack”), the
April 30, 2003 attack at Mike’s Place in Tel Aviv
(“April 30 Attack”), the October 22, 2003 attack in
Hebron (“October 22 Attack”) and the September 24
Attack) are linked to Hamas by Israeli criminal judgments. (See Eckstut Decl. Ex. 154 (“Azoulay Report”)
7-13.) For these eleven attacks, therefore, Plaintiffs
have sufficient admissible evidence to create a genuine

196a
issue of material fact as to Hamas’ responsibility for
the attacks.20
Defendant argues that the Israeli judgments are
inadmissible in this case because Defendant was not a
party to the Israeli proceedings. (See Def.’s Mem. 47.)
Defendant is incorrect, as the plain language of Rule
803(22) of the Federal Rules of Evidence does not impose such a limit. See Bank Brussels Lambert v. Credit
Lyonnais (Suisse) S.A., 2001 WL 99506, at *3
(S.D.N.Y. Feb. 6, 2001) (rejecting argument “that a
criminal judgment may not be admissible against a
party who was not the subject of that judgment”). Rule
803(22)(d) specifically prevents using a previous conviction in a criminal case for purposes other than impeachment, unless the judgment was against the defendant. Fed. R. Evid. 803(22)(d). This carve out would
be unnecessary if judgments always were inadmissible
against a non-party. Defendant also argues that the
Israeli judgments would be inadmissible hearsay in Israeli courts. (See Def.’s Mem. 47-48.) However, Defendant neither points to any authority (and the court
is unaware of any) nor provides any reasoned explanation as to why this court should look to Israeli evidentiary rules and not the Federal Rules of Evidence in
making its admissibility rulings.
Defendant further maintains that verdicts from
Israeli military courts that provide evidence of Hamas’
responsibility for some of the fifteen attacks, are

20

For the January 29, 2004 attack in Jerusalem, where there
is a judgment linking Hamas to the attack, Defendant argues
that Hamas was not responsible because there is evidence that
another group carried out the attack. (See Def.’s Mem. 41-42.) At
most, the contradictory evidence raises a triable issue of fact.

197a
inadmissible because these courts do not comport with
American notions of due process. In support of its argument, Defendant directs the court to Lloyd v. American Export Lines, Inc., where the Third Circuit held
that “[t]he test of acceptance, then, of foreign judgments for which domestic recognition is sought, is
whether the foreign proceedings accord with civilized
jurisprudence, and are stated in a clear and formal record.” 580 F. 2d 1179, 1189 (3d Cir. 1978). Assuming,
arguendo, that this standard applies in the Second
Circuit, and that by “civilized jurisprudence” the Third
Circuit was referring to some minimum due process,
the military court verdicts still are admissible. The
record reflects that many of the basic rights that accused persons have in American courts also are applicable to defendants in the Israeli military courts. For
example, Israeli military trials typically are open to
the public; defendants are entitled to representation
by an attorney; the same rules of evidence as in Israeli
civilian courts apply; defendants are entitled to challenge confessions on the grounds of coercion; witnesses
are subject to cross-examination; defendants enjoy the
privilege against self-incrimination; and, if defendants
enter a guilty plea, the judge must explain the consequences of the plea to the defendant before accepting
the plea. (See Eckstut Decl. Ex. 155 (Gross Report) 2023.) While there may be some criticisms of the process
afforded defendants in Israeli military courts and
their ability to come to a reliable verdict, (see CL’s 56.1
Stmnt. ¶¶ 605-33), this affects the weight of the evidence, not admissibility, particularly where it appears
on this record that the accused were afforded more
than a modicum of due process.

198a
For three of the four attacks for which there are
no Israeli court judgments assigning blame to Hamas,
there is alternative admissible evidence a reasonable
jury can consider to determine Hamas’ responsibility.
For the October 22 Attack, Shaked states that he witnessed firsthand the aftermath of the attack and saw
evidence that Hamas was responsible. (See Shaked
Supp. Report 127.) This eyewitness account is admissible to show that Hamas perpetrated the attack.
Hamas’ responsibility for the March 7 and April
30 Attacks are supported by conclusions of public Israeli government reports that are admissible as hearsay exceptions. See Fed. R. Evid. 803(8) (public records
containing “factual findings from a legally authorized
investigation” are admissible); In re Ethylene Propylene Diene Monomer (EPDM) Antitrust Litig., 681 F.
Supp. 2d 141, 159 (D. Conn. 2009) (admitting conclusions of official foreign investigation as hearsay exception). Hamas is blamed for the March 7 Attack in an
Israeli government indictment, and the ISA’s yearly
public report on terrorist attacks concluded that Hamas was responsible for carrying out the April 30 Attack. (See Shaked Supp. Report 82-83; Shaked Supp.
Report for Mar. 7, 2003 at 7-8.) These documents can
be self-authenticated as foreign public documents. See
Fed. R. Evid. 902(3).21 In addition, Defendant gives no
21

Plaintiffs also purport to authenticate various government
documents by a proposed expert, Shaul Naim. (See Eckstut Decl.
Ex. 175 (Naim Report).) Defendant objects to Naim’s ability to
authenticate these materials. (See Def.’s Mem. 48-49.) The court
need not determine whether Naim can authenticate Plaintiffs’ evidence, because evidence sufficient to raise a genuine issue of material fact of Hamas’ responsibility can be authenticated without
Naim’s testimony, as discussed more fully in this section.

199a
reason why these reports are unreliable. See Bridgeway Corp. v. Citibank, 201 F. 3d 134, 143-44 (2d Cir.
2000) (Affirming admissibility of factual findings in
government report where nothing in the record “indicates any motive for misrepresenting the facts” in the
report.)22 Accordingly, there is sufficient admissible
evidence indicating that Hamas is responsible for the
March 7 and April 30 Attacks. See Estate of Parsons v.
Palestinian Auth., 651 F. 3d 118, 121-26 (D.C. Cir.
2011) (Holding that there is a triable issue of responsibility for attack based upon statement to Palestinian
interrogators by person who planted bomb, an FBI report and a memo in Palestinian Authorities’ investigative files assigning blame for attack).
However, Plaintiffs have not provided sufficient
admissible evidence of Hamas’ responsibility for the
September 24 Attack. The evidence Plaintiffs rely on,
through Shaked’s report, consists of: 1) newspaper reports from the Associated Press and an Israeli newspaper, Ha’aretz; 2) claims of responsibility posted on a
Hamas-affiliated website; and 3) a videotape that
Shaked purportedly viewed showing three masked
men wearing bandanas that indicate they are affiliated with Hamas. (See Shaked Supp. Report 122-23.)
22
The court notes that Judge Weinstein held that an ISA report linking a militant cell that purportedly carried out the terrorist attack to Hamas was inadmissible because the report’s conclusion was unreliable. See Gill III, 2012 WL 5395746, at *25.
However, in Gill, the relevant conclusion was supported only by
a confession repeating second-hand information of uncertain
provenance, and there was “no evidence independent of the confession that served as a basis of the ISA reports’ indication” that
the terrorist cell at issue was Hamas’ agent. Id. In this instance,
there is much more support for the ISA’s conclusion that Hamas
perpetrated the April 30 Attack. (See Shaked Supp. Report 79-84.)

200a
The newspaper reports are inadmissible hearsay and
cannot be relied upon. See Delrosario v. City of New
York, 2010 WL 882990, at *7 (S.D.N.Y. Mar. 4, 2010)
(“Newspaper articles are hearsay when introduced to
prove the truth of the matter asserted, and also must
not be admitted.”); Ladner v. City of New York, 20 F.
Supp. 2d 509, 519 (E.D.N.Y. 1998) (newspaper article
“inadmissible hearsay and unusable to defeat summary judgment”), aff’d, 181 F. 3d 83 (2d Cir. 1999) (unpublished table decision).
The claims of responsibility by Hamas taken from
their website, even assuming they could be authenticated, are hearsay. Plaintiffs assert that the statements are admissible as a hearsay exception because
they are declarations against interest by unavailable
witnesses pursuant to Rule 804(b)(3) of the Federal
Rules of Evidence. (See Pls.’ Opp’n 49.) While admitting to a violent attack on innocents typically is detrimental to a declarant’s interests, the interests and motives of terrorists are far from typical. “Under the perverse assumptions of terrorists, an armed attack on civilians reflects glory. Taking ‘credit’ for such an attack
is deemed a benefit, not a detriment, and is not reliable under the circumstances.” Gill III, 2012 WL
5395746, at *23. As Plaintiffs’ experts explain in detail, Hamas actively seeks publicity for its claims of
responsibility for attacks against Israelis as part of its
propaganda. (See Shaked Supp. Report 5-6; Kohlmann
Report 8.) Thus, in this instance, Hamas’ claims of responsibility were not against its interest as an organization such that Hamas only would have made them if
it believed them to be true.
Finally, Shaked’s claim that he viewed a videotape of masked men wearing Hamas bandanas firing

201a
mortars is insufficient to defeat summary judgment on
the September 24 Attack, even assuming Plaintiffs
could produce this video. The court finds that a video
of men with Hamas bandanas firing mortars in the
general area where the September 24 Attack occurred,
without more, is insufficient to create a jury issue as
to Hamas’ responsibility for the attack. Plaintiffs have
not explained how they could authenticate such a
video filmed by an unidentified third party, allegedly
affiliated with Hamas. Among other infirmities, Plaintiffs do not point to any admissible evidence establishing when the video was filmed or who is in the video.
Notably, even Shaked concludes only that Hamas “apparently” perpetrated the September 24 Attack and
explains that the evidence he relies upon for his tentative conclusion “is not subject to the same level of comparative analysis as were the other attacks which
were examined.” (Shaked Supp. Report 16.)
Accordingly, summary judgment is granted in favor of the Defendant for the September 24 Attack, but
there is sufficient admissible evidence for a jury to conclude that Hamas was responsible for the other fourteen attacks.
VI. Café Hillel Plaintiffs’ Motion for Summary
Judgment
A. Scienter
The Café Hillel Plaintiffs assert they have proven,
as a matter of law, that Defendant knew it was supporting terrorism by at least August 2003, when the
United States government designated CBSP as a
SDGT, and before the terrorist attack on the Café Hillel. (See CH Pls.’ Mem. 12-27.) Defendant responds
that OFAC’s designation of CBSP as a SDGT did not

202a
apply to Defendant’s conduct as a French bank in its
relations with its French customer in France, and that
OFAC’s designation under its regulatory power cannot
be used as a shortcut to show scienter under the ATA.
(See Def.’s Opp’n 4-21.) The court agrees with Defendant.
CBSP was designated as a SDGT pursuant to Executive Order 13224, 66 Fed. Reg. 49,079 (Sept. 23,
2001). (See Israel Decl. Ex. 31 at 5); see also 31 C.F.R.
§ 594.310 (“The term specially designated global terrorist or SDGT means any foreign person or person . .
. designated pursuant to Executive Order 13224 of
September 23, 2001.”) Pursuant to federal regulations,
“property and interests in property” of organizations
designated as a SDGT “that are in the United States,
that hereafter come within the United States, or that
hereafter come within the possession or control of U.S.
persons, including their overseas branches, are
blocked and may not be transferred, paid, exported,
withdrawn or otherwise dealt in.” 31 C.F.R. §
594.201(a).
Defendant and Café Hillel Plaintiffs argue at
length about the extraterritorial application of United
States OFAC regulations, but this discussion largely
misses its mark. Even assuming, for the sake of argument only, that Defendant’s French operations23

23

While Defendant does operate some branches within the
United States, none of the parties have presented any evidence
that contributions to CBSP, through its accounts with Defendant,
were made by persons within the United States.

203a
somehow come within the definition of “U.S. persons”24
and, therefore, Defendant was required to block transactions with CBSP for purposes of federal regulations,
there is nothing in either the ATA or the regulations
promulgated pursuant to Executive Order 13224 suggesting that providing services for a SDGT is a violation per se of the ATA. Instead, the ATA explicitly prevents only doing business with a FTO, see 18 U.S.C. §
2339B(a), which is a separate designation under different regulations. Notably, CBSP was never designated as a FTO by the United States government. The
OFAC regulations provide their own civil penalties for
parties that do business with SDGTs, see 31 C.F.R. §
594.701, and the ATA is a separate statute that imposes civil and criminal penalties for providing material support to FTOs specifically, see 18 U.S.C. §
2339B, and terrorist acts more generally. See 18
U.S.C. § 2339C. Thus, while conceivably there may be
occasions where an entity violates 31 C.F.R. §
594.201(a) and the ATA, there is nothing in either that
suggests that a violation of one automatically constitutes a violation of the other. Accordingly, the OFAC
designation of CBSP as a SDGT does not establish scienter automatically as a matter of law under Section
2333(a).
Moreover, while, as discussed above, the United
States government’s announcement that it had “credible evidence” that CBSP was a primary fundraiser for
Hamas in France provides evidence that Defendant

24

The relevant regulations define “U.S. person” as “any
United States citizen, permanent resident alien, entity organized
under the laws of the United States (including foreign branches),
or any person in the United States.” 31 C.F.R. § 594.315.

204a
knew or deliberately disregarded that it was supporting terrorism through CBSP’s accounts, a reasonable
juror need not necessarily come to that conclusion. For
example, the French government investigated CBSP
twice after Defendant referred it to the government
and did not bring charges, and CBSP still is a lawfully
registered charity in France. (CL’s 56.1 Stmnt. ¶¶ 100,
104-05, 114; Pls.’ 56.1 Resp. ¶¶ 100, 104-05, 114.) Defendant reasonably may have relied upon the French
government’s exoneration of CBSP and honestly believed there was no evidence that CBSP was raising
money for Hamas. Therefore, Café Hillel Plaintiffs
have not established scienter conclusively after August 2003. Accordingly, summary judgment is denied
for the Café Hillel Plaintiffs.
B. Proximate Cause and Article III Standing
Café Hillel Plaintiffs assert that they have established as a matter of law that Defendant proximately
caused their damages and that they have Article III
standing. (See CH Pls.’ Mem. 27-41.) They contend the
evidence demonstrates that Defendant sent money to
Hamas front groups at the behest of CBSP, and that
this is sufficient to show standing and proximate causation. (Id.) Defendant responds with the same arguments it made in its memorandum of law in support of
its summary judgment motion. (See Def.’s Opp’n 2537.)
While, for the same reasons discussed above (see
supra § III), Plaintiffs have shown at this stage of the
proceedings that Defendant’s conduct is fairly traceable to Café Hillel Plaintiffs’ damages and a reasonable
jury could find that Defendant was a substantial factor
in causing the damages, a reasonable juror also could

205a
find the opposite. Among other things, based on evidence that Hamas receives much more money from
other sources, that other intervening actors may have
caused any given terrorist attack, and lack of evidence
that the 13 Charities had any direct role in the Café
Hillel attack (see Def.’s 56.1 Stmnt. ¶ 598; Pls.’ 56.1
Resp. ¶ 598), a reasonable juror could conclude the
connection between Defendant and the attack is too
attenuated as a factual matter to hold Defendant liable.
Moreover, while the record shows that there is significant overlap among the 13 Charities and Hamas,
the evidence is not conclusive that they were mere Hamas alter egos. There is evidence that they did have
some independent identity, because, for example, they
maintained their own bank accounts and had their
own boards of directors. (See Def.’s 56.1 Stmnt. ¶¶ 313,
316-18, 322-23; Pls.’ 56.1 Resp. ¶¶ 313, 316-18, 32223.) A juror thus could conclude that Defendant was
not sending money to terrorists when it sent money to
the 13 Charities. For this additional reason, summary
judgment is inappropriate.
C. Hamas’ Responsibility
Café Hillel Plaintiffs assert that the record establishes, as a matter of law, that Hamas was responsible
for the Café Hillel attack. (See CH Pls.’ Mem. 37-41.)
Besides Shaked’s and Kohlmann’s reports, Plaintiffs
point to evidence that a Hamas operative was convicted for his role in the attack and Hamas claimed responsibility for the attack on its websites. (See id.) Defendant responds that Hamas’ claims of responsibility
and the convictions are inadmissible hearsay and not
authenticated. (See Def.’s Opp’n 38-42.)

206a
As discussed above (see supra § V), Shaked’s and
Kohlmann’s proposed attribution testimony is inadmissible to the extent that it simply repeats inadmissible evidence. However, Café Hillel Plaintiffs have
admissible conviction evidence showing that Hamas
was responsible for the attack. Specifically, Café Hillel
Plaintiffs submit certified sentencing and appellate
records of Amru Abd Al-Aziz, who was convicted for
his role in the Café Hillel attack. (See Israel Decl. Exs.
66-67.) In the sentencing record, the civilian Jerusalem District Court describes how Al-Aziz was convicted of assisting the suicide bomber who perpetrated
the Café Hillel attack and how the attack was carried
out at Hamas’ direction. (Israel Decl. Ex. 66, ¶¶ 2-4.)
The record also reflects that the court sentenced AlAziz to seven life imprisonment terms, one for each of
the seven people who died in the attack, and thirty
years’ imprisonment for assisting an enemy in war
and for the attempted murder of the 64 people who
were injured in the attack. (Id. ¶ 10.) The appellate
decision by the Israeli High Court of Justice affirming
the conviction describes in more detail the attack on
the Café Hillel and the testimony of Al-Aziz’s co-conspirators. (Israel Decl. Ex. 67, ¶¶ 1-4.) The court also
describes the Hamas cell that planned and perpetrated the attack. (See id. ¶ 11.)
Defendant does not present any evidence contradicting the findings of the Israeli courts that blame
Hamas for the attack and there is nothing in either the
sentence or the appeal calling into question Hamas’ responsibility. Defendant attacks the admissibility and
authenticity of the documents, but the certified sentencing record and the appellate decision are admissible as foreign judgments and are authenticated. See

207a
Fed. R. Evid. 803(22), 902(3); see also § V.C. On this
record, because of the uncontroverted evidence that
Hamas carried out the Café Hillel attack, Café Hillel
Plaintiffs have established as a matter of law that Hamas carried out the Café Hillel attack, and summary
judgment is granted in Café Hillel Plaintiffs’ favor
with respect to the Hamas responsibility element of
their claims.
CONCLUSION
For the foregoing reasons, Defendant’s motion for
summary judgment is denied in part and granted in
part. Accordingly, the claims brought by Shlomo Tratner, individually and on behalf of the Estate of Tiferet
Tratner, in connection with the September 24 Attack
only are dismissed. The claims based on the remaining
fourteen attacks shall proceed. In addition, Café Hillel
Plaintiffs’ motion for summary judgment is denied in
part and granted only to the extent that they have
proven Hamas’ responsibility for the Café Hillel attack. The other elements of the claim must be proven
before a jury.
SO ORDERED.
Dated: Brooklyn, New York
February 28, 2013
s/
DORA L. IRIZARRY
United States District Judge

208a
APPENDIX F
________________________________
18 U.S.C. § 2331 provides in relevant part:
§ 2331. Definitions
As used in this chapter—
(1) the term “international terrorism” means activities that—
(A) involve violent acts or acts dangerous to human life that are a violation of the criminal laws of
the United States or of any State, or that would be
a criminal violation if committed within the jurisdiction of the United States or of any State;
(B) appear to be intended—
(i) to intimidate or coerce a civilian population;
(ii) to influence the policy of a government by
intimidation or coercion; or
(iii) to affect the conduct of a government by
mass destruction, assassination, or kidnapping;
and
(C) occur primarily outside the territorial jurisdiction of the United States, or transcend national
boundaries in terms of the means by which they are
accomplished, the persons they appear intended to
intimidate or coerce, or the locale in which their perpetrators operate or seek asylum;
*

*

*

209a
18 U.S.C. § 2333 provides:
§ 2333. Civil remedies
(a) ACTION AND JURISDICTION.—Any national of
the United States injured in his or her person, property, or business by reason of an act of international
terrorism, or his or her estate, survivors, or heirs, may
sue therefor in any appropriate district court of the
United States and shall recover threefold the damages
he or she sustains and the cost of the suit, including
attorney’s fees.
(b) ESTOPPEL UNDER UNITED STATES LAW.—A final judgment or decree rendered in favor of the United
States in any criminal proceeding under section 1116,
1201, 1203, or 2332 of this title or section 46314,
46502, 46505, or 46506 of title 49 shall estop the defendant from denying the essential allegations of the
criminal offense in any subsequent civil proceeding
under this section.
(c) ESTOPPEL UNDER FOREIGN LAW.—A final judgment or decree rendered in favor of any foreign state
in any criminal proceeding shall, to the extent that
such judgment or decree may be accorded full faith
and credit under the law of the United States, estop
the defendant from denying the essential allegations
of the criminal offense in any subsequent civil proceeding under this section.
(d) LIABILITY.—
(1) DEFINITION.—In this subsection, the term
“person” has the meaning given the term in section
1 of title 1.
(2) LIABILITY.—In an action under subsection
(a) for an injury arising from an act of international
terrorism committed, planned, or authorized by an

210a
organization that had been designated as a foreign
terrorist organization under section 219 of the Immigration and Nationality Act (8 U.S.C. 1189), as of
the date on which such act of international terrorism was committed, planned, or authorized, liability may be asserted as to any person who aids and
abets, by knowingly providing substantial assistance, or who conspires with the person who committed such an act of international terrorism.
(e) USE OF BLOCKED ASSETS TO SATISFY JUDGMENTS OF U.S. NATIONALS.—For purposes of section
201 of the Terrorism Risk Insurance Act of 2002 (28
U.S.C. 1610 note), in any action in which a national of
the United States has obtained a judgment against a
terrorist party pursuant to this section, the term
“blocked asset” shall include any asset of that terrorist
party (including the blocked assets of any agency or
instrumentality of that party) seized or frozen by the
United States under section 805(b) of the Foreign Narcotics Kingpin Designation Act (21 U.S.C. 1904(b)).
18 U.S.C. § 2339A provides in relevant part:
§ 2339A. Providing material support to terrorists
*

*

*

(b) DEFINITIONS.—As used in this section—
(1) the term “material support or resources”
means any property, tangible or intangible, or service, including currency or monetary instruments or
financial securities, financial services, lodging,
training, expert advice or assistance, safehouses,
false documentation or identification, communications equipment, facilities, weapons, lethal substances, explosives, personnel (1 or more

211a
individuals who may be or include oneself), and
transportation, except medicine or religious materials;
(2) the term “training” means instruction or
teaching designed to impart a specific skill, as opposed to general knowledge; and
(3) the term “expert advice or assistance”
means advice or assistance derived from scientific,
technical or other specialized knowledge.
18 U.S.C. § 2339B provides in relevant part:
§ 2339B. Providing material support or resources
to designated foreign terrorist organizations
(a) PROHIBITED ACTIVITIES.—
(1) UNLAWFUL CONDUCT.—Whoever knowingly
provides material support or resources to a foreign
terrorist organization, or attempts or conspires to
do so, shall be fined under this title or imprisoned
not more than 20 years, or both, and, if the death of
any person results, shall be imprisoned for any term
of years or for life. To violate this paragraph, a person must have knowledge that the organization is a
designated terrorist organization (as defined in subsection (g)(6)), that the organization has engaged or
engages in terrorist activity (as defined in section
212(a)(3)(B) of the Immigration and Nationality
Act), or that the organization has engaged or engages in terrorism (as defined in section 140(d)(2) of
the Foreign Relations Authorization Act, Fiscal
Years 1988 and 1989).
*

*

*

